<html>
<title> - MANAGEMENT AND ACCESS CHALLENGES ACROSS SOUTHWESTERN FORESTS</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]




 
     MANAGEMENT AND ACCESS CHALLENGES ACROSS SOUTHWESTERN FORESTS

=======================================================================

                        OVERSIGHT FIELD HEARING

                               before the

                      SUBCOMMITTEE ON FORESTS AND
                             FOREST HEALTH

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

            Monday, December 15, 2003, in Grants, New Mexico

                               __________

                           Serial No. 108-82

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
90-928                      WASHINGTON : DC
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                         COMMITTEE ON RESOURCES

                 RICHARD W. POMBO, California, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska                    Dale E. Kildee, Michigan
W.J. ``Billy'' Tauzin, Louisiana     Eni F.H. Faleomavaega, American 
Jim Saxton, New Jersey                   Samoa
Elton Gallegly, California           Neil Abercrombie, Hawaii
John J. Duncan, Jr., Tennessee       Solomon P. Ortiz, Texas
Wayne T. Gilchrest, Maryland         Frank Pallone, Jr., New Jersey
Ken Calvert, California              Calvin M. Dooley, California
Scott McInnis, Colorado              Donna M. Christensen, Virgin 
Barbara Cubin, Wyoming                   Islands
George Radanovich, California        Ron Kind, Wisconsin
Walter B. Jones, Jr., North          Jay Inslee, Washington
    Carolina                         Grace F. Napolitano, California
Chris Cannon, Utah                   Tom Udall, New Mexico
John E. Peterson, Pennsylvania       Mark Udall, Colorado
Jim Gibbons, Nevada,                 Anibal Acevedo-Vila, Puerto Rico
  Vice Chairman                      Brad Carson, Oklahoma
Mark E. Souder, Indiana              Raul M. Grijalva, Arizona
Greg Walden, Oregon                  Dennis A. Cardoza, California
Thomas G. Tancredo, Colorado         Madeleine Z. Bordallo, Guam
J.D. Hayworth, Arizona               George Miller, California
Tom Osborne, Nebraska                Edward J. Markey, Massachusetts
Jeff Flake, Arizona                  Ruben Hinojosa, Texas
Dennis R. Rehberg, Montana           Ciro D. Rodriguez, Texas
Rick Renzi, Arizona                  Joe Baca, California
Tom Cole, Oklahoma                   Betty McCollum, Minnesota
Stevan Pearce, New Mexico
Rob Bishop, Utah
Devin Nunes, California
Randy Neugebauer, Texas

                     Steven J. Ding, Chief of Staff
                      Lisa Pittman, Chief Counsel
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel
                                 ------                                

               SUBCOMMITTEE ON FORESTS AND FOREST HEALTH

                   SCOTT McINNIS, Colorado, Chairman
            JAY INSLEE, Washington, Ranking Democrat Member

John J. Duncan, Jr., Tennessee       Dale E. Kildee, Michigan
Walter B. Jones, Jr., North          Tom Udall, New Mexico
    Carolina                         Mark Udall, Colorado
John E. Peterson, Pennsylvania       Anibal Acevedo-Vila, Puerto Rico
Thomas G. Tancredo, Colorado         Brad Carson, Oklahoma
J.D. Hayworth, Arizona               Betty McCollum, Minnesota
Jeff Flake, Arizona                  VACANCY
Dennis R. Rehberg, Montana           VACANCY
Rick Renzi, Arizona                  Nick J. Rahall II, West Virginia, 
Stevan Pearce, New Mexico                ex officio
Richard W. Pombo, California, ex 
    officio


                                 ------                                
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on Monday, December 15, 2003........................     1

Statement of Members:
    Pearce, Hon. Stevan, a Representative in Congress from the 
      State of New Mexico........................................     1
        Prepared statement of....................................     3

Statement of Witnesses:
    Barrow, Sherry, President, SBS Wood Shavings.................    57
        Prepared statement of....................................    61
    Blazer, Arthur ``Butch,'' New Mexico State Forester..........     9
        Prepared statement of....................................    11
    Choate, Hon. S. Rufus, Commissioner, Catron County...........    18
        Prepared joint statement of..............................    29
    Cowan, Caren, Executive Director, New Mexico Cattle Growers' 
      Association................................................    19
        Prepared statement of....................................    21
    Forsgren, Harv, Regional Forester, Region 3, New Mexico and 
      Arizona, Forest Service, U.S. Department of Agriculture....     4
        Prepared statement of....................................     6
    Fowler, John, Ph.D., Range Improvement Task Force, 
      Cooperative Extension Service, College of Agriculture and 
      Home Economics, New Mexico State University................    43
        Prepared statement of....................................    45
    McCarthy, Laura Falk, Forest Protection Program Director, 
      Forest Trust...............................................    64
        Prepared statement of....................................    66
    Padilla, Thora, Resource Program Manager, Mescalero Apache 
      Tribe......................................................    55
        Prepared statement of....................................    56
    Wehrheim, Hon. Ed, Commission Chairman, Catron County........    27
        Prepared joint statement of..............................    28



  OVERSIGHT FIELD HEARING ON MANAGEMENT AND ACCESS CHALLENGES ACROSS 
                          SOUTHWESTERN FORESTS

                              ----------                              


                       Monday, December 15, 2003

                     U.S. House of Representatives

               Subcommittee on Forests and Forest Health

                         Committee on Resources

                           Grants, New Mexico

                              ----------                              

    The Subcommittee met, pursuant to call, at 10 a.m., at the 
Campus Auditorium, NMSU, Grants, New Mexico, Hon. Stevan Pearce 
presiding.

   STATEMENT OF THE HON. STEVAN PEARCE, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF NEW MEXICO

    Mr. Pearce. The Subcommittee on Forests and Forest Health 
will come to order. The Subcommittee is meeting here today to 
hear testimony on ``Management and Access Challenges Across the 
Southwestern Region Forests.''.
    We're going to begin our program with, first of all, the 
posting of colors by the Grants High School ROTC. We'll then 
have an invocation, which is going to be led by Pastor Clemente 
Saavedra. The Pledge of Allegiance will be led by Sergeant 
Manuel Atencio, and Ken Moore then is going to present God 
Bless America for us. We will not have introduction of the 
different components at this beginning phase, we will simply 
transition through them. And at this time if I could have 
everyone stand for the Presentation of the Colors.
    [Whereupon the Colors were posted.]
    Mr. Pearce. If you would please now join me for the Pledge 
of Allegiance.
    [Whereupon the Pledge of Allegiance was said.]
    Pastor Saavedra. God bless you this morning. I find it a 
great privilege to be able to bring this prayer to you this 
morning so God will lead you and guide you in everything. And I 
think it's very appropriate that I would read Psalm 23, where 
it says, ``The Lord is my shepherd, I will not lack nothing. He 
makes me lie down in green pastures; He leads me beside quiet 
waters; He restores my soul. And He guides me in the path of 
righteousness for His name's sake. For though I walk through 
the valley of the shadow of death, I will fear no evil; for You 
are with me; Your rod and Your staff, they comfort me. You 
prepare a place, a table before me in the presence of my 
enemies; You anoint my head with oil; my cup overflows. Surely 
goodness and love will follow me all the days of my life, and I 
will dwell in the house of the Lord forever.''.
    Shall we bow our heads to pray. Our Heavenly Father, we 
come before You this morning, Lord, and I ask You, Lord, for 
each and every person in this place, that tonight that You will 
guide them; that You will help them; that You will be with them 
in everything that they do tonight in this place this morning. 
And also guide the Congressmen that are here, that You will 
lead them also, God, that You will help them; that Your mighty 
hand will be upon them, God, that they will be able to lead 
whatever they are going to be doing this morning. God, whatever 
takes place, that it will be all for Your glory and for Your 
honor, God, and that You will help each and every person that 
has a part and participates in this meeting this morning, Lord. 
And I ask You, God, that You will just bless them and help 
them.
    [Whereupon there was a prayer said in Spanish.]
    [Whereupon God Bless America was played on the harmonica by 
Ken Moore.]
    Mr. Pearce. Thank you, Ken. We will keep our troops in our 
thoughts and prayers. It's still a very dangerous situation, 
and we are making headway and good progress, but danger remains 
daily.
    The listening audience today includes the listeners of KMIN 
radio, and we appreciate them broadcasting this Congressional 
Hearing. It's important for all of the information that we 
present to be available to the general public as well as back 
in Congress.
    We are joined today in this field hearing by staffers from 
Washington, Teresa Fierro and Erica. They both are here 
representing the staff and will see that the transcript and the 
things that are said here today are presented formally to the 
Resources Committee to the Forests Subcommittee.
    I want to welcome everyone today to this Resources 
Committee field hearing. I appreciate all of the witnesses who 
have traveled long distances to present their testimony. I look 
forward to hearing the testimony. Our national forests are 
treasuries for New Mexico and for the nation. Forests provide 
unique and varied recreational opportunities for our citizens.
    In New Mexico our forests provide much of the water that 
flows into our streams and rivers, water that New Mexicans use 
to drink, to irrigate, to provide water for the livestock. Our 
forests provide water for our communities, our businesses and 
people, as well as the habitat for livestock, for wildlife, 
often at great distances from the forests themselves, the 
effects are felt.
    The forests also provide timber to construct our homes, 
schools and churches, and they provide jobs for rural 
communities. Our forests are a dynamic interrelated ecosystem 
that have a tremendous impact on all the lands in New Mexico, 
including private, state and tribal lands.
    Today witnesses will discuss with us how the management of 
the Southwestern national forests impacts state and tribal 
lands, private property, and communities located near our 
forests. Hopefully we can all learn from each other and 
continue to work together to improve the health of our forests, 
as well as improve the lives of the residents who live in the 
forest communities. Our forests are a precious resource and an 
asset we must protect. We have a responsibility to insure that 
we leave them in good health for our children and for future 
generations.
    Recently Congress passed the Healthy Forests Restoration 
Act, and it was signed into law. This law will allow us to 
begin to thin our overgrown forests and restore the health and 
vitality of New Mexico's forests instead of leaving our forests 
vulnerable to infestations of disease and, ultimately, 
catastrophic wildfire.
    These wildfires that burn with such intensity are not 
natural. They damage the forests to the point where new trees 
will not grow for generations. They also pollute our air and 
our water. By cleaning our forests we will reduce the intensity 
of naturally recurring fires, return our forests back to 
healthy natural states, where we can leave them as a legacy to 
our children and grandchildren.
    For me, the point of this Congressional Hearing is obvious, 
we've passed a law in Congress and we intend for the agencies 
to understand the Congressional intent. Many of the comments 
and questions today will be to clarify exactly what the 
Congressional intent was in this piece of legislation.
    Many times agencies and bureaucracies, either because they 
do not understand or because they have their own agendas, drive 
away from the Congressional intent; and it's the purpose of 
this hearing to establish that intent very firmly in the minds 
of the people in the Second District, that we might hold 
ourselves accountable.
    The first panel that we have include witnesses, Mr. Harv 
Forsgren, the Regional Forester for Region III, New Mexico and 
Arizona, U.S. Forest Service, accompanied by Mr. Jose Martinez, 
the Forest Supervisor of the Lincoln National Forest, and Mr. 
Arthur ``Butch'' Blazer, the New Mexico State Forester.
    [The prepared statement of Mr. Pearce follows:]

Statement of The Honorable Stevan Pearce, a Representative in Congress 
                      from the State of New Mexico

    I want to welcome everyone here today to the Resources Committee 
Subcommittee on Forest and Forest Health field hearing on Management 
and Access Challenges Across Southwestern Forests. I appreciate all the 
witnesses who traveled long distances to present their testimony, and I 
look forward to hearing that testimony.
    Our National Forests are a treasure for New Mexico, and for the 
nation. Forests provide unique and varied recreational opportunities 
for our citizens. In New Mexico, our forests provide much of the water 
that flows in our streams and rivers; water that New Mexicans use to 
drink, irrigate crops and water livestock. Our forests provide water 
for our communities, our businesses and people, as well as habitat for 
wildlife, often at great distances from the forests themselves. The 
forests also provide timber to construct our homes, schools and 
churches, and they provide jobs for rural communities.
    Our forests are dynamic, interrelated ecosystems that have a 
tremendous impact on all lands in New Mexico, including private, state 
and tribal lands. Today, witnesses will discuss with us how the 
management of Southwestern National Forests impact state and tribal 
lands, private property, and communities located near our forests. 
Hopefully, we can all learn from each other and continue to work 
together to improve the health of our forests, as well as improve the 
lives of the residents who live in forest communities.
    Our forests are a precious resource and an asset we must protect. 
We have a responsibility to ensure we leave them in good health for our 
children and for the future. Recently, Congress passed the Healthy 
Forest Restoration Act, and it was signed into law. This law will allow 
us to begin to thin our overgrown forests and restore the health and 
vitality of New Mexico's forests, instead of leaving our forests 
vulnerable to infestation, disease and ultimately, catastrophic 
wildfires.
    These wildfires that burn with such intensity are not natural, and 
damage the forests to the point where new trees do not grow for 
generations. They also pollute our air and our water. By cleaning our 
forests, we will reduce the intensity of naturally occurring fires, and 
return our forests back to a healthy, natural state that we can leave 
as a legacy to our children and grandchildren.
                                 ______
                                 
    Mr. Pearce. The Resources Committee has a policy of 
swearing in all of the witnesses, and if you all would please 
stand and take your oath.
    [Witnesses sworn.]
    Mr. Pearce. Thank you. Let me remind the witnesses that 
under our Committee Rules you must limit your oral statements 
to five minutes. Your entire statement will appear in the 
record of these proceedings and will be a part of the 
transcripts that are given to the full Committee.
    And given that, I now recognize Mr. Forsgren for his 
statement for five minutes.

 STATEMENT OF HARV FORSGREN, REGIONAL FORESTER, REGION 3, NEW 
 MEXICO AND ARIZONA, U.S. FOREST SERVICE, ACCOMPANIED BY JOSE 
      MARTINEZ, FOREST SUPERVISOR, LINCOLN NATIONAL FOREST

    Mr. Forsgren. Congressman Pearce, thank you for the 
opportunity to be here today to discuss with you management 
challenges of the forests and grasslands in the Southwestern 
Region and, more specifically, the national forests in New 
Mexico. My name is Harv Forsgren. I am Regional Forester of the 
Southwestern Region of the Forest Service.
    At the outset I want to thank you and other members of 
Congress for your leadership during consideration of H.R. 1904, 
the Healthy Forests Restoration Act of 2003, signed into law by 
the president earlier this month. Nowhere will this law have 
more positive effect than here in the Southwest.
    The Forest Service's Southwestern Region encompasses over 
21 million acres of National Forests and Grasslands in Arizona, 
New Mexico and the panhandles of Texas and Oklahoma. As 
Regional Forester I am working to focus our resources and 
efforts in three areas:
    First, to restore the ecological functionality of 
Southwestern forests and grasslands.
    Second, to help communities protect themselves from the 
threats of wildfire.
    And third, to contribute to the economic vitality of local 
communities.
    These three priorities are inseparably connected. Although 
we're quick to recognize the benefits communities derive from 
healthy forests, in the Southwest the health of our forests is 
dependent upon the economic vitality of local communities--
specifically the presence of infrastructure to utilize the 
biomass that must be removed from our forests to restore their 
health.
    We're all familiar with the factors contributing to the 
current state of our forests and grasslands; nearly 100 years 
of effective fire suppression, five to 7 years of crippling 
drought, insect and disease infestations, increasing demands 
for limited forage from wild ungulates, and encroachment on 
pinon-juniper stands into grasslands.
    While the challenges we face in restoring forest and 
grassland health may seem daunting, I am nevertheless, very 
optimistic for our opportunities for success.
    One reason for that optimism is legislation passed by 
Congress last year. Stewardship contracting authority is one of 
the most important pieces of conservation legislation to come 
along in my career. Given the geographic scale of the ``forest 
health'' issue in the Southwest we cannot expect Congress to 
appropriate sufficient funds to cut and dispose of the biomass 
that must be removed from our forests. Such a solution is 
neither economically nor environmentally viable.
    Stewardship contracting provides two important new 
authorities that will help facilitate private investment in 
infrastructure needed to utilize the small diameter materials 
that are choking our forests. First, under Stewardship 
contracting authority we are able to enter into contracts which 
range up to 10 years in length, providing greater surety of 
supply and raw materials. Second, under this new authority we 
are able to trade what value there is in the material to help 
offset the cost of removal--essential to stretching finite 
resources to treat more acres.
    However, stewardship contracting is no silver bullet. We 
will still need to meet the full suite of laws, regulations and 
policies. We will still need to find--or to fund treatments 
that won't pay for themselves. And here in the Southwest that 
will be typical of our stewardship contracting projects. But 
stewardship contracting in concert with the Healthy Forests 
Restoration Act and the administrative steps being taken under 
the president's Healthy Forest Initiative will enable us to 
accomplish much more as less cost in the future.
    I'd also like to address another significant management 
challenge we face in the Southwestern Region--rangeland 
management. Livestock grazing on national forests is a time-
honored and legitimate use of public lands. A healthy livestock 
industry contributes significantly to community vitality.
    Although light to moderate precipitation has been received 
recently over most of Arizona and New Mexico, the ongoing 
drought continues to plague the region. As a result, rangelands 
are experiencing soil moisture deficits that affect virtually 
every physiological process in plants.
    The region is acutely aware of range administration 
concerns being expressed by permittees, industry 
representatives and elected officials. I have met personally 
with many permittees and industry representatives and listened 
carefully to what they've had to say. Forest Supervisors, 
Rangers, and range specialists have done likewise. As a result 
we've identified a number of steps that I feel begin to address 
data concerns. I'd be happy to enumerate those steps during the 
discussion period.
    The region is being as flexible as possible in allowing 
changes in use and finding alternative forage resources on a 
case-by-case basis while making sure our decisions comply with 
Federal laws and are consistent with good land stewardship. 
Although much has been accomplished, we recognize the 
opportunity to do more and have a number of actions in 
progress.
    To address the continuing cycle of appeals and litigation 
I'm committed to streamlining compliance with the Endangered 
Species Act and meeting Congressional intent regarding a 
National Environmental Policy Act analysis of grazing 
allotments. The region has an aggressive schedule to bring all 
grazing allotment into compliance with NEPA by 2010, which will 
require completing NEPA on about 110 allotments per year.
    In closing, we will continue to address the threats to the 
health of our forests and grasslands in the Southwestern Region 
during this period of severe drought. To be successful, we 
recognize we must and we're committed to continue working with 
all who have a stake in the management of the national forests. 
That concludes my prepared remarks.
    Mr. Pearce. Mr. Forsgren, thank you for your testimony.
    [The prepared statement of Mr. Forsgren follows:]

  Statement of Harv Forsgren, Regional Forester, Southwestern Region, 
                          USDA Forest Service

    Mr. Chairman and Members of the Committee:
    Thank you for the opportunity to be with you today to discuss the 
management challenges of the forests and rangelands in the Southwestern 
Region and, more specifically, the national forests in New Mexico. My 
name is Harv Forsgren. I am the Regional Forester for the Southwestern 
Region of the Forest Service. With me today is Jose Martinez, Forest 
Supervisor of the Lincoln National Forest, and Steve Libby, Resource 
Staff Officer on the Gila National Forest.
    At the outset, Mr. Chairman, I want to thank you and other members 
of this Committee for your leadership during consideration of H.R. 
1904, the Healthy Forests Restoration Act of 2003, signed by President 
Bush earlier this month. I believe this new law will have a significant 
positive effect here in the Southwest.
    The Southwestern Region encompasses over 21 million acres of 
National Forests and Grasslands in Arizona, New Mexico and the 
panhandles of Texas and Oklahoma. Our statutory mission is to manage 
these lands for multiple-use while sustaining health, diversity, and 
productivity. Here in New Mexico, the Forest Service manages over nine 
million acres of forest and rangelands for a multitude of purposes, 
including livestock grazing, mining, utilization of forest products, 
recreation, and watershed protection.
    As Regional Forester I am focusing our resources and efforts in 
three areas:
    <bullet>  Restore the ecological functionality of Southwestern 
forests and range lands;
    <bullet>  Help communities protect themselves from the threats of 
wildfire; and
    <bullet>  Contribute to the economic vitality of local communities.
    These three priorities are inseparably connected. Although we are 
quick to recognize the benefits communities derive from healthy 
forests, in the Southwest the health of our forests is dependent upon 
the economic vitality of local communities--specifically the presence 
of infrastructure to utilize the biomass that must be removed from 
those forests to restore their health.
    The most significant land health challenge we face in the Southwest 
is captured by one startling statistic:
    Of the 21 million acres of National Forest System lands in the 
Southwestern Region, more than 80 percent of that acreage is at 
moderate to high risk of uncharacteristic wildfire. I say 
``uncharacteristic'' not because fire is an unnatural feature of our 
forests--it is not! Historically, about 85 percent of the landscape 
burned very frequently, but at low intensity. Rather, I use the word 
``uncharacteristic'' because the current condition of our forests 
results in fires that are unnaturally large and intense. These fires 
can severely damage our watersheds. They can alter soils, reducing 
their ability to capture and hold moisture, accelerating erosion, and 
deteriorating water quality. These fires destroy important wildlife 
habitats and remnant old growth stands, and hurt visual quality. As we 
have seen in New Mexico, and more recently in southern California, 
these fires can also destroy lives, property and local economies.
    Due to effective fire suppression for most of the last century, our 
Ponderosa Pine forests that were once open and park-like, supporting 
between 50 and 200 trees per acre, are today a dense tangle of up to 
2,000 trees per acre. Our forests are literally choking themselves to 
death.
    Our current drought is making matters worse. Drought-stressed trees 
are unable to fend off attacks from insects. The Southwest's landscape 
is now blanketed by hundreds of thousands of acres of red--then brown--
pinyon and Ponderosa Pine forests killed by insects, further adding to 
the fire danger.
    In addition, here in New Mexico over the last 50 years we have lost 
about one percent of our ranges each year to pinyon-juniper 
encroachment, which has adversely affected forage and water 
availability. And the expansion of the elk population in some areas of 
the state has resulted in competition for forage which has been limited 
by woody vegetation encroachment and continued drought.
    Restoring the health of our forests and rangelands, and securing 
the associated benefits for future generations will require both active 
management and naturally occurring wildfire. Simply stated, we need to 
thin our forests by reducing the total biomass, removing the excess 
number of trees and carefully reintroducing fire into our forests.
    The picture I have painted of the challenges we face in restoring 
forest and grassland health may seem daunting. Nevertheless, I'm very 
optimistic about our opportunity for success.
Healthy Forest Initiative
    One reason for that optimism is the President's Healthy Forest 
Initiative. The administrative, regulatory and legislative actions 
resulting from this focus on active management have given our land 
managers more tools--including stewardship contracting authority. This 
is one of the most important conservation initiatives to come along in 
my career. Given the geographic scale of the ``forest health'' issue in 
the Southwest, we cannot effectively address our forest health issues 
without additional private sector involvement. The Consolidated 
Appropriations Resolution, 2003 (P.L. 108-7) contains stewardship 
contracting authorities that may help facilitate industry investment in 
infrastructure needed to utilize the small diameter materials that are 
choking our forests.
    We will still need to meet the full suite of applicable laws, 
regulations and policy. We will still need to fund treatments from 
appropriated funding that won't pay for themselves, and in the 
Southwest that will be the rule rather than the exception. But 
stewardship contracting coupled with the Healthy Forests Restoration 
Act and other tools provided in the Healthy Forest Initiative will 
enable us to accomplish more in the future. For all of this work, it is 
critically important to work collaboratively with local communities and 
other government agencies.
    Moreover, stewardship contracting, service contracts, and forage 
utilization through livestock grazing can provide opportunities for 
local communities to obtain resources for their use, needs, and for 
selling to others.
Providing Local Assistance
    Much forest restoration work accomplished in New Mexico is already 
done cooperatively with the New Mexico Forestry Division and many other 
Federal, State and local entities. In Fiscal Year 2003, Region 3 
received $33 million for hazardous fuel treatment and treated about 
71,000 wildland urban interface acres and about 54000 non-WUI acres. 
For example, from 2001 though 2003, over $26 million in grants were 
awarded through our State and Private Forestry Programs. This 
assistance has been used in helping train and equip rural fire 
departments. In Fiscal Year 2003 approximately $525,000 in grants were 
used to assist over 70 rural fires departments in the Region. In 
addition, in Fiscal Year 2003 the Region has assisted in funding of 
over 600 thinning and watershed restoration projects on non-federal 
lands. These programs are helping communities protect themselves and 
are contributing to the economic vitality of these communities.
    Communities can also help themselves. Citizens can take action 
through the FIREWISE program, which helps people who live, or vacation, 
in fire-prone areas educate themselves about wildland fire protection. 
Homeowners can learn how to protect their homes with a survivable 
space, and how to landscape their yard with fire-resistant materials. A 
consortium of wildland fire agencies that include the Forest Service, 
the Department of the Interior, and the National Association of State 
Foresters sponsor the program.
Rangeland Management
    Another significant management challenge we face in the 
Southwestern Region is rangeland management. Livestock grazing on 
national forests and grasslands is a legitimate use of public lands. A 
healthy livestock industry contributes significantly to community 
vitality and can help us meet our objectives for healthy rangelands.
    Although light to moderate precipitation has been received recently 
over most of Arizona and New Mexico, the ongoing drought continues in 
the Region. Rangelands are experiencing low soil moisture that affects 
virtually every physiological process in plants, often resulting in a 
loss of plant vigor and, in extreme cases, plant mortality. The effects 
of drought, legal challenges in federal courts, expanding wild ungulate 
populations, and encroachment of trees and shrubs into rangelands, have 
all contributed to substantially reducing grazing in the Region.
    This Region is acutely aware of rangeland administration concerns 
being expressed by a wide range of interests. I have met personally 
with many permittees and industry representatives and listened 
diligently to what they say. Forest Supervisors, Rangers, and rangeland 
specialists have done likewise. As a result we have taken a number of 
steps that I feel begin to address stated concerns. For the sake of 
brevity I will identify but a few of the more significant steps taken 
to address these concerns.
    <bullet>  The Region has initiated extensive efforts within New 
Mexico to collaboratively find solutions to elk/livestock conflicts on 
National Forest System lands within the State.
    <bullet>  I have directed Forests to maintain open lines of 
communication and use of third-party scientists and others in the 
monitoring, administration and planning of national forest and 
grasslands grazing activities.
    <bullet>  In February of this year I emphasized to Forest 
Supervisors and Rangers my expectation that they would involve range 
permittees to a greater extent in rangeland monitoring, development and 
adaptive management approaches to annual operating instructions, and 
adjustments to these operating instructions. In addition, I emphasized 
the application of a ``no surprises'' principle to communication with 
permittees, elected officials and other affected interests.
    The Region is being as flexible as possible in allowing changes in 
use--and finding alternative forage resources--while making sure our 
decisions are consistent with good land stewardship and comply with 
Federal laws on a case-by-case basis. Additionally, in cooperation with 
representatives of the livestock industry and conservation entities, 
the Region has promoted the concept of grass banking as a collaborative 
means of improving allotment conditions and conducting vegetative 
improvement work, and as supplemental forage during periods of drought.
    Although much has been accomplished, we recognize the opportunity 
to do more and have a number of actions in progress. To address the 
continuing cycle of appeals and litigation I am committed to meeting 
Congressional intent regarding National Environmental Policy Act (NEPA) 
analysis of grazing allotments. The Region has an aggressive schedule 
to bring all grazing allotments into compliance with NEPA, which will 
result in completing NEPA on approximately 110 allotments per year.
    Thanks to additional funding in FY 2004, the Region will focus on 
cooperative monitoring activities in conjunction with grazing 
permittees. I will have a person in my office devoted entirely to 
rangeland monitoring, inventories, and assessments, with one of the 
goals being to develop collaborative rancher monitoring efforts in both 
Arizona and New Mexico. We aim to develop common protocols, in 
collaboration with the Universities and the livestock industries in 
both states, for use and application by both ranchers and Forest 
Service personnel. The Region is also committing significant resources 
to Endangered Species Act (ESA) section 7 consultations in order to 
meet the requirements of ESA in a timely manner.
    Solutions to the encroachment of trees and shrubs into southwestern 
rangelands will be long-term. I am encouraged by the efforts being put 
forth by both grazing permittees and Forest Service personnel in many 
parts of the Region to address this problem. Stewardship contracts 
designed to maintain and restore our watersheds will certainly be part 
of the long-term solution on rangelands as well.
Conclusion
    In closing, we will continue to address the health of the forests 
and rangelands in the Southwestern Region during this period of severe 
drought. To be successful, we must continue to work with all who have a 
stake in the management of the national forests and grasslands. This 
concludes my prepared remarks. I will be happy to answer any questions 
you may have.
                                 ______
                                 
    Mr. Pearce. I now recognize Mr. Blazer.

             STATEMENT OF ARTHUR ``BUTCH'' BLAZER, 
                   NEW MEXICO STATE FORESTER

    Mr. Blazer. Thank you, Congressman Pearce.
    I'd like to thank the Committee for the opportunity to 
testify today regarding the management of our New Mexico 
forests. I would like to share with you the concerns of the 
State Forestry Division regarding the current conditions of our 
forests and what we are planning to do to address those 
concerns.
    New Mexico Governor Bill Richardson has called for the 
development and implementation of a statewide plan to address 
forest health issues within our state. The Governor has placed 
the responsibility for convening and stewarding the forest 
health planning process on the Energy, Minerals and Natural 
Resources Department, Forestry Division. The forest health plan 
will:
    Promote improved forest health conditions in New Mexico 
through increased coordination of effort and resources.
    It will be based on the National Fire Plan, the Ten-Year 
Comprehensive Strategy and the Implementation Plan of the 
Western Governors.
    It will utilize a collaborative process of input and 
decisionmaking between the state, Federal agencies, tribes, 
local governments and the public.
    During the course of the year I have met with key 
management officials within the state, including to my right 
Mr. Harv Forsgren, U.S. Forest Service; Ms. Linda Rundell, 
State BLM Director; and others. We have come to consensus that 
this is the right way to go and we're working hard to get this 
plan going and off the ground.
    New Mexico forests are in an unhealthy state, as Harv 
mentioned, due to an abundance of fuels, including invasive 
species and noxious weeds. This condition is exacerbated by 
drought, which results in susceptibility to wildfire and insect 
infestation, compromised watersheds and decreased biodiversity. 
These conditions are common throughout the west are on--and are 
of the highest priority, as indicated by the National Fire Plan 
and the Ten Year Comprehensive Strategy.
    The climatologists' projections are correct, New Mexico is 
entering a multi-decadal drought. This follows approximately 25 
years of the wettest time in measurable history. The cultural 
impact from this change could be enormous.
    We have seen the beginnings of this change and the 
catastrophic wildfires that have occurred over the past several 
years resulting from extremely dry fuels that now exist. Fire 
behavior and the way in which we fight these wildfires are now 
being reassessed as a result of these changing conditions.
    We have seen the outbreak of bark beetles and the impact 
that these occurrences have had on our state. As the drought 
continues similar outbreaks could occur affecting other species 
across New Mexico.
    The New Mexico forest condition is being addressed by the 
Federal Land Management agencies, tribal, state and local 
governments, and by private landowners. These efforts have 
grown and will continue to do so in the coming years. By 
necessity, some coordination of effort and resources has 
evolved, especially in the area of wildfire protection.
    A good example of that is down in the Ruidoso-Mescalero 
area. I want to mention that, being that I am a tribal member 
from the Mescalero Apache Tribe. And this is a very strong and 
very positive example that I will hope that through our efforts 
of this plan that we are putting together we will help to 
create such examples throughout the state.
    The New Mexico Forest Health Plan will provide the 
framework necessary to insure the success of statewide forests 
health rehabilitation efforts. The plan will identify, 
prioritize forest health treatment projects, as I just 
mentioned, opportunities for collaboration, projects that will 
fast-track rehabilitation progress, improve and streamline 
funding mechanisms, ways to share resources for greater impact, 
methods to address backlog projects and acreage. And various 
team projects and program remedies, such as biomass utilization 
and research and development, public education and 
coordination.
    The plan will be based on a landscape scale analysis of the 
work being done to improve forest health at all levels of 
government, and by the private sector. The analysis will 
examine statewide forest conditions and risks. Projects that 
are planned are currently underway; what gaps and backlogs 
exist, where duplication of efforts reside; what resources are 
available and what additional resources and capacities are 
needed.
    What the plan is not: The Forest Plan will not authorize 
projects of treatments; rather, they will help to set goals and 
strategic priorities. The Forest Health Plan will not second 
guess or preempt land management decisions; rather, it will 
work to develop support and infrastructure. The Planning 
Committee made up of both an executive and planning level group 
of individuals is extremely diverse. It represents a cross 
section of many representative groups located within the State 
of New Mexico. Through this diversity a plan will be developed 
that addresses the variety of interests and concerns that make 
up the land management community in our state.
    After several initial planning sessions are held--and I 
might mention that we had our kickoff session last Thursday in 
Albuquerque and it went extremely well, we are very pleased 
with the initial coming together of the Committee and the 
discussions that we had. After several initial planning 
sessions are held, the Committee will take the show on the 
road, presenting the planning effort to the public in several 
town hall sessions held across the state.
    Once public input is obtained the information will be 
utilized by the Committee to develop the final draft of the 
plan. I believe the New Mexico Forest Health planning process 
resulting plan will enable land managers within the state to 
optimize available resources in the restoration of New Mexico 
forests and our valued watersheds.
    The plan will help resource managers develop innovative 
decisionmaking approaches that will enable our rural 
communities to assist in this massive endeavor. This is 
essential. There are not enough tax dollars to deal with the 
massive rehabilitation situation at hand. Results from this 
effort will include, not only reduced fuel loads in our 
forested lands which will equate to reduce fire danger for New 
Mexico residents as well as healthier watersheds, but will also 
increase job opportunities for rural New Mexico. This will not 
be a simple or quick endeavor. However, by creating this plan 
our forests and watersheds can be restored and sustained into 
perpetuity.
    Thank you, Congressman Pearce.
    Mr. Pearce. Thank you, Mr. Blazer.
    [The prepared statement of Mr. Blazer follows:]

        Statement of Arthur L. Blazer, New Mexico State Forester

Introduction
    I would like to thank the Committee for the opportunity to testify 
today regarding the management of our New Mexico Forests. I would like 
to share with you the concerns of the State Forestry Division regarding 
the current conditions of our forest, and what we are planning to do to 
address those concerns.
    New Mexico Governor Bill Richardson has called for the development 
and implementation of a statewide plan to address forest health issues 
within our state. The Governor has placed the responsibility for 
convening and stewarding the forest health planning process on the 
Energy, Minerals and Natural Resources Department, Forestry Division. 
The forest health plan will:
    <bullet>  Promote improved forest health conditions in New Mexico 
through increased coordination of effort and resources;
    <bullet>  Be based on the National Fire Plan, the Ten-Year 
Comprehensive Strategy and Implementation Plan of the Western 
Governors; and
    <bullet>  Utilize a collaborative process of input and 
decisionmaking between the state, federal agencies, tribes, local 
governments and the public.
    Over the course of the past year, I have met with key land 
management officials within the State, such as Harv Foresgren, USFS, 
Director-Region III, Linda Rundell, State BLM Director and others 
regarding the development of the statewide Forest Health Plan. The 
consensus has been to support having the State Forestry Division 
facilitate the development of this initiative. In October 2003, the 
State Forestry Division sponsored, along with the Pueblos of Laguna, 
Acoma and Zuni, as well as the Jicarilla Apache Nation, a tribal Forest 
Health Forum to inform and update tribes regarding the forest health 
situation within the State and to invite them to participate in the 
forthcoming planning process. Those Tribes in attendance agreed to 
participate and selected their representation to the Forest Health 
Planning Committee.

Background
    New Mexico's forests are in an unhealthy state due to conditions of 
over-density of fuels, including invasive species and noxious weeds. 
This unhealthy condition is exacerbated by drought, which results in 
unwanted conditions of susceptibility to wildfire and insect 
infestation, compromised watersheds, and decreasing biodiversity. These 
conditions are common throughout the west and are of the highest 
priority, as indicated by the National Fire Plan and the Ten Year 
Comprehensive Strategy.
    New Mexico's forest condition is being addressed by the federal 
land management agencies, tribal, state and local governments, and by 
private landowners. These efforts have grown and will continue to do so 
in the coming years. By necessity, some coordination of effort and 
resources has evolved, especially in the area of wildfire protection. 
However, as the conditions become more acute, the resulting problems 
will have an even more devastating effect on the landscape and on the 
public health and welfare unless swift, effective action is taken.
    The need to coordinate the variety of efforts of all of these 
entities is imperative to an expedient remedy of the forest health 
condition. Effective coordination, resource allocation, project 
prioritization and integrated communication are all vital and it is the 
New Mexico Forest Health Plan that we intend on bringing this into 
action.

The Forest Health Plan
    The New Mexico Forest Health Plan will be the primary vehicle for 
outlining the steps to, and ensuring the success of, the coordination 
of the statewide forest health rehabilitation efforts. The plan will 
identify:
    <bullet>  A prioritization of forest health treatment projects;
    <bullet>  Areas of opportunity for collaboration;
    <bullet>  Projects that will fast track rehabilitation progress;
    <bullet>  Improved and streamlined funding mechanisms;
    <bullet>  Ways to share resources for greater impact;
    <bullet>  Methods to address backlogged progress and acreage; and
    <bullet>  Barriers to implementing projects and remedies for 
addressing them (i.e., biomass utilization infrastructure development, 
public education coordination, etc.).
    The Plan will be based on a landscape scale analysis of the work 
being done to improve forest health at all levels of government and by 
the private sector. This analysis will examine statewide forest 
conditions and risks; the projects that are currently underway and 
being planned, and by what entities; what gaps and backlogs exist; 
where duplication of effort resides; what resources are available, and 
what additional capacity and resources are needed.
    The Plan will include goals, implementation outcomes, 
implementation tasks and performance measures. Additionally, the Plan 
will include a monitoring and assessment process for plan 
implementation to insure that results are to be achieved. Designed into 
the Plan will be its on-going adaptability, based on annual evaluation 
of progress.
    What the Plan is not:
    <bullet>  The Forest Health Plan will not authorize projects or 
treatments, rather it will help to set goals and strategic priorities; 
and
    <bullet>  The Forest Health Plan will not second-guess or preempt 
land management decisions, rather it will work to develop support and 
infrastructure.

Planning Process
    A multi-layered Planning Committee has been designed to develop the 
N.M. Forest Health Plan.
    The Executive Team, which will have oversight and final approval of 
the plan, is comprised of the following:
    <bullet>  Joanna Prukop, Cabinet Secretary, N.M. Dept. of Energy, 
Minerals and Natural Resources;
    <bullet>  Harv Forsgren, Regional Forester (Region III), U.S. 
Forest Service;
    <bullet>  Linda Rundell, State BLM Director, New Mexico;
    <bullet>  Rosendo Trevino, State Conservationist, Natural Resources 
Conservation Service;
    <bullet>  Patrick Lyons, New Mexico State Land Commissioner;
    <bullet>  Arch Wells, Rights Protection Officer, SW Region, Bureau 
of Indian Affairs;
    <bullet>  Roland Johnson, Governor, Pueblo of Laguna; and
    <bullet>  Dale Hall, Regional Director (Region II), U.S. Fish & 
Wildlife Service.
    The Planning Team, which will actually develop the Plan and provide 
draft review of the document, is comprised of the following:
    <bullet>  Arthur ``Butch'' Blazer, Division Director, N.M. State 
Forestry;
    <bullet>  Liz Agpaoa, Forest Supervisor (Cibola NF), U.S. Forest 
Service;
    <bullet>  Ron Dunton, Deputy State Director, Resources, Bureau of 
Land Management;
    <bullet>  Dennis Garcia, Asst. Land Commissioner for Natural 
Resources, N.M. State Land Office;
    <bullet>  Hollis Fuchs, District Conservationist, (Carrizozo), 
Natural Resources Conservation Service;
    <bullet>  Thora Padilla, Director, Dept. of Natural Resources, 
Mescalero Apache Tribe;
    <bullet>  Cameron Martinez, Superintendent (Northern Pueblos 
Agency), Bureau of Indian Affairs;
    <bullet>  Derrith Watchman-Moore, Deputy Cabinet Secretary, N.M. 
Environmental Dept.;
    <bullet>  Joy Nicholopolos, Supervisor (Region II), Ecological 
Field Offices, U.S. Fish & Wildlife Service;
    <bullet>  Sterling Grogan, Biologist, Middle Rio Grande Conservancy 
District;
    <bullet>  Alexious Becenti, Sr., Forest Manager, Navajo Nation 
Forestry Dept.;
    <bullet>  Michael Nivison, County Partnership Restoration Program 
(CPR)/Otero County Commissioner;
    <bullet>  Patrick Gannon, Technology Outreach/Community 
Development, N.M. Economic Development Dept.;
    <bullet>  Debbie Hughes, Executive Director, N.M. Soil & Water 
Conservation Districts;
    <bullet>  Ann Watkins, Special Assistant, N.M. State Engineers 
Office;
    <bullet>  Raymond Loretto, Governor, Pueblo of Jemez;
    <bullet>  Robert Sulnick, Campaign Manager, Alliance for the Rio 
Grande Heritage;
    <bullet>  Rick Baish, Board Member, The Nature Conservancy;
    <bullet>  Dr. John Fowler, Professor, N.M. State University;
    <bullet>  Dr. Wally Covington, Professor, Northern Arizona 
University;
    <bullet>  Samuel Montoya, Executive Director, N.M. Association of 
Counties;
    <bullet>  Jens W. Deichman, VP, Environmental Division Manager, URS 
Corporation;
    <bullet>  Marvin Olson, Consultant, Jicarilla Apache Nation;
    <bullet>  Dr. Ben Brown, Manager, Gray Ranch, Animas Foundation;
    <bullet>  Henry Carey, Director, Forest Trust;
    <bullet>  Sid Goodloe, Rancher, Capitan, N.M.;
    <bullet>  Darlene Koontz, Superintendent, Bandelier National 
Monument, National Park Service;
    <bullet>  Julie Maitland, Division Director, N.M. Dept. of 
Agriculture;;
    <bullet>  Todd Schulke, Forest Policy Director, Center for 
Biological Diversity; and
    <bullet>  Dick Smith, Board Member, N.M. Watershed Coalition
    As one can see, the planning committee represents a diverse cross 
section of the many representative groups located within the State of 
New Mexico. As a result of this diversity, it is felt that a plan will 
be developed that will be able to address the many interests and 
concerns that will need to be dealt with as the plan is constructed.
    After several initial planning sessions are held, the Committee 
will take the show on the road, with the planning effort being 
presented to the public in several ``town hall'' sessions held across 
the state. Once public input is obtained, the information will be 
utilized by the Committee in developing the final draft of the Plan. 
The final draft is scheduled to be completed by the fall of 2004, with 
a final, approved plan ready to be presented to Governor Richardson by 
December 2004.

Summary
    If climatologist projections are correct, New Mexico is entering a 
multi-decadal drought. This follows approximately 25 years of the 
wettest time in measurable history. The cultural impact from this 
change could be enormous. We have seen the beginnings of this change in 
the catastrophic wildfires that have occurred over the last several 
years, resulting from the extremely dry fuels that are now occurring. 
Fire behavior and the way in which we fight these wildfires are now 
being reassessed as a result of these changing conditions. We have seen 
the outbreak of bark beetles and the impacts that these occurrences 
have had on our State. As this drought continues, similar outbreaks 
could occur affecting other species in varying areas of the State.
    It is felt that the New Mexico Forest Health Planning effort, and 
the resulting Plan that will be put into place, will enable our land 
managers within the State to optimize available resources in the 
restoration of our New Mexico forests, which includes our valued 
watersheds. The Plan will assist resource managers in developing 
innovative methods that will empower our rural communities to assist in 
this massive endeavor. This is essential. There are not enough tax 
dollars to deal with this massive rehabilitation situation. Results 
from this effort will not only be reduced fuel loads out in our 
forested lands, which will equate to reduced fire danger for our New 
Mexico residents, and healthier watersheds, but it should also result 
in jobs for rural New Mexico. By working together, our forest and 
watersheds can be restored and sustained into perpetuity.
    In closing, I want to briefly share with the Committee my thoughts 
regarding access, specifically commenting on grazing issues on 
permitted lands within the State. Due to the fact that access issues on 
state and private lands are dealt with primarily by the State Game and 
Fish and the State Land Office's, and not State Forestry, I did not 
cover this issue in detail within my testimony. But, I would like to 
state that, as a result of the drought situation within our state and 
due to the importance our states grazing.
                                 ______
                                 
    Mr. Pearce. We have some questions that we would like 
addressed from both of you, if you would. First of all, one of 
the things that we're finding around the district, Mr. 
Forsgren, is that several communities would like to use biomass 
plans to produce energy.
    The Catron County Commission is, of course, very involved 
in a project very much like that. The key element of this is, 
is having a source of a product of a small diameter trees. What 
assurances, if that community and that county goes ahead with 
their plans to build a biomass plant, what assurance can we get 
as a, as the Second District, that they'll have trees 
available, the small diameter trees?
    Mr. Forsgren. Congressman Pearce, as I noted in my 
statement that those, our part to restore the health of these 
forests can't be done without the investment of the private 
sector to utilize that material. We are committed to doing 
everything within our power, using these new authorities that 
we've been given, to insure our reliable supply of material 
where that's possible, so that we will have a way of treating 
the forests and restoring the health while at the same time 
protecting these communities.
    Mr. Pearce. Mr. Forsgren, do you have any established 
procedure that you're going to require of yourself or can you 
simply internally make the commitment? Is there a procedure 
that you've established?
    Mr. Forsgren. We've established these as regional 
priorities. We're redirecting the resources available to us 
within our authority to redirect those resources. We're 
bringing to bear other expertise within the agency. For 
example, we have a national forest products lab in Wisconsin, 
that we have been working with local communities to help them 
see what opportunities there are and help them develop 
opportunities that will be viable.
    Mr. Pearce. How would you perceive that you would proceed 
if, if you had external groups, external to the Forest Service, 
bringing lawsuit to try to stop that? What--exactly what--you 
understand my problem is that if we encourage a county to build 
a plant and then, for whatever reason, the source of product is 
not made available and readily available, then we've wasted 
our--we've wasted our investment.
    Mr. Forsgren. Well, our intent is to bring forward projects 
that are fully in compliance with the law so that we won't have 
those projects stopped by litigation. Another of the tools that 
we receive with this new legislation is some changes to our 
appeals process that have caused delays to these projects, and 
those changed regulations and how you do those will be useful 
in enabling us to bring forward projects in a more timely 
manner.
    Mr. Pearce. Thank you, Mr. Forsgren.
    Mr. Blazer, you have talked about having the massive fire 
plan, healthy forests initiative work together to establish 
healthy forests in this state. How long do you perceive, if you 
can, under best circumstances or worst circumstances, what 
window could you perceive that actually occurring and when do 
you think we could hope to see this completed, either under 
best case or worse case scenario?
    Mr. Blazer. Congressman Pearce, we had this very discussion 
last week at our kickoff session with the committee members. 
And in looking at the planning process, we will be going into 
2004, we've got our meeting dates pretty well established, and 
we're looking at having a draft New Mexico Forest Health Plan 
completed, reviewed and approved by our Executive Committee. 
And that will be presented to the Governor by the end of next 
year.
    Mr. Pearce. And then, as far as the carrying out of the 
completion of it, in other words, we also here wonder about the 
number of forests that are burning to the ground. And outside 
Santa Fe we see the millions of trees that have been killed, I 
suspect, by insect or disease. When can we hope--when can we as 
a people, not as Congress, but can we as a people hope that we 
have reestablished this balance in nature that used to exist 
normally and naturally through nature?
    Mr. Blazer. Well, as I mentioned in my testimony, this is a 
massive problem that has been building up over the last 100 
years, and then that condition being exacerbated by the drought 
conditions that we're going into. We're looking at developing a 
plan that can be implemented and start addressing this 
situation together.
    That will probably take 20 to 25 years to really address 
this massive problem. What we're looking at having the plan do 
is, again, by working together with the Federal agencies and 
the tribes, prioritize the highest, the most critical areas, 
and start addressing these immediately. And part of that will 
be taking a look at the life and property most threatened by 
these conditions within our state.
    Mr. Pearce. Thank you. 20 to 25 years, I think that's 
something that we could at least begin to--we don't want to sit 
on the edge of our seat, we need to realize this is a long, 
sustained effort, both congressionally and from the 
departments.
    Mr. Forsgren, in the past 10 years the number of AUMs per 
allotment has been drastically cut by the Forest Service. It 
has an alarming impact on our communities. The AUMs represent 
the tax base and the counties rely on the tax base in order to 
fund their activities.
    Can you talk about the, why the AUMs have been cut to such 
a low level and what you all perceive as being the solution to 
our counties that frankly have just run out of money because 
the tax base has been either artificially eroded or eroded for 
purpose?
    Mr. Forsgren. I think there are three factors that are at 
work at a landscape scale that are affecting the amount of 
forage space that enables us to permit livestock use on the 
national forest. But first of all, it is right back to the 
center issue we've been talking about this morning, and that's 
the health of our forests and grasslands. As we have more and 
more woody vegetation on those lands crowding out forage 
production, there is less forage available. Here in New Mexico 
we have lost 1 percent of our grassland a year for the last 50 
years to woody vegetation encroachment. That significantly 
compromises the amount of forage available.
    The second factor that is at play at a landscape scale here 
in New Mexico is increased competition for that forage, with an 
expanding wildlife population, specifically elk. So we have 
less forage and we have competition for that forage.
    The third factor that is in play here across the landscape 
and, most recently the last five to 7 years depending on where 
you're at in this state, it has dramatically affected forage 
production and the health of our rangeland, is the drought 
situation that we face.
    Now, two of those three factors we can do something about, 
and we're actively engaged in doing something about those 
things. The drought, though, is not a part that we have an 
opportunity to determine. But as I mentioned in my testimony, 
we are trying to build as much flexibility into the system as 
we can and still, and find an alternative source of support for 
forage so that we can keep the operators in business during 
this point and we recognize the importance of doing so.
    Mr. Pearce. Mr. Forsgren, if we were continue that, that 
particular line of conversation, the number of elk seems to be 
increasing dramatically and so we're taking AUMs away and yet 
the number of wildlife is increasing. So it seems that it would 
be counteracting the correctional effort of taking off animals. 
What are you all doing with the other departments, Fish and 
Wildlife or Fish and Game, and any other departments, to really 
work through this situation?
    Mr. Forsgren. We have got an effort here in New Mexico 
working across agencies, both Federal and state agencies, 
principally with the state Department of Fish and Game, to 
address the situation. We have established three pilot areas 
across the state specifically work within those communities to 
identify solutions to their specific problems.
    This, this problem that I described, or this challenge that 
I described is not uniform across the state. Some places it's 
pretty significant. In some places we're exceeding our 
utilization standards before we turn livestock out due to the 
high numbers of elk. In other places there is good balancing 
numbers and there isn't that sort of problem. So it's, it is 
unique to specific areas. But our intent is to continue to work 
closely with the Department of Fish and Game, and other 
managers that have responsibility, to find solutions and bring 
a balance in that utilization.
    Mr. Pearce. Is there any current effort to control the 
population of elk? What is actually being done right now?
    Mr. Forsgren. Again, that's a specific to particular game 
management units around the state in some places.
    Mr. Pearce. Say in Catron County then, are we doing 
anything? Do we have the problem under control? Are we doing 
anything?
    Mr. Forsgren. I couldn't address specifically today for you 
what's being done in Catron County. I could what's being done 
on the Lincoln National Forest.
    Mr. Pearce. That's fine, sure.
    Mr. Forsgren. In the Sacramentos where game and fish--we 
have worked with them to reduce numbers; and the latest figures 
I saw we have been successful in reducing elk numbers by about 
50 percent there. We still are seeing significant elk impacts 
there and will continue to work with the department to get 
those into a--get that utilization into a level that is 
sustainable over the long run.
    Mr. Pearce. The--and I've gone far over what was allotted 
in time for questioning on this but I think these questions are 
some of the most critical that face our particular district. I 
would just close with a comment that for myself, my own 
perspective, me as a person but also as a congressional 
representative, a thing that really troubles me is an 
increasing attitude of omnipotence on the part of our 
bureaucracies and on the agencies, it plays out so that people 
who are at risk of losing their entirely livelihood and at risk 
of losing the ranches, are at risk of losing everything that, 
that they and the generations before them have put together, 
are treated usually with disdain and harshness.
    That is something that is not limited to the Forest Service 
or Fish and Wildlife, it's not limited to the IRS, but it's a 
growing element. There have been difficulties between agencies 
in my district and people, almost always we're going to 
represent those people who don't have a voice, almost always 
going to take their side if a bureaucracy has been unthinking 
and harsh and not recognizing what's at stake for these 
families.
    So as we have the opportunity to work together, your agency 
and our office, keep in mind that's one of the value systems 
that I bring to the table. And I know that our office has had a 
lot of discussion and we've seen, we've seen improvement and we 
appreciate that, but it continues to, to come up all across the 
country. But I'm not charged representing anywhere in the 
country, it's just here. And so if you keep that in mind.
    The last question I have, I agree I was not going to ask 
it, but I would; how many timber sales have we had in the last 
2 years? And if we haven't, why do we not have timber sales?
    Mr. Forsgren. I don't have those figures on the top of my 
head, but in terms of number of timber sales, there would be a 
relatively small number. Here in New Mexico we have essentially 
lost all of our infrastructure, or most of our infrastructure, 
to process sawed-log-type material. And so there have been 
relatively few sales. Most of our focus has been--with the loss 
of that infrastructure--has been on other than timber sales to 
treat the vegetation, to get a condition on the landscape to 
sustain over the long run to restore the health of our forests.
    Mr. Pearce. OK. I think the point that I've seen as we 
travel congressionally across the country and into Alaska, that 
our policies, whether they're self-imposed or imposed by the 
legal system, are imposed, for whatever reason, have literally 
taken away our capabilities to do anything about the problem. 
They've taken away the infrastructure of the people who could 
and would do these things.
    I think that it's one of the most poignant items that we 
must contend with and realize that there won't be solutions for 
many of these things if we do not have policies internally that 
allow them some leeway and some ability to do the functions 
that we desperately need to be done to achieve this balanced 
that would restore our health. Without it, I'm afraid that it's 
not a question of if our forests are going to burn but, simply, 
when they're going to burn.
    Thank you very much. I appreciate your patience with the 
questions and your answers.
    We'll go ahead and release that panel and ask that the 
record will be kept open. The panel may, or the Committee may 
actually have questions during the coming days and we're going 
to keep the record open for questions from the Committee. If 
you get a request for an answer we would appreciate that answer 
in writing during the next 10 days, and we appreciate that.
    Mr. Forsgren. We would be happy to do that.
    Mr. Pearce. Thank you.
    Mr. Pearce. I would like to now have our second panel come 
up. On Panel II we have The Honorable Ed Wehrheim, Chairman, 
Catron County Commissioner; accompanied by the Honorable S. 
Rufus Choate, Catron County Commissioner; and Miss Caren Cowan, 
Executive Director of New Mexico Cattle Growers' Association.
    If you would just remain standing we would--
    [Witnesses sworn.]
    Mr. Pearce. Let me remind the witnesses that under our 
Committee Rules you must limit your oral statements to five 
minutes but your entire statement will appear in the record.
    I now recognize Chairman Wehrheim for his statements.
    Mr. Wehrheim. Congressman, we'll be permitted for Rufus 
Choate to go first.
    Mr. Choate. Thank you. We request that the witness 
statement be submitted to the record.
    Mr. Pearce. Yes, sir.

          STATEMENT OF S. RUFUS CHOATE, COMMISSIONER, 
                         CATRON COUNTY

    Mr. Choate. We want to thank you for the opportunity to 
come discuss our grazing issues since that's what I'm 
addressing here in Catron County. I'm just going to point out a 
few major points. Number one, is the rancher who is allottee of 
the land has no say in the management and I feel that that's 
wrong because he has all of his life invested in it, 
generations, or whatever it is, his whole living, but he has no 
say in how it's managed. The elk keep encroaching on him, he 
doesn't have any say on what can be sustained with elk and 
cattle together. And the wolf is another phase that threatens 
his livelihood. He has no say on the management of the wolf 
reintroduction or management of it by appearing in areas. And 
it just goes on and on, that he doesn't have any say in.
    Number two, is many court-ordered livestock cuts are 
lacking in science and good procedures, so there hasn't been 
consistency that there should have been in the one permit to 
the next, but from one area to the next. There has been a loss 
of 25,000 cattle in the last 10 years, resulting in a loss of 
10-million-dollar revenue and livestock production since 1997, 
and that is a pretty significant loss for a small--for a county 
with not too much any other revenue.
    I mean livestock is one of our major productions. The 
rancher needs to be involved in analysis training and 
management decisions, not as a captive tent. They make their 
living off the land and they know what it takes to manage the 
certain area, and it needs to be ranch by ranch or allotment by 
allotment because they're not all equal. You can't take a big 
area and say, ``Well, we're going to manage all of these 
permittees or allotments in this area the same,'' because each 
one is an individual allotment; they have different, different 
water, their goals are different, some are yearlings, some are 
cows.
    We need to have better coordination between county and land 
management agencies, and the county has forming a new 
committee, healthy livestock and rangeland committee, to work 
with land management agencies. And I think we're really lacking 
in cooperation between land management agencies. We have MOU at 
Catron County with different agencies, and it has been kind of 
put on the back burner and forgotten.
    The first commission meeting that I was in this year I 
asked what happened to the MOU. The Forest Service, since I was 
a commissioner 12 years ago, we had formed an MOU with these 
agencies. That forest ranger had never heard of an MOU. And 
those kind of things are just neglect.
    We need to improve the graze analysis planning. The county 
needs congressional support of the Catron County initiated a 
graze analysis field, but at least be more upon the 
consistency, and with the New Mexico state task force as doing 
this it will be more consistent from permit to permit.
    And in conclusion, the Forest Service may keep cutting 
cattle numbers, which won't solve our problems. Let's--they 
need to be something that says how many trees per acre, or 
whatever. If there is going to be a cut on cattle it has to be 
the same percentage or a significant cut of timber on the 
forests, because the forest keeps growing trees. Each tree 
takes water, does away with the streams, it does away with the 
forage. The cattle takes the cut, and he's the one that's 
making his living off of it. So he has a vested interest. So it 
needs to be--they need to be held to the same status as the 
rancher.
    And that's basically is my points that I would like to 
promote and I appreciate your time.
    Mr. Pearce. Thank you, Mr. Choate.
    Mr. Pearce. Ms. Cowan.

         STATEMENT OF CAREN COWAN, EXECUTIVE DIRECTOR, 
             NEW MEXICO CATTLE GROWERS' ASSOCIATION

    Ms. Cowan. On behalf of the New Mexico Cattle Growers let 
me thank you for holding this hearing and allowing us to 
participate. I have served as the executive director of the New 
Mexico Cattle Growers since the summer of 1997; that's about 
six-and-a-half years--six fairly unpleasant and even 
heartbreaking years as we deal with forest issues.
    At the outset I want to point out that when I'm speaking 
about the Forest Service I'm speaking only globally and not 
about specific individuals. I don't make judgments. We all have 
jobs to do and higher authorities to report to.
    I have been accused of pushing unsustainable situations to 
the detriment of the resources of my employers. To the 
contrary, my employers have outlined my job as to assist in the 
protection of rural families and rural communities dependent 
upon the livestock industry within our country's national 
forests. In many cases these are the people who have been the 
stewards of the land for generations, people who also provide 
food and fiber for our nation and the world while protecting 
our most precious resources and our wildlife.
    The suffering of much forest-dependent communities and 
families in the Southwest has been severe, continuous, and 
maybe in direct proportion to the decline in the health of the 
forests themselves. We are suffering all the social ills that 
you find in the loss of livelihood and the loss of hope, we see 
divorce, we see substance abuse and we even see premature 
death. At the same time, we are watching fire carbonize our 
precious forests, destroying our waters, and killing wildlife 
and burning our homes.
    We first lost our the timber industry. The grazing industry 
is now in serious peril. Hunting and recreation are soon to 
follow if there isn't a change in attitude and strategy.
    The adverse impacts of the forest management on the 
livestock industry have been so severe in the Southwest Region 
that the Governors of both Arizona and New Mexico put together 
task force to look into the situation.
    As part of my testimony today I have, for the record, put 
in the report from the New Mexico Department of Agriculture, 
who was tasked with doing this survey in New Mexico. And I 
think that you'll find some fairly serious problems within that 
report and numerous problems. The cover letter of the report is 
detailed, but the cover letter, which is only about four pages, 
is very pointed in the problems that we see.
    At the pleasure of the Committee, I can obtain a copy of 
the Arizona report for you. It's worth noting that, to my 
knowledge, at this point in time the Forest Service has yet to 
respond to either one of these reports.
    According to research from New Mexico State University, 
Catron County has lost over 200,000 AUMs in the last eight or 9 
years, with more cuts in the planning stages as we speak today. 
Unfortunately, this is not unique to this area and similar 
problems are being seen across forests in Arizona and New 
Mexico.
    A look at history indicates that this tremendous decline 
began about the time that two things started--the application 
of the NEPA process by the Forest Service and the war in the 
courts being waged by environmental elitists under the guise of 
the Endangered Species Act.
    The Forest Service has been unprepared to deal with either 
one of those challenges. In fairness, the lack of ability to 
address these problems may be from the lack of manpower and 
funding, but--and as the staff has increased we have gone into 
a downward spiral where there is less ability to do the work 
and, therefore, more exposure, litigation as we move forward.
    Although we are continually assured otherwise, we have 
found that there is no science within the agency for 
decisionmaking processes. In the Santa Fe National Forest last 
summer one allotment owner questioned whether or not his 
drastic cut in numbers and season were based on science and 
actual range condition. This is the statement he received in 
his appeal: ``End of season data collected by the Range 
Improvement Task Force in September 2002 were compared to 1993 
data (TES) to determine trend and soil cover. Range Improvement 
Task Force stubble height data from September 2002 were 
analyzed using published data that allows comparison of stubble 
height to utilization levels of vegetation types present under 
the allotment.
    The utilization levels were then compared to allowable use 
levels established in 2002 annual operating instruction. A 
published scientific method based on area precipitation 
patterns from 2 years previous was used to provide an initial 
estimate of forage production for the coming year. All of these 
factors were considered using to established range management 
principles and practices in the determination of the worst-case 
scenario.''.
    That's a really long way to answer a question ``Is there 
any science?'' You know what happened to rain gauges, what 
happened to vegetative monitoring. And it's these, precisely 
these kind of statements that have created the great lack of 
trust that we have on the ground and between the agency. And 
until we can attack that trust situation and have a partnership 
in the ability to work together, we're not going to solve any 
of these problems. It's precisely this kind of ``science'' that 
flaws the NEPA process as well. Decisions are arbitrary and 
tied to livestock numbers at a single point in time, rather 
than looking at range condition and a long-range goal and 
what's happening on the ground.
    Additionally, the NEPA process very clearly lays out how it 
alternative, a range of alternatives are supposed to be 
developed with public input. However, the scoping documents 
that we're seeing coming out of the Forest Service which are 
designed to gather the information have predetermined 
alternatives that are already designated as ``preferred 
alternatives'' when they go to the public.
    With that, I think I'll close. The appeals process is, is a 
serious problem as well, as we look into, into this situation, 
and my written testimony details that further. And I appreciate 
your time today.
    Mr. Pearce. Thank you.
    [The prepared statement of Mr. Cowan follows:]

             Statement of Caren Cowan, Executive Director, 
                 New Mexico Cattle Growers' Association

    Mr. Chairman and members of the Committee, on behalf of the New 
Mexico Cattle Growers' Association (NMCGA), let me thank you for 
holding a hearing on this issue so vital to the Southwest and for the 
opportunity to testify before you.
    As NMCGA executive director since July 1997, I have worked 
firsthand with the forest use and management issues in the Southwest 
Region for well over six years--six fairly unpleasant years where these 
issues are concerned. At the outset I would like to point out that when 
I speak about the U.S. Forest Service (USFS), I am speaking globally. I 
offer no reference or judgment about specific individuals. We all have 
jobs to do and higher authorities to report to.
    I have been accused of pushing unsustainable situations to the 
detriment of the resources of my employers. To the contrary--my job is 
to assist in the protection of rural families and communities dependent 
upon the livestock industry within our country's national forests. In 
many cases, these are the people who have been stewards of the land and 
its creatures for generations, people who also provide the food and 
fiber for our nation and the world, while protecting our most precious 
resources.
    The suffering of forest-dependent families and communities in the 
Southwest has been severe, continuous, and may be in direct proportion 
to the decline in the health of the forests themselves. We are 
suffering all the social ills tied to the loss of livelihood and of 
hope from substance abuse to divorce to premature death. At the same 
time, we are watching fire carbonizing our precious forests, destroying 
our watersheds, killing wildlife and destroying homes.
    We first lost our timber industry. The grazing industry is in 
peril. Hunting and recreation are soon to follow if there isn't a 
change in attitude and strategy.
    The adverse impacts of federal forest management on the livestock 
industry have been so severe in the Southwest Region that the governors 
of both New Mexico and Arizona ordered reviews of the situation. The 
report of the New Mexico Department of Agriculture, the agency in this 
state charged with the review, is submitted with my testimony for the 
record. The cover letter of the report outlines the numerous problems 
we are facing at the hands of federal land management agencies here in 
New Mexico.
    At the pleasure of the Committee, I can obtain a copy of the 
Arizona report for the record. It is worth noting that, to my 
knowledge, the USFS has yet to respond to either report.
    According to research from New Mexico State University (NMSU), one 
New Mexico county, Catron, has lost over 200,000 animal unit months 
since 1994, with more cuts in the planning stages as we speak. 
Unfortunately, this is not unique to a single area. Similar reductions 
can be found across the Southwest Region.
    A look at history indicates that this tremendous decline began 
about the time two things started--the first was application of the 
National Environmental Policy Act (NEPA) by the USFS. The second was 
the war being waged in the courts by environmental elitists under the 
guise of the Endangered Species Act (ESA).
    The USFS has been unprepared to deal with either of these 
occurrences. In fairness, the lack of ability to address problems may 
stem from a lack of manpower and funding, which has led to a downward 
spiral. As more analysis and litigation is required, there is even less 
time and money to devote to the necessary work on the ground--that 
leads to more litigation.
    Although we are continually assured otherwise, we have found that 
there is no science for the agency to base decisionmaking upon. In the 
Santa Fe National Forest last summer when one allotment owner 
questioned whether or not the drastic cut in his numbers and season of 
use was based on science or actual range condition, the response was as 
follows: ``End of season data collected by the RITF in September 2002 
were compared to 1993 data (TES) to determine trend in soil cover. RITF 
stubble height data from September 2002 were analyzed using published 
data that allows comparison of stubble height to utilization levels in 
the vegetation types present on the allotment. The utilization levels 
were then compared to the allowable use level established in the 2002 
AOI. A published scientific method based on area precipitation patterns 
from two previous years was used to provide an initial estimate of 
forage production for the coming year. All of these factors were 
considered using established range management principles and practices 
in the determination of the worst-case scenario.''
    When the allotment owner allowed as how this was a nonresponsive 
statement and questioned what published methods were used, he was told:
    ``Science based decisionmaking does not require that a scientist 
perform the actual data collection and/or analysis. Trained 
professionals or others can collect and/or analyze data using 
techniques established through scientific research. In his responsive 
statement the District Ranger explains how science-based data and 
analyses were used in the decisionmaking process. Results of these 
analyses (soil cover, estimated 2002 production, measured 2002 
utilization, estimated 2003 production) provided elements necessary for 
an initial early assessment of range condition upon which to base 
decisions for the 2003 grazing season.''
    I am still mystified as to how 1993 TES, which I have since learned 
refers to Terrestrial Ecosystem Survey, soil data can be compared with 
2002 forage and utilization data to extrapolate a 2003 grazing 
decision--months before the grazing season is slated to begin and 
before rainfall and snowfall can be considered or determined. What has 
happened to traditional vegetative monitoring that can provide trends 
over time or rain gauges?
    It is this kind of ``science'' that has eliminated the trust 
between allotment owners and the USFS. Livestock owners and the 
organizations that represent them must be a part of an on-going 
monitoring process that utilizes historical data and continues 
vegetative monitoring.
    It is this kind of ``science'' that flaws the NEPA process from the 
start. Decisions are arbitrary and tied to numbers of livestock at a 
single point in time, rather than the condition of the resource over 
time. A long-range view is especially important in the desert 
Southwest, where not only are allotments year-round, but we are at the 
mercy of Mother Nature, who has seen fit to hand us a drought now in 
its seventh year.
    Additionally, the NEPA process is very clear in terms of how a 
range of alternatives must be developed through a public process. 
However, USFS scoping documents that are supposed to be used to gather 
information instead contain pre-determined decisions as ``preferred 
alternatives'' when they are distributed to the ``public.''
    Compounding the problem is the appeals process within the agency. 
Nowhere else in our country is a single entity the investigating and 
arresting officer, the prosecutor, judge, jury and executioner. USFS 
allotment owners are generally out of business before they can obtain 
the judgment of someone not vested in the outcome of the process. And, 
that's only if they can afford to go to federal district court to 
protect their rights. Even the worst criminal has the right to a jury 
of his peers and to be represented by counsel--at taxpayer cost if they 
cannot afford one.
    Those making appeals must stick to a rigid schedule set out by the 
USFS and generally require the advice of an attorney. However, the 
agency has no responsibility to respond in kind. Many times, by the 
time the appeal is acted upon through the USFS channels, the issue is 
moot and losses have occurred. It is grossly unfair and unreasonable 
for an agency to hold lives in limbo by virtue of a decisionmaking 
process.
    The USFS appeals process must include fairness for allotment 
owners, with the ability to stay in the business and protect their 
investments and families. The agency must also understand that just 
because they allow an allotment owner to run a few cows does not mean 
they have not put a producer out of business. There are economic 
realities and economies of scale that must be considered. Cutting 
numbers in half, as is being contemplated on one allotment in the Gila 
National Forest, will put the livestock producer out of business, even 
if she is allowed to run nearly 200 cows. The allotment was purchased 
based on nearly 400 cows. There is no way to make payments and put food 
on the table with the reduced number.
    The agency has also failed livestock owners in the battles in the 
courts. Instead of holding their ground, USFS legal counsel has been 
less than effective in defending not only their own actions, but in 
defending the people on the ground who depend on them. The livestock 
industry has spent hundreds of thousands of dollars in the courts just 
to be sure that the people on the ground are represented. At times we 
have had the legs cut out from under our litigation efforts in deals 
between the USFS and environmental elitists.
    Even more frustrating is the agency's refusal to abide by decisions 
once we win them in the courts. Case in point is the Arizona suit in 
which the 9th Circuit Court of Appeals ruled that an endangered species 
must be present to be harmed. This is kind of a no brainer, but the 
USFS has steadfastly refused to recognize that principle. We have 
worked for a year to get the ``grazing guidance criteria'' provided to 
the field by the USFS wildlife, fisheries and rare plants staff on 
endangered species, amended to reflect current court decisions with no 
end in sight.
    In fairness to the USFS, the ESA may be the real culprit here. The 
Act is being misused to halt management of our forests. Will the entire 
West have to become a charred wasteland before Congress has the will to 
address endangered species and the harm the ESA is causing?
    An additional wildlife problem in New Mexico is the exploding elk 
population in some areas. The livestock industry was successful several 
years ago in getting the New Mexico State Legislature to direct the 
applicable state and federal wildlife and land management agencies to 
come together to begin to address the elk problem. That effort has been 
sporadic for the past year due to changes in state and federal 
administrations. Thus far there has not been dramatic progress.
    I have mentioned the drought we are suffering. No one is more 
sensitive to the impacts of drought than the people who have lived on 
this land for generations. Livestock producers have utilized the 
forests of Northern New Mexico for over 400 years. They have seen 
droughts come and go. The land has survived, livestock use has survived 
and families have survived.
    In this drought, however, prudent decisionmaking is being hampered 
and survival is in question. Livestock owners are afraid that if they 
remove their livestock, they may never again be able to utilize their 
ranges. We in New Mexico have asked the USFS for a restocking policy to 
provide criteria so producers can gauge when they can return, only to 
be told that it is being developed in Arizona. We have yet to see even 
a draft of such a policy and have had absolutely no input in any 
policy.
    Although New Mexico and Arizona are in the same region and have 
similar problems, we see little effort by the USFS to work with the two 
states as a unit in problem solving and solutions. In fact, the 
situation is quite the contrary. If issues in the region are going to 
be resolved, producers across the region, not individual states, must 
address them.
    The custom, culture and economies of the Southwest are dependent 
upon our national forests. For these to survive, along with the health 
of the forests, there must be a cooperative effort by those living on 
the land and caring for it and the federal agents charged with its 
oversight. Today I have touched on the ESA, the NEPA process, the USFS 
appeals process, litigation, guidance criteria and restocking, just a 
few of the issues that are piled in my office. If we could address 
these issues with the USFS in a manner that would allow people to stay 
on the land and care for the resource, we would have done great work 
today.
    It is well past time to assess blame. We must look toward solutions 
that will benefit not only the forests, but also the people and 
economies dependent upon them. We have seen somewhat better 
communication with the USFS over the past year, and look forward to 
building on that for a better future, but we cannot wait much longer 
for these issues to be addressed and have any hope of protecting our 
rural families and communities.
    Thank you once again for your time today. We look forward to your 
assistance as we move forward.
                                 ______
                                 

    [Attachments to Ms. Cowan's statement follow:]

    [GRAPHIC] [TIFF OMITTED] T0928.002
    
    [GRAPHIC] [TIFF OMITTED] T0928.003
    
    [GRAPHIC] [TIFF OMITTED] T0928.004
    
    [GRAPHIC] [TIFF OMITTED] T0928.005
    

    [NOTE: The ``Report to the Governor of New Mexico from the 
Public Land Grazing Task Force'' has been retained in the 
Committee's official files.
    Mr. Pearce. Mr. Wehrheim.

        STATEMENT OF ED WEHRHEIM, COMMISSION CHAIRMAN, 
                         CATRON COUNTY

    Mr. Wehrheim. Thank you, Congressman, for inviting Catron 
County to testify before this Commission.
    For those of you who are unfamiliar with our county, it is 
7,000 square miles with 3.3 million acres of publicly owned 
land. We have a population of 3400 people. We are totally rural 
and distant from any urban areas. Our economy has been on a 
decline for over two decades, and at present per capita income, 
excluding Forest Services, schools, is only $14,000 per family; 
and unemployment is 14 percent. And this is only--it is only 
this low because families who cannot find work, leave. The 
Reserve school system was forced to reduce its budget by more 
than a $100,000 this year and is anticipating more cuts next 
year, which will probably involve combining classes.
    This economic decline is due, large in part, to access to 
natural resources on public lands, namely livestock production, 
timber and mining. Access to these resources have become more 
and more restrictive due to heavy input from environmental 
lawsuits, appeals, stopping or seriously curtailing efforts to 
develop or improve our natural resources.
    These groups have had a major influence on the United 
States Forest Service's management of our forests in Catron 
County. We are now facing yet another and possibly the worst 
threat our county has encountered. It is very likely that our 
forests will lose over a million acres to catastrophic 
wildfires over the next 2 years. I need not tell you how 
devastating that will be. Wildfire danger cannot be reduced 
without addressing forest health, and forest health cannot be 
addressed without involvement of local human resources and 
local solutions.
    Catron County has a solution for forest health and 
hazardous field reduction. In fact, we are immersed in a 
biomass power generation program which will put to use all the 
unsaleable, small-diameter wood undergrowth, diseased and dying 
trees, thereby reducing the risk of wildfire, improving 
wildlife and endangered species habitat, improving our 
watersheds and livestock grazing, leaving large trees and some 
small replacement trees, creating a beautiful and parklike 
forest.
    We are in the process of doing a feasibility study, a site 
selection study, securing contracts from power producers; 
however, we cannot continue without long-term secure contracts 
from the Forest Service, BLM and state forestry. Surely this 
program is a win-win situation that should be endorsed by 
Catron County citizens, land management agencies, and even 
those claiming to be champions of the environment. Anyone who 
has walked through five inches of ash and huge dead trees will 
get serious about forest health. It will be decades before 
these forests recover from these horrible fires.
    Catron County has taken the lead in forest health and 
hazardous fuel reductions. No one wants to live, work and enjoy 
the beauty of our forests more than the people who live there 
now. We ask that you join with us in getting this giant task 
underway.
    Thank you, Congressman Pearce.
    Mr. Pearce. Thank you, Mr. Wehrheim, for your testimony.
    [The joint statement of Mr. Wehrheim and Mr. Choate 
follows:]

                           December 31, 2003

Honorable Scott McInnis, Chairman
Subcommittee on Forest Health
Committee on Resources
U.S. House of Representatives
1337 Longworth House Office building
Washington, D.C. 20515

Subj.:  Transmittal of Supplemental Testimony for the Field Hearing on 
Management & Access Challenges Across Southwestern Forests

Dear Honorable McInnis:

    The Catron County Commission would like to thank you for the 
opportunity to present supplemental testimony for the House 
Subcommittee Field Hearing on Management and Access Challenges Across 
Southwestern Forests held in Grants, New Mexico on December 15, 2003.
    As expressed at the field hearing, we have a rare opportunity to 
move forward with new options to partner our efforts to restore forest 
health conditions and significantly reduce the threat of catastrophic 
wildfires. As a follow-up to the hearing testimony, the Catron County 
Commission requests your consideration of our intergovernmental efforts 
to improve forest health. Our supplemental testimony highlights the 
following issues and opportunities:
    <bullet>  Request for your assistance in resolving obstacles to 
effective inter-governmental efforts to implement the Healthy Forest 
Restoration Act (p1.).
    <bullet>  Identification of undue influence by special interest 
groups on U.S. Forest Service, resulting in circumvention of USFS 
responsibilities to coordinate with county governments (p.2).
    <bullet>  Consequences and implications of U.S. Forest Service's 
forcing specific environmental special interest groups on the county 
and circumventing USFS responsibility to provide early consultation and 
coordination with county government (p. 3).
    <bullet>  Special interest environmental groups which have 
compromised forest restoration and hazardous fuels reduction (p 4).
    <bullet>  Identification of related policy issues for clarification 
and resolution (p.8).
    <bullet>  Catron County Commission recommended solutions: (p8)
        <all>  Catron County community-based alternative to top-down 
        collaborative process
        <all>  Appropriate place for collaboration in intergovernmental 
        forest planning process
        <all>  Catron County's Intergovernmental Task Force for 
        expediting Hazardous Fuels
    Catron County Commission looks forward to your guidance.

                        Respectfully submitted,

            Ed Wehrheim, Chairman, Catron County Commission

cc: U.S. Representative Steve Pearce

ATTACHMENT: Resolving Obstacles to Effective Intergovernmental Efforts 
to Implement the Healthy Forest Restoration Act with a Priority to 
Expedite Hazardous Fuels Reduction
                                 ______
                                 

  <plus-minus>Supplemental Testimony submitted by Ed Wehrheim, Rufus 
          Choate, and Lena Shellhorn, Catron County Commission

    The Catron County Commission would like to thank you for the 
opportunity to present supplemental testimony to the House Subcommittee 
Field Hearing in Grants, New Mexico. We also appreciate the leadership 
of the Subcommittee in this critical transition to more effective 
management of our national forests, especially given the looming threat 
of catastrophic wildfires in our forests.

A. Request for assistance in resolving obstacles to effective 
        intergovernmental efforts to implement the Healthy Forest 
        Restoration Act with a priority to expedite hazardous fuels 
        reduction
    As we expressed at the field hearing, we have a rare window of 
opportunity to move forward with collaborative efforts to restore 
forest health conditions. The immediate and highest priority is to 
reduce hazardous fuels on public lands. About eighty percent of Catron 
County is government land with the bulk of the source of hazardous 
fuels on National Forest lands, followed by Bureau of Land Management 
and state lands.
    To that end, the Catron County Commission, along with federal and 
state agency partners, are implementing the Catron County Interagency 
Task Force for Expediting Hazardous Fuels Reduction (see Exhibit 1 
attachment). The Catron County Commission would like to present this to 
the Subcommittee as a model for implementation of the Healthy Forest 
Restoration Act and as an example of what can be done through effective 
and committed intergovernmental coordination; the county requests 
assistance from the Subcommittee in resolving obstacles to the County's 
Task Force's carrying out of its objectives.
    Each year that goes by Catron County faces increased danger of 
devastating wildfire as drought and unhealthy forest conditions create 
more and more wildfire fuels. Only immediate and aggressive action to 
deal with these hazardous fuels can provide any hope of protecting the 
county residents and infrastructure, as well as the forests themselves.
    To date, however, little progress has been made towards the goal of 
reduction of hazardous fuels on public lands, especially on local 
national forests. Furthermore, little can be expected in a timely 
manner unless specific changes occur. Continuing problems and needless 
obstacles have been created by the undue influence of special interests 
on U.S. Forest Service (hereinafter, USFS) policies related to 
community-based collaborative forest restoration initiatives. Our 
locally initiated intergovernmental efforts to reduce hazardous fuels 
could be significantly compromised if these special interest influences 
and control over the USFS collaborative forest restoration are not 
resolved.
    The Catron County Commission requested the School of Forestry at 
Northern Arizona University to evaluate the obstacles and propose 
solutions to current obstacles. Please refer to Exhibit 2, attached for 
detailed evaluation. Their evaluation states:
        Over the past decade and currently, Gila National Forest 
        management practice essentially amounts to a ``no action'' 
        alternative imposed via the threat of appeal and litigation. 
        This inaction further exacerbates the decline in forest health 
        described above. Certain interest groups/stakeholders continue 
        to voice strong opposition to certain types of active 
        management, particularly commercial timber sales. Whether 
        motivated by an honest distrust of forest service management or 
        by perceived benefits derived from current inaction, these 
        groups have been able to impede implementation of forest health 
        treatments. In such cases of institutional impasse, policy and 
        management change often occurs in response to an event which 
        creates a policy crisis that cannot be ignored. The policy 
        crisis allows a restructuring of power relationships among 
        stakeholders and changes in policy and management practices In 
        the southwest, this type of event occurred in the form of 
        unprecedented, massive stand-replacing fires, and creates the 
        opportunity to move forward with forest health treatments. The 
        time to act is now!
    For the remainder of our supplemental testimony, we discuss these 
issues and their consequences in detail; we also identify the major 
policy issue questions that should be resolved, as well as provide 
recommendations for improving the capacity to restore forest health and 
reduce the risk of catastrophic wildfires.

B. Issue of USFS forcing specific special interest groups on Catron 
        County, circumventing responsibility to coordinate with Catron 
        County
    The Catron County Commission respectfully takes issue with the USFS 
Southwest Region (Region III) requirement that for any USFS assistance 
with the collaborative forest restoration initiative, specific non-
government environmental organizations must be included in all local 
collaborative restoration projects. The Commission has an established 
administrative record of having expressed concerns about the USFS 
attempts to force the Center for Biological Diversity on county issues 
and projects.
    1.  USFS special interest group requirement for coordinated 
resource planning with Catron County: The USFS requirement that all 
collaborative forest restoration projects must include certain 
environmental organizations was conveyed to the Catron County 
Commission at a meeting in Catron County on November 14, 2003 by two 
Regional USFS staff: Jerry Payne and Marv Johnson. After the meeting, 
the USFS sent a letter to the Catron County Commission stating that the 
Center for Biological Diversity representative, along with Walter Dunn, 
Region III, USFS, will conduct a meeting on January 30, 2003 to 
establish their version of collaborative forest restoration of the 
Burro forest restoration project. The county has not been asked for 
input about the requirements or the upcoming meeting, but has been 
simply notified and expected to accept them.
    2.  County Experience with the Collaborative Forest Restoration 
Program: It should be noted that a community-based collaborative forest 
restoration organization already exists in the county, as an extension 
and off-shoot of the Catron County Twenty Communities intergovernmental 
planning organization. Moreover, last year this existing local 
intergovernmental group put forth a proposal in conjunction with the 
School of Forestry at Northern Arizona University for the USFS 
Collaborative Forest Restoration Program. The Forestry School 
terminated the project proposal when it became apparent that the Region 
III USFS environmental panelists would not accept the community-based/
NAU forest restoration proposal for the Burro project area. The 
Forestry School withdrew the proposal because of an arbitrary limit or 
cap of 12 inch diameter breast height for any forest restoration 
project proposal. This cap or limit was set by the environmental 
interests on the Technical Advisory Panel as a major evaluation 
criterion for approving any and all funding of collaborative forest 
restoration grant proposals under the Collaborative Forest Restoration 
Program.
    3.  USFS Ignores Catron County Commission requests for assistance 
in developing biomass power generation plants: During this same period 
of time--over five months--the Catron County Commission tried to get 
USFS attention and assistance in the County's efforts to explore and 
develop biomass potential in the County. The County worked up an Action 
Plan and requested, in writing, USFS input and guidance. The County 
never received feedback or response from several requests. Instead, the 
USFS held a meeting (on 12/14/03) for all interested parties in 
Reserve, NM (the County Seat). At this meeting, USFS, Payne and Johnson 
ignored the agenda questions about cooperation and support with Catron 
County Commission, and instead emphasized the need to support non-
government organizations. Also, at this time, USFS stated their special 
interest requirement which forces the Center for Biological Diversity 
and Sierra Club representatives on any restoration project in Catron 
County.
    4.  USFS forced non-local environmentalists on Catron County 
Resource Advisory Committee: The collaborative restoration and biomass 
initiatives are not the only incidents where the USFS has given undue 
status to private environmental special interests at the expense of the 
USFS's legal obligations to coordinate and assist County government. 
The Gila National Forest Supervisor forced two non-local environmental 
representatives, one of which is the Center for Biological Diversity, 
upon the Catron County Resource Advisory Committee (RAC).
    The enabling Rural County Payments Act that created RACs explicitly 
states that the RAC is to be composed of local (within the County) 
members only. The Forest Supervisor refused to accept the County 
Commission's recommendations for local representatives of national 
conservation groups, after having told the County Commission that she 
would do so. The Catron County Commission sees this as a breach of 
agreement with the County government by the Gila Forest Supervisor.
    The County Commission understands the need for and encourages all 
stakeholders to be involved in USFS initiatives. But this heavy-handed, 
top-down USFS version of collaboration appears to be the USFS 
superimposing social engineering, while circumventing the USFS's legal 
mandate to consult early and coordinate in resource planning with 
County governments (as spelled out in the National Environmental Policy 
Act and the National Forest Management Act). In addition, this special 
interest requirement amounts to an arbitrary and somewhat capricious 
approach to community-based forest restoration, in which the 
communities whose lives and livelihoods are the most affected have the 
least say.

C. Consequences and implications of the USFS forcing specific 
        environmental special interest groups on Catron County and 
        circumventing responsibility to coordinate with Catron County
    The consequences from these forced, top-down USFS dictates for 
community-based forest restoration prescriptions have both legal and 
environmental consequences that adversely impact genuine and needed 
intergovernmental efforts to reduce hazardous fuels and restore forests 
to healthy conditions.
    1.  Undue and forced special interests usurp Federal and County 
intergovernmental coordinated planning requirements: These USFS 
attempts to force environmental organizations over the USFS 
requirements to coordinate with Catron County government are 
inconsistent with the National Forest Management Act, Federal Land 
Policy Act, and the National Environmental Policy Act. These federal 
statutes and regulations specify the intergovernmental roles and 
responsibilities between federal agencies and state, municipal, tribal 
and county governments. These federal laws recognize the concurrent 
legal responsibilities of state, tribal and local governments, 
especially to protect the health and safety of citizens from potential 
dangers such as from catastrophic wildfires.
    It appears that the USFS is not following federal laws when they 
provide special privileges to special interest groups at the expense of 
USFS statutory responsibilities to provide early consultation to county 
governments. It also is inconsistent with the Council of Environmental 
Quality Directive (January 30, 2002), and the USFS Southwest Regional 
policy for coordinating with County governments. In addition, Catron 
County Commission has a Memorandum of Understanding with the Gila 
National Forest that specifically states that the USFS will first 
provide early consultation and coordination, government-to-government, 
with the Catron County.
    2.  USFS poor record of compliance with intergovernmental 
coordination requirements with Catron County Commission: The USFS has a 
long history of not responding to legally binding requests by the 
Catron County Commission. It took the Commission over ten years to 
finally get the USFS to comply with federal NEPA/CEQ joint planning 
requirements. It took successful law suits and the Council of 
Environmental Quality Directive (January 30, 2002) to finally get the 
USFS to recognize their legal responsibilities to coordinate resource 
planning and management with Catron County Commission. The overall 
track record is poor when it comes to the Gila National Forest 
communication and coordination with the Catron County Commission. As 
mentioned above, there is the heavy-handed efforts to force the Center 
for Biological Diversity on collaborative restoration efforts in the 
county. Also, the County Commission cannot get USFS attention to 
support the County's biomass development. Per NEPA compliance, on 
numerous occasions the County has requested coordinated resource 
planning and environmental assessments only to be met with either no 
USFS response or a response months later.
    As one illustration, it took four months for the Gila Forest 
Supervisor to respond to the County's request for Cooperating Agency 
status in the Wild & Scenic Rivers Environmental Assessment. When the 
Forest Supervisor finally accepted the County's request, it was too 
late for the County to have meaningful participation in the EA. Many 
County government joint planning requests have never even been 
responded to by the USFS.
    In contrast, the Gila Forest Supervisor routinely meets with non-
government organizations for forest health, restoration and economic 
development in Catron County. The Forest Supervisor spends most of her 
``collaborative'' efforts consulting and coordinating with 
environmental special interests at the expense of the Catron County/
Gila National Forest written memorandum of understanding, which is to 
first provide early consultation with the County Commission, the duly 
elected local government.
    3.  Special Interest groups compromise forest restoration and 
hazardous fuels reduction objectives: The USFS special relationship and 
efforts to include the Center for Biological Diversity appear to have 
already resulted in compromising forest health objectives in the Gila 
National Forest the Sheep Basin restoration project. One only needs to 
compare the original Sheep Basin forest restoration objectives with the 
final decision notice and the on-the-ground results.
    The Sheep Basin forest restoration project in the Negrito Ecosystem 
Management Area is being heralded by the Gila Forest Supervisor and 
Region III staff as a glowing example of what can be accomplished 
through collaboration with specific environmental groups. After two 
previous forest restoration projects' environmental assessments were 
appealed, the USFS catered to the Center for Biological Diversity with 
guided tours of the project area. The USFS purpose, presumably, was to 
solicit any changes the Center for Biological Diversity felt had to be 
made in order for a final EA to be finished without appeal. The Center 
for Biological Diversity had, in writing, repeatedly threatened 
litigation of any project that proposed cutting ``large trees'' 
(defined by the Center for Biological Diversity as >12'' dbh). In fact, 
the Center for Biological Diversity led a campaign on their website 
encouraging people to write and denounce any harvest of trees in the 
Negrito watershed. In the end, while there was not a 12'' diameter cap 
per se, only about 6% of the total number of trees harvested were >12'' 
dbh. While the majority of the stand density reduction needed was in 
the 5"-12'' structural stage, more needed to be done in the 12"-18'' 
size. The County is left wondering what was the difference in 
probability of crown fire between the appealed alternative and the 
final preferred alternative. The County would like to have seen an 
analysis and calculations similar to the one shown in the table, below, 
illustrating the measured relationship of forest restoration 
effectiveness in hazardous fuels reduction (source: NAU School of 
Forestry, 12/10/03).

Measuring Forest Restoration Effectiveness in Hazardous Fuels Reduction
    This relationship supports the need to treat all tree size classes 
to effectively reduce the high risks of crown wildfires. We know that a 
far greater portion of biological diversity exits in the understory 
than the overstory. While the claim is made that biological diversity 
will increase under the preferred alternative, we would like to see the 
difference between the preferred alternative and a full restoration 
prescription.
    The County Commission would also like to know why the USFS never 
responded to the County Commission's legal request to participate as 
Cooperating Agency (per NEPA) in the environmental assessment of the 
Sheep Basin or Corner Mountain restoration projects. In short, the 
Catron County Commission was not afforded the same standing or special 
treatment as the Center for Biological Diversity and other non-
government groups. The County Commission was not included in the 
special tours the USFS set up for the Center for Biological Diversity 
and Citizen's Group, both non-government special interest groups. Yet 
it is the County Commission which has the legal responsibility to 
protect its residents from potential catastrophic wildfires (one of the 
Sheep Basin project objectives was to reduce the potential for 
catastrophic fires).
    The Collaborative Forest Restoration Program (CFRP) was established 
by the Community Forest Restoration Act (2000). It is this Act that, in 
essence, appears to govern all proposed restoration projects on the 
Gila National Forest. After years of difficult negotiations and work to 
finally pass the Healthy Forests Restoration Act, it seems 
inconceivable that management activities on the Gila National Forest 
would be restricted to the requirements of the CFRA grant program. If 
we continue down the Sheep Basin/CFRA path, the focus will remain on 
small diameter, small area, myopic projects and individual species, 
precluding landscape scale activities that can be affective in reducing 
the risk of catastrophic wildfires. The USFS priority focus should be 
on intergovernmental coordination to expedite fuel load reduction. 
Together with the County as partner, USFS can also develop authentic 
community-based collaborative public involvement processes.
    4.  Alternatives to Top-down Collaboration: Merriam-Webster defines 
``collaborate'' as: To work jointly with others, or together, 
especially in an intellectual endeavor; to cooperate with an agency or 
instrumentality with which one is not immediately connected. 
``Coercion'' is defined as: To bring about by force or threat. What is 
actually occurring on the Gila National Forest?
    Are there better examples of community-based forest restoration? 
The Greater Flagstaff Forests Partnership was conceived by the Coconino 
Forest Supervisor following the 1996 fire season (when 15,000 acres was 
considered a monstrous fire). The forest supervisor recognized that 
something must be done to alleviate the growing threat of devastating 
crown fires. (Then came the 2000 and 2002 fire seasons when hundreds of 
thousands of acres burned in Region III while we appealed and 
collaborated.).
    Primary goals of the Greater Flagstaff Forests Partnership are to 
restore the natural ecosystem functions and manage forest fuels to 
reduce the risk of catastrophic fire. The formal partners of the 
Greater Flagstaff Forests Partnership (formerly the Grand Canyon 
Forests Partnership) as of March, 2003: Arizona Public Service, Arizona 
Game & Fish, Arizona State Land Department, City of Flagstaff, Coconino 
County, Coconino County Farm Bureau/Cattle Growers Association, 
Coconino Natural Resource Conservation District, Cocopai Resource 
Conservation and Development District, Ecological Restoration 
Institute, Flagstaff Chamber of Commerce, Flagstaff Native Plant and 
Seed, Grand Canyon Trust, Greater Flagstaff Economic Council, Highlands 
Fire Department, Indigenous Community Enterprises, Northern Arizona 
Conservation Corps, Northern Arizona University - College of 
Engineering, Northern Arizona University - School of Forestry, Perkins 
Timber Harvesting Practical Mycology, Society of American Foresters - 
Northern Arizona Chapter, Southwest Environmental Consultants, The 
Arboretum at Flagstaff, The Nature Conservancy, U.S. Fish and Wildlife 
Service.
    Please note that the Center for Biological Diversity is not a 
member of the partnership, neither are the Forest Guardians or Forest 
Alliance. This is precisely why restoration-based hazardous fuel 
treatments are being successfully implemented on thousands of acres of 
forest land.
    Originally, the Center for Biological Diversity was invited to 
participate in the Greater Flagstaff Forest Partnership. As soon as 
they discovered they were not going to be able to impose their will or 
manipulate the other group members, the Center for Biological Diversity 
chose not to participate in this collaborative project. The Center 
supported the Forest Alliance/Guardians' efforts to implement their 
``Forests Forever'' prescription on the Coconino National Forest and 
found out it was physically impossible to do. After these groups 
realized they could not support or justify their own ``prescription'', 
they quit and went home. They wrote a letter stating explicitly that 
they would no longer participate in any group like the Flagstaff 
Partnership again.
    Now, we are being told that there will be no ``collaborative 
efforts'' implemented in Region III unless specific environmental 
groups, like the Center for Biological Diversity, are an explicit 
member of the group. We are told by those in the USFS Region III who 
are in charge of the CFRP grant program that all collaboration will be 
conducted in accordance with procedures specified in the CFRA. The 
highly successful group in Flagstaff operates quite well without these 
CFRP dictates or constraints. Numerous collaborative groups are 
presently working together on these issues throughout Region III 
without the Center for Biological Diversity being a member of any one 
of them. Why is it a requirement on the Gila National Forest?
    5. Problem Summary: Given the imminent threat of 1.3 million acres 
in the county at high to extreme risk of catastrophic wildfires, 
county, state and federal agencies can ill-afford manipulation and 
monkey-wrenching of the implementation of the Healthy Forest 
Restoration Act. Blatant and undue influence by private, special 
interests over public interests has the real possibility of derailing 
or undermining all efforts to expedite hazardous fuels reduction and 
restoration.
    The Catron County Commission cannot accept USFS conditions of being 
forced to meet with and cater to the Center for Biological Diversity's 
arbitrary limits and constraints to forest health and fire prevention. 
Given their record of undermining collaborative restoration efforts 
through threat and force, and the stated policy of the USFS that local 
programs must submit to oversight by the Center, it seems unlikely 
that, without intervention, the Center for Biological Diversity will be 
accorded any less control over current and future restoration and 
hazardous fuel projects in the national forests of Catron County.
    Collaboration can work and can include diverse interests. 
Restoration-based hazardous fuel treatments are being successfully 
implemented on thousands of acres of forest land surrounding Flagstaff. 
The partner members represent local, state and federal governmental 
agencies, economic development groups, environmental groups, and 
educational institutions. Flagstaff's highly successful partnership 
operates very well without either the Center for Biological Diversity 
or the Collaborative Forest Restoration Program. There is no reason why 
the Catron County Interagency Task Force could not be equally 
successful.D. Resolution of public policy issues of special interest 
interference in


D. intergovernmental forest health priority planning:
    1. Policy questions need timely answers: In order for successful 
and expeditious reduction of hazardous fuels, it is first necessary to 
resolve the undue influence by special interest groups. The Catron 
County Commission requests resolution by the Subcommittee on Forest 
Health regarding the following issues:
    <bullet>  Is this actual Region III policy to require specific 
special interest groups in forest restoration initiatives ; if so, 
where is it documented?
    <bullet>  Is this policy legal? Does this policy conflict with 
other federal requirements?
    <bullet>  What are the consequences and implications of such de 
facto policy in terms of implementation of the Healthy Forests 
Restoration Act and National Environmental Policy Act requirements for 
government-to-government joint planning?
    <bullet>  Most importantly and practically, how do we move forward 
with the Healthy Forest Restoration Act without undermining state and 
local jurisdiction and legal responsibilities? Can legal priorities, 
proper sequencing and protocols be established given the existing 
local, state and federal laws and processes?
    2. The Catron County Commission recommendations: The County 
believes forest management activities should be conducted in accordance 
with the Healthy Forests Restoration Act. The County believes the only 
way to make real progress towards significantly reducing the threat of 
crown fire, increasing biodiversity and large diameter trees, and 
improving overall forest and watershed health is by implementing 
adaptive management on a landscape scale through intergovernmental 
coordination in planning and management. The County recommends the 
following.:
    <bullet>  Use existing local collaborative processes. The Catron 
County Commission is committed to collaborative efforts for forest 
restoration. The County has an existing collaborative process which is 
recommended as the model for addressing forest health and hazardous 
fuels reduction. the Catron County Commission suggests a new approach, 
more conducive to effective implementation of the Healthy Forest 
Restoration Act, entitled, Adaptive Management Demonstration Project 
for Implementing Community-Based Watershed Restoration & Management 
Program (see Exhibit 2 attachment). The members of the Collaborative 
Partnership include Catron County Board of Commissioners, Catron County 
20 communities/ National Fire Implementation Team, Ecological 
Restoration Institute, New Mexico Natural Resources Dept., Forestry 
Dept., New Mexico State University, New Mexico Department of Game and 
Fish, Northern Arizona University, Rocky Mountain Research Station in 
Flagstaff, AZ, San Francisco Soil and Water Conservation District, U.S. 
Fish and Wildlife Service, Western New Mexico University.
    <bullet>  Follow NEPA planning requirements. NEPA provides the 
planning mechanism and guidance for proper intergovernmental 
coordination, as well as for processes to involve all stakeholders and 
special interest non-governmental organizations. In a letter dated 4/7/
03 from the Catron County Commission to the USFS Proposed Rule Change 
for National Forest System Land and Resource Management Planning the 
county demonstrated how collaborative process fits into the federal 
legal USFS Forest Planning and NEPA planning processes. The County 
addressed the issues and alternatives for clarifying the differences 
and relationships between the collaborative social process and the 
legally binding forest planning and NEPA planning requirements for 
intergovernmental coordination. By following NEPA federal planning 
requirements, collaborative processes will be included that provided 
for full public involvement for all publics and all special interest 
groups.
    <bullet>  Supply Congressional oversight for the Catron County 
Commission's first priority: Expediting the reduction of hazardous fuel 
loads to protect the health and safety of its residents and 
communities. We respectfully request your support and guidance in our 
efforts, as outlined in Exhibit 1: Intergovernmental Task Force for 
Expediting Hazardous Fuels Reduction.
    3. Conclusions: Catron County believes that forest restoration and 
hazardous fuels management activities should be conducted in accordance 
with the Healthy Forests Restoration Act. We believe that through 
implementing our intergovernmental agency task force, we can make real 
progress towards significantly reducing the threat of devastating 
wildfire, increasing biodiversity, encouraging the growth of large 
diameter trees, improving forage and overall forest and watershed 
health.
    Congressional guidance is needed to implement the Healthy Forests 
Restoration Act. We also believe that Congressional leadership can 
resolve the policy issues of special interests' undue influence--to 
ensure that public interests and duly-elected governments can 
effectively and in a timely manner implement the Forest Health 
Restoration Act with priority focus on expediting hazardous fuels 
reduction. True progress will follow and resolution of local problems 
will be achieved through community-based collaborative efforts.
    <bullet>  Exhibit 1: Catron County Commission Resolution: 
Intergovernmental Task Force for Expediting Hazardous Fuels Reduction
    <bullet>  Exhibit 2: Gila National Forest Adaptive Management 
Demonstration Project B A Prospectus for Implementation of a Community-
Based Watershed and Management Program
                                 ______
                                 

Exhibit 1:
                          STATE OF NEW MEXICO
                           RESOLUTION NO. __
  a proclomation for catron county commission intergovernmental task 
  force for expediting hazardous fuel reduction & wildfire prevention
    WHEREAS, high risks from catastrophic wildfires continue to be a 
significant threat to Catron County communities, private property and 
water supplies, and
    WHEREAS, over the past three years a concerted intergovernmental 
effort has been made through the Catron County Twenty Communities group 
with emphasis on private land defensible space and the Catron County 
Commission supports these continued efforts of the Twenty Communities 
wildland urban interface program, and
    WHEREAS, the primary source of catastrophic wildfire is on the 
public lands where significant hazardous build-up of fuels that 
immediately threaten County health and safety of communities, 
residents, water supplies and strategic sites and services, and
    WHEREAS, federal and state resource agencies are in the process of 
identifying these high risk, hazardous fuel loads on federal and state 
lands, and attempting to develop mitigation plans and treatments to 
reduce these eminent threats from potential catastrophic wildfires and 
the prospects of implementing these mitigation strategies are now 
significantly improved because of new NEPA Categorical Exclusions, the 
U.S. Senate passage of President Bush's Healthy Forest bill, along with 
innovative land stewardship contracting for removing dense tree stands, 
the high fuel load source, and
    WHEREAS, there remains significant health, safety and welfare risks 
and problems in removing the hazardous fuel load materials in a timely 
and cost-effective way, and there remains the need to develop the 
infrastructure for removing the hazardous fuel loads in a cost-
affective ways, and
    WHEREAS. Catron County Commission has memoranda of understanding 
and agreements with the Forest Service, BLM, and State Forestry for 
coordinated resource planning, including coordinated disaster planning.
    NOW THEREFORE, BE IT ORDAINED BY THE GOVERNING BODY OF CATRON 
COUNTY, NEW MEXICO THAT:
    1. Due to the increasing and immediate threats from hazardous fuel 
loads and catastrophic wildfires to people, communities, private 
property and water delivery, the Catron County Commission Declaration 
of Disaster and state of emergency remain in effect, and
    2. Catron County Commission continues to believe that the health, 
safety and welfare of its citizens through the expeditious removal of 
hazardous fuel loads from federal and state lands, that are eminent 
threats to human communities, private property, water supplies, and 
strategic and emergency sites and services, and
    STATEMENT OF PURPOSE: To the Catron County Commission hereby 
establishes the Catron County Intergovernmental Task Force for the 
Expediting Hazardous Fuels Reduction and Wildfire Prevention and for a 
more a focused and direct planning and coordination with the BLM, 
Forest Service, State Lands and State Forestry.
    OBJECTIVES: The Intergovernmental Task Force will advise and assist 
the Catron County Commission on the following:
    <bullet>  Develop intergovernmental coordination and planning for 
the expressed and sole purposes of expediting the identification and 
removal of hazardous fuel loads from the national forests, public lands 
of BLM and state lands that are high risks or threaten human 
communities, properties, water supplies and deliveries and strategic 
and/or emergency sites and services.
    <bullet>  Identify the relative high risks areas prioritization, 
mitigation plans and implementation priorities, project schedules, 
timeframes and requirements for expediting hazardous fuels reduction to 
include the 2004 fire season as well as multi-year planning and 
implementation.
    <bullet>  Coordinate and provide technical assistance for 
developing the mechanisms and infrastructure for the cost-effective 
methods for removing fuel loads from these public lands.
    COMPOSITION AND STRUCTURE. The Task Force will:
    <bullet>  Consist of a Catron County Commissioner or designee, the 
Catron County Wildfire Prevention Coordinator or designee, Catron 
County Emergency Preparedness Coordinator or designee, a representative 
designated by the U.S. Forest Service for the Cibola National Forest 
and one for the Gila National Forest, a representative designated by 
the U.S. Bureau of Land Management, a representative designated by the 
New Mexico State Forestry, a representative designated by the New 
Mexico State Land Department, and three designees from the three local 
soil and water conservation districts.
    <bullet>  Will meet once a month and shall conduct its business 
according to New Mexico Opens Meetings Act.
    The Catron County Commission will contact the government agencies, 
listed above, to establish a time to designate representatives for this 
Hazardous Fuel Reduction Intergovernmental Task Force.
    DONE this 19th day of November 2003.

    Approved & Signed

    ATTEST: CATRON COUNTY COMMISSION

    Ed Wehrheim, Chairman
    Sharon Armijo, Clerk
    Rufus Choate, Member
    Lena K. Shellhorn, Member
                                 ______
                                 
Exhibit 2:
 FOREST HEALTH DEMONSTRATION PROJECT ON THE GILA NATIONAL FOREST, NEW 
                                 MEXICO
    a prospectus for implementation of a community-based watershed 
                   restoration and management program

                           September 12, 2003

                            P. J. Daugherty

                              G. B. Snider

``Human rights B freedom, self-determination, and dignity B are 
        impossible without a secure natural resource base on which to 
        build and maintain them.''

                             Tim Clark 2002

``The critical need today is not better ammunition for rational debate, 
        but creative thinking about how to make management 
        experimentation an irresistible opportunity.''

                           Carl Walters 1997

INTRODUCTION
    This prospectus presents an innovative approach for overcoming 
obstacles to solving the worsening forest health crisis in the 
Southwest. The approach involves designing and implementing 
collaborative community-based adaptive management which explicitly 
addresses the ever present uncertainty in natural resource management. 
The project will make state and local governments true partners in 
ecosystem management and will move beyond the current management 
stalemate to create the sustained community stewardship of Forest 
Service lands in the project area. The prospectus proposes the 
development of a landscape-scale forest health restoration 
demonstration project. The project will use a collaborative process to 
design and implement a management plan for the restoration of forest 
and community health. The scale of the project will allow the testing 
and adaptation of forest health treatments that can truly improve 
associated community health.
BACKGROUND
    Currently, society faces the risk of losing the forest ecosystems 
of the Southwest to insect outbreaks, disease, and catastrophic crown 
fires. The greatest risk to threatened and endangered species and the 
biodiversity of the forested ecosystems of west-central New Mexico is 
not logging, subdivisions, or livestock grazing, but catastrophic crown 
fire. Extremely dense stand conditions greatly exceed the historic 
range on the majority of the southwestern forest landscape. These 
conditions, exacerbated by drought, increasingly exhibit the symptoms 
of a forest health crisis caused by past practices and perpetuated by 
current inaction.
    The remedy for these unhealthy conditions requires implementation 
of large-scale (greater ecosystem) restoration-based treatments 
designed to improve both forest and community health. When implemented 
on a sufficiently large scale, restoration treatments can 
simultaneously reduce the risk of crown fire and insect outbreaks, 
restore watershed function and condition, increase biological 
diversity, and improve socioeconomic well-being by promoting 
sustainable economic development within local communities.
    Local, state and federal agencies, as well as industry and many 
environmental groups agree that restoration treatments would begin 
healing forests and watersheds. However, the current pace and scale of 
implementation remains inadequate to significantly reduce the risk of 
collapse (e.g., as evidenced by the Rodeo-Chedeski, Biscuit, Cerro 
Grande, and Hayman fires). We have been treating hundreds of acres at a 
time, while millions are at high risk and thousands are moving into 
high risk conditions each year.
    Over the past decade and currently, the Gila National Forest's 
management practices essentially amount to a ``no action'' alternative 
imposed due in large part to the threat of appeal and litigation. This 
continuing management inaction further exacerbates the decline in 
forest health described above. Certain interest groups/stakeholders 
continue to voice strong opposition to certain types of active 
management, particularly commercial timber sales. Whether motivated by 
an honest distrust of forest service management or by perceived 
benefits derived from current inaction, these groups have been able to 
impede implementation of forest health treatments.
    In such cases of institutional impasse, policy and management 
change often occurs in response to an event which creates a policy 
crisis that cannot be ignored. The policy crisis allows a restructuring 
of power relationships among stakeholders and changes in policy and 
management practices (Gunderson et al. 1995, Gunderson 1999, Walters 
1997). In the southwest, this type of event occurred in the form of 
unprecedented, massive stand-replacing fires, and creates the 
opportunity to move forward with forest health treatments. The time to 
act is now! The Gila National Forest recognizes this opportunity and 
supports a restructuring of relationships.
    The Gila National Forest and a large number of interest groups and 
governmental agencies want to create a new partnership to advance 
ecosystem restoration on their forest. While they recognize that 
science and information will always be uncertain, they also realize 
that the current health crisis requires action to avoid further loss of 
large segments of the forest ecosystem. This emerging partnership 
creates the opportunity to develop a collaborative approach to adaptive 
ecosystem management at the landscape scale. Adaptive management 
represents an integrated, transdisciplinary approach for confronting 
uncertainty in natural resource issues. The partners will collaborate 
in the design and implementation of adaptive treatments to improve 
forest and community health.

OBSTACLES AND OPPORTUNITIES
    A number of factors impede the design and implementation of large-
scale forest health treatments. The demonstration project proposed in 
this prospectus represents a unique opportunity to confront, 
understand, and overcome these impediments:

1. Strong opposition to experimental policies and management strategies 
        by persons protecting various self interests.
    Leadership and support for adaptive management rarely comes from 
bureaucratic management agencies. Fortunately, the Gila National Forest 
has demonstrated their commitment to this type of an approach by 
agreeing to the decentralization of the management process. However, 
the proposed change to a collaborative, adaptive management approach 
may be perceived as threatening by some interest groups.

2. Management agencies are trapped by cumbersome, inflexible, 
        formalized process and narrow interpretations of legal 
        mandates.
    Resource management agencies constantly deal with uncertainty. A 
common response has been to adopt a command and control approach that 
assumes we can replace the uncertainty of natural resource issues with 
the certainty of process. In the name of environmental protection, the 
focus has shifted from protecting and managing resources to policing 
processes. The search for sustainability will fail unless the focus 
changes from being concerned with certitude in planning and process to 
iterative shared learning and perpetual adaptation to an ever-changing 
world (Carpenter and Gunderson 2001, USDA Forest Service 2002).
    The current power arrangement among stakeholders and management 
agencies is highly unproductive. Those who benefit or perceive benefits 
from the current system are able to stalemate implementation of 
alternative management strategies. The recent histories of appeal and 
litigation (real and threatened) are indicative of little versatility 
in policy and process (Gunderson 1999). The project must develop an 
agreement among collaborators which will maintain collaborators' 
commitment to the process and the outcomes of that process. The 
agreement must also protect the process from those unwilling to commit.

3. Demands for spurious certitude.
    One symptom of the current management pathology involves the 
request by organizations and interest groups for more and more 
precision in data about more and more variables. These requests often 
have little to do with learning to improve management decisions. More 
often than not the requests involve attempts to delay management action 
or to become invulnerable in the courtroom (Gunderson et al. 1995). 
Wildlife ecologist and former Chief of the Forest Service, Jack Ward 
Thomas (1992) has questioned the rationale for such ``unreasonable 
degrees of certainty. The biology of certain wildlife populations and 
habitat relationships is not conducive to precise estimates, no matter 
how much they are studied.''
    This demonstration project will use existing science and a 
collaborative process to define a set of indicators to monitor 
improvement in forest and community health. All issues in forest 
restoration can be addressed by a small set of variables, and if these 
variables are monitored and improved, the rest of the ecosystem 
components will take care of themselves.

4. Short-term, single resource/species focus.
    A short-term, single resource focus defies ecological insights 
established decades ago by Aldo Leopold (1970). We must change the 
focus of land management from short-term risks and single resources to 
long-term landscape-level conditions which address all species and 
resources.
    The demonstration project will establish a process with built-in 
long-term learning. The collaborative partners will be asked to ensure 
that all management decisions and actions explicitly address the needs 
of future generations.

5. Loss of community infrastructure to carryout forest restoration 
        treatments and to use resources provided by treatments
    The community infrastructure needed to implement management actions 
no longer exists in the project area. Commercial utilization of 
restoration by-products, especially small-diameter logs, could reduce 
the costs that will otherwise be borne by taxpayers. But the current 
limited scale of restoration work in the Southwest presents a barrier 
to market development. Manufacturing firms want a reasonable 
expectation of a raw material supply throughout their planning horizon 
of ten to fifteen years (Mater Engineering 2001). The current 
reasonable expectation is that supplies of wood fiber from restoration 
projects will remain intermittent and variable due to litigation or the 
threat of litigation by environmental groups skeptical of the influence 
a profit-driven system can have on ecological systems.
    Two potential solutions (or combination of) exist for this problem. 
The first would require that participants define credible rules for 
projects to ensure that project planning and implementation focus on 
ecological responses, treating removed wood fiber as a by-product. The 
second solution involves the subsidized development of local firms 
through grants, tax breaks, and other mechanisms (Daugherty and Snider 
2003).

6. Lack of focused and determined leadership and support (both 
        politically and financially).
    To be effective, natural resource policy must enjoy the support of 
the public and its representatives for as long as it takes to implement 
the policy and for the natural system to respond to actions. Policy 
must be built on, and promulgated from, an enduring structure 
(Baskerville 1995).
    The demonstration project must have the authority and means to act 
immediately and over the long-term.

APPROACH TO ACTION
    The School of Forestry at Northern Arizona University will initiate 
and lead the development of a demonstration landscape-scale forest 
health restoration project. The project will take an adaptive ecosystem 
management approach, nurtured and implemented by collaborative partners 
willing to explore new ideas and flexible opportunities for restoring 
ecosystem health. This approach provides the best opportunity to 
confront, understand, and overcome to the obstacles outlined above.
    Adaptive management is based on the premise that knowledge about 
the system we deal with will always be incomplete and that unexpected 
events can and will occur. We do not know everything and we never will. 
We cannot allow the pretense of waiting until enough is known to 
postpone needed action.
    There are no risk free management actions. Indeed, under present 
forest conditions, the no action management alternative may very well 
be the most risky of all. Failure to implement large-scale forest 
health treatments is negligent and irresponsible (Covington 2002).
    While the collaborative adaptive management approach we are 
proposing may be considered as new and innovative, it is based on a 
sequence of works that have tested and expanded the theory and practice 
of ecological restoration and adaptive ecosystem management for over 25 
years.
    Funding is requested in this prospectus to bring together the three 
groups of people who must interact to understand and manage these 
systems--the resource managers who must make decisions within a 
framework of existing policies and partial knowledge, scientists who 
attempt to understand and communicate the systems dynamic, and the 
citizenry who benefit from or must endure the policies and results of 
management--to design and implement a community-based adaptive 
management demonstration project in the upper San Francisco River 
watershed on the Gila National Forest, New Mexico. The initial 
suggested project area (see figure 1) would encompass that portion of 
the Gila National Forest north of the Blue Range Wilderness and Negrito 
Ecosystem Management Area and west of the continental divide.
    As recommended by the Western Governors Association, we will 
utilize a collaborative approach for participatory decision-making and 
local action. Members of the collaborative partnership will participate 
in all phases of this project. A preliminary list of members is 
provided below.
Members of the Collaborative Partnership
    Catron County Board of Commissioners
    Catron County 20 Communities/National Fire Implementation Team
    Ecological Restoration Institute
    New Mexico Natural Resources Dept., Forestry Div.
    New Mexico State University
    New Mexico Department of Game and Fish
    Northern Arizona University
    Rocky Mountain Research Station in Flagstaff, AZ
    San Francisco Soil and Water Conservation District
    U.S. Fish and Wildlife Service
    Western New Mexico University

OBJECTIVES FOR YEARS 1 and 2
    With support for this prospectus, the objectives for the first two 
years are:
    <bullet>  CDefine specific duties and responsibilities among 
collaborative partnership members and put agreements in place.
    <bullet>  CAdaptive management area delineation. The suggested 
project area encompasses the northern portion of the Gila National 
Forest west of the continental divide. The final delineation of the 
project area needs to be part of the collaborative process.
    <bullet>  CDefine ``Desired Future Conditions.'' This task involves 
addressing the question of ``What kind of home do we want to leave for 
our grandchildren?'' We recognize that biophysical and socioeconomic 
ecosystems will change over time, but we can ensure that future 
generations will have as many choices as we have today.
    <bullet>  CDesign management strategies and actions needed to 
achieve long-term goals (including investigations of small wood supply, 
demand and utilization).

WHY NORTHERN ARIZONA UNIVERSITy oN THE UPPER SAN FRANCISCO WATERSHED IN 
        WEST-CENTRAL NEW MEXICO?
    The negative consequences of past management practices and current 
inaction are readily apparent in the ponderosa pine and pinyon-juniper 
ecosystems of west-central New Mexico. Northern Arizona University 
School of Forestry faculty and students have been involved in fire 
ecology and restoration research in these ecosystem types for over 25 
years. Much of the scientific work which laid the foundation for 
restoration-based fuel treatments has been done at NAU. The Ecological 
Restoration Program at NAU is the national leader in research, 
education, and technology transfer for ponderosa pine forest ecosystem 
restoration.
    The School of Forestry at Northern Arizona University will be the 
proponent and fiscal agent and will be responsible for program 
management and coordination.

CONTACTS
    P. J. Daugherty, Assoc. Professor
    School of Forestry, Northern Arizona University
    Box 15018, Flagstaff AZ 86011
    (928) 523-6650--office (928) 523-1080--FAX
    Gary Snider, Project Coordinator
    School of Forestry, Northern Arizona University
    Box 15018, Flagstaff AZ 86011
    (928) 523-1472--office (928) 523-1080--FAX

BIBLIOGRAPHY
Baskerville, G.L. 1995. The forestry problem: Adaptive lurches of 
        renewal. p. 102 in Barriers and bridges to renewal of 
        ecosystems and institutions. Columbia University Press, New 
        York, N.Y.
Carpenter, S.R. and L.H. Gunderson 2001. Coping with collapse: 
        Ecological and social dynamics in ecosystem management. 
        BioScience 51(6):451-457.
Clark, T.W. 2002. The Policy Process: A practical guide for natural 
        resource professionals. Yale University Press, New Haven.
Covington, W.W. 2002. Oral Testimony before the U.S. Senate Energy and 
        Natural Resources Committee, July 16, 2002.
Daugherty, P.J. and G.B. Snider 2003. Ecological and market economics. 
        pp. 58-69 in Ecological restoration of Southwestern ponderosa 
        pine forests. P. Friederici Ed., Island Press, Covelo, CA.
Gunderson, L.H., C.S. Holling, and S. Light 1995. What barriers? What 
        bridges. pp. 3-34 in Barriers and bridges to renewal of 
        ecosystems and institutions. Columbia University Press, New 
        York, N.Y.
Gunderson, L.H. 1999. Resilience, flexibility, and adaptive management 
        B antidotes for spurious certitude. Conservation Ecology 3(1):7 
        [online]URL: http//www.consecol.org/vol3/iss1/art7.
Leopold, A. 1970. A Sand County almanac : with essays on conservation 
        from Round River. Ballantine Books, New York.
Mater Engineering. 2001. Draft Final Report: GCFP wrap-up and 
        implementation project. Report to the Grand Canyon Forest 
        Partnership, Flagstaff Ariz. Corvallis, Oreg.: Mater 
        Engineering.
Thomas, J.W. 1992. Wildlife in old-growth forest. An attempt at 
        perspective. Forest Watch 12(7).
USDA Forest Service 2002. The Process Predicament: How statutory, 
        regulatory, and administrative factors affect National Forest 
        Management. Yates Bldg., Washington, D.C.
Walters, C.J. 1997. Challenges in adaptive management of riparian and 
        coastal ecosystems. Conservation Ecology 2(1):1 [online]URL: 
        http//www.consecol.org/vol3/iss1/art7.
                                 ______
                                 
    Mr. Pearce. Mr. Choate, you mentioned a place in Catron 
County where you do not have much development and no cell phone 
service. And if I could get you to give that location to my 
staff I would like to go there for a day or two in the near 
future; thank you. We do have some areas of rural undeveloped 
New Mexico and I know that Catron County is one of the great 
areas for that.
    Mr. Wehrheim, when I was in Catron County we took a look at 
a grant location of where the Forest Service had given a grant 
to create a timber mill or--Tell me a little bit about that 
project and where it stands today, how much was involved and 
how much, how much how many board feet we've processed through 
that.
    Mr. Wehrheim. Congressman, that grant was--went through the 
Catron County Citizens Group. It has been a 2-year project. To 
date we have not cut one tree. And they have no--absolutely 
nothing to do with the small-diameter timber, even if they 
could cut it.
    Mr. Pearce. How many jobs have been created in your county 
with that grant?
    Mr. Wehrheim. There have been two jobs, construction jobs 
to build that small-diameter mill in Catron County.
    Mr. Pearce. What seems to be the problem? Why is the mill 
not operating?
    Mr. Wehrheim. That's kind of a matter of opinion. I feel 
like that it was all more or less bogus. I don't see any 
overall plan to use--I don't think he has a means of getting 
wood out of the forest. I don't think it has anything to do 
with it after he gets it out. The mill was created in order to 
use grants.
    Mr. Pearce. At one point when we were in the county that it 
seemed like there was not even electricity to the site; has 
that oversight be cured?
    Mr. Wehrheim. They are in the process now and are hoping to 
flip the switch on the mill itself sometime this spring, March 
or April. Still, no wood, no wood has been cut and nothing has 
been--no plan has been developed to use the wood.
    Mr. Pearce. Can you tell me the approximate size of that 
grant?
    Mr. Wehrheim. This is only what I hear. It's not 
documented, but it's 1.2 million.
    Mr. Pearce. So the Forest Service gave a grant for 1.2 
million and not one board foot has yet occurred, and even when 
the grant was given there was not even electricity available at 
the site they gave the grant for?
    Mr. Wehrheim. That's correct.
    Mr. Pearce. Now, there was also then a grant, successive 
grant made to the same organization for another amount to 
Forest School Project, to Greenhouse School Project; is that 
right?
    Mr. Wehrheim. Yes, sir.
    Mr. Pearce. What is the status of that grant?
    Mr. Wehrheim. The--that grant was given and promises were 
made to the school. The school developed its itinerary around 
that program. And as to date there hasn't been a shovel of dirt 
turned. This is a 2-year program.
    Mr. Pearce. And it's the same group who received the 
previous grant?
    Mr. Wehrheim. Yes, sir.
    Mr. Pearce. Well, Ms. Cowan, do you think that the--that 
the AUM reductions can be attributed solely to the droughts or 
are there other things that play? And, by the way, you've made 
the offer of getting a copy of that Arizona report, and we 
would take you up on that.
    Ms. Cowan. As to the question about AUMs, no, it cannot be 
attributed solely to the drought, and endangered species are 
playing into the situation. There is a grazing guidance 
document that's out of the Fisheries, Wildlife and Rare Plants 
Division of the Forest Service that gives guidance to regional 
or district rangers, and that document is being used to to cut 
AUMs as well.
    Mr. Pearce. OK. Mr. Choate, you all are looking to invest 
in the biomass plant. The testimony seems to be that there does 
not seem to be much infrastructure left in the county. How do 
you foresee solving that problem of getting small-diameter 
trees cut and transported to your biomass plant?
    Mr. Choate. Naturally I would like to see it done on a 
small stewardship contract so that the people would not be one 
big entity, come in and take charge of cutting it and hauling 
it. It would be the people that live there that was in the 
logging would have an opportunity to make it a family owned 
process. And I think it would be more, more continuance if 
those people did it.
    Mr. Pearce. Ms. Cowan, I would like the Committee staff to 
work with you to structure the questions, formal questions from 
this Committee that you've raised on this science really being 
involved in the process. If you would, work with either Teresa 
or Erica before you leave today. And I would like to submit 
those today as formal questions to the Forest Service.
    We'll also follow up. We have asked--previously, our office 
has asked previously what the status of these particular grants 
have been, but we'll follow up. We might get more information. 
I do not think that our office has ever received a formal reply 
on the status of those and why those grants were, especially 
the second grant, given that the first one was not producing, 
was, was awarded.
    I think that that stewardship of public funds is one of the 
most tremendous responsibilities that all of us face. And when 
we see waste around us, no one has a greater opinion of the 
government at that point. If you would work with us on that. I 
appreciate your testimony and I appreciate your willingness to 
travel to this hearing today. I thank you very much.
    Mr. Wehrheim. Thank you, Congressman.
    Mr. Pearce. Our third panel is going to consist of Dr. John 
Fowler, Range Improvement Task Force Cooperative Extension 
Service, College of Agriculture and Home Ec; that's at New 
Mexico State University. Ms. Thora Padilla, Resource Program 
Manager, Mescalero Apache Tribe. Sherry Barrow, President of 
the SBS Wood Shavings. Ms. Laura Falk McCarthy, the Forest 
Protection Program Director, Forest Trust.
    If we can get you all to stand.
    [Witnesses sworn.]
    Mr. Pearce. Again, I'm sure you heard me, but let me remind 
you that under the Committee rules you must limit your oral 
statements to five minutes. Your entire statements will appear 
in the record and be available to Committee members.
    Now I recognize Dr. Fowler for his statement.

STATEMENT OF JOHN FOWLER, Ph.D., RANGE IMPROVEMENT TASK FORCE, 
COOPERATIVE EXTENSION SERVICE, COLLEGE OF AGRICULTURE AND HOME 
             ECONOMICS, NEW MEXICO STATE UNIVERSITY

    Dr. Fowler. Congressman Pearce, we are very grateful for 
this opportunity to be here this afternoon. I cannot speak as 
rapidly as Caren Cowan so I will abandon my dissertation of the 
written testimony and ask that that be submitted for the 
record.
    I will go directly to six visuals which I have prepared for 
this afternoon--or this morning. It's to give some figures to 
some of the claims and information that's been presented here. 
It's always nice to have some facts and figures to work from. 
The first figure I have, and I excuse, for the radio audience 
I'll try to be visual in my audio presentation, is that we have 
had a historical cut sale in New Mexico. And that's my Figure 
1, and it's been around 120 million board feet for the State of 
New Mexico since the '50s through the mid '80s. Now this amount 
of cut sale has drastically been reduced and drastically been 
reduced here recently.
    If we look at a couple of time periods, and I'll take out 
the peaks and drops because they can be used to manipulate 
figures, and go to decade averages. I believe this is how we 
need to look at our timber harvest for the state. From the 
period 1976 to 1985, in the State of New Mexico we were at 
123.6 million board feet. This has been reduced to 83.5 million 
in the period from '86 to'95, and then down to 27.7 million 
from the period '96 to 2003.
    And what you see with these types of reductions, 
Congressman, is that our local communities are virtually 
imploding. They are in harmony with the forests. The forests 
are the economic epicenters for hundreds of years since their 
inception, and without that supply of timber our communities 
can no longer function and have not been able to have a tax 
basis and to maintain their infrastructure.
    Now this is not just all the forests. If you look at a 
couple of forests, in particular the Lincoln in your district, 
Congressman, has gone from 10.8 million in the '70s down to 3.2 
million. And if you look at the Gila, it has gone from 34-and-
a-half million down to three. Now these are just very dramatic 
figures that show the level of intensity of these communities 
are experiencing.
    Caren Cowan brought up some of the personal things that are 
going on with the individuals and residents of the county that 
are just absolutely damaging.
    I'd like to go to fire. If you don't harvest it, things 
accumulate. And the Figure 3 that I have presented for you, 
Congressman, is a very rudimentary approach to fire. If you 
don't harvest it, the fuels accumulate. And we're actually over 
one billion point two board feet of accumulation just because 
of lack of harvesting alone. This doesn't count the growth, 
this doesn't count the increase, the number of stems per acre; 
we simply haven't harvested it. It's out there and it stays 
there. We have to do something about that situation, 
Congressman.
    I'd like to also talk about the acreages of burns, you 
know. In the early '70s, the same period, I talk about a 10-
year period, we were having less than 5,000 acres a year being 
burned. Those figures have jumped to over 40,000 acres a year 
for the last two decades. That's our resources going up in 
smoke.
    That's a renewable resource that has not been harvested 
we've allowed to go ahead and be eliminated through fire. It's 
an opportunity cost, but our people cannot absorb it. It's an 
opportunity cost that our forest cannot absorb through 
decadence, through competition for available resources, for 
limited resources of water and nutrients. Our trees are no 
longer healthy.
    Stands that historically stand 9 and 10 stems to the acre 
are now over 2000. They absorb water, they compete, they are 
not vigorously growing, therefore they're very susceptible to 
attack and epidemics, just like we have in the bark beetle 
infestation throughout the state.
    Let me go to the AUM question. If we look at your Figure 5, 
Congressman, that's the Gila Forest, and that is the actual 
Animal Unit Months of grazing that are currently ongoing in the 
Gila. Now I have a current piece of research, we're looking 
back at the Gila back to 1906 and walking those through time to 
get an idea of how allotments have changed, how many people are 
there, how many people have gone, what seasons of use they use. 
The thing that comes out so dramatic is the decline of Animal 
Unit Months. We're talking about 300,000 Animal Unit Months 
during the period 1954 through '84, '85; fairly stable, fairly 
constant. An Animal Unit Month is a measure of a forage 
required to sustain 1,000 unequivalent for 1 month.
    Now, the thing that's so dramatic as you look to '84 and 
you start looking, is precipitous decline in AUM in the U.S. 
There's not one cause and effect, it's not simply regulation, 
it's not simply drought, it's a combination of close canopy 
drought, regulatory burden, expanding on the units and 
infrastructure that's collapsing around.
    And I can take you to the last figure, and that's a very 
complicated figure called the Palmer Drought Severity Index. To 
give you an idea of where we are today versus how we fare in 
droughts historically, going back to the 1895, just a little 
before our time, there were some really severe droughts in the 
top portion of that visual. These drop down into six or 7 years 
of what's called extra severe or extreme droughts. And then 
during the 1940s we had a drought from 1943 to '57. There was 
really responsible for a lot of the brush and culture that New 
Mexico has incurred.
    And how does that compare to what we're experiencing now? I 
mean that's one of the fundamental questions. And if you will 
look at the lower portion of that visual you'll see that the 
Drought Severity Index has now touched the minus four category; 
that's gone from severe to the extreme. And we're into it but, 
still, we have not reached a drought that equals some of the 
historicals we've had. We can only be in the beginning of this, 
Congressman. These things we're having, these experiences, they 
could be exacerbated through time and we might only be halfway.
    The one other thing, in that visual, I want to point your 
attention to, was a very extremely wet period that's been 
referred to earlier in this testimony from '82 through '93. Our 
elk populations, antelope and other wild ambulants, they're 
very opportunistic animals. They expanded into that favorable 
moisture and that's what allowed us to have these larger herds 
that we have experienced through time. So now what we have is 
an additional problem, burdensome unit supplies.
    I've kind of painted a picture of bleakness for our state. 
There are some solutions. And I'd like to take just a moment 
to, if you would allow me, to go to some managerial 
recommendations. We have to go to long-term range condition and 
trends, use good science as a basis. We cannot react to the 
conditions from one sole year. We have to get the agencies and 
permittees on the ground together.
    Without this mutual on-the-ground examinations and 
understanding each other's position we will never develop a 
trust that is necessary for resource management. We need to 
relocate key areas to better represent our odds. These key 
areas were, in many cases located 40, 50 years ago. Since then 
we've had water development, roads, that have been changes out 
there in our ecosystems, and these key areas need to represent 
the majority of allotment, not just a small fraction.
    I'd like to recommend to you, Congressman, a methodology 
called a RAM methodology. It's called a Rapid Assessment 
Methodology. It allows us to look at the unyield population. It 
allows us to look at the forage that's out there and their 
subtle heights. It allows us to look at the moisture regime 
that currently exists to make an assessment, is there available 
forage for ambulance, both wild and domestic, to bring science 
back into a situation on a site specific basis.
    And I'd also like to build on the historic Parker three-
step bases that the U.S. Forest Service already has in 
existence. It's old but it's proven science. We can work with 
that system, Congressman.
    Now, I've got a summary, and the summary is very quick. To 
provide timber to communities in the Nation we need to 
responsibly harvest, monitor and implement good science. To 
enhance the AUMs for both wild and domestic, we need to 
responsibly harvest, monitor, in good science. To protect the 
citizens from ravages of wildfire we need to responsibly 
harvest, monitor and study science.
    To protect our endangered species we need to harvest, 
monitor and science. To enhance our watersheds, harvest, 
monitor and science. To maintain and obey our existing laws. 
And I'm talking the 1897 Organic Act, the Administrative 
Procedures Act, the Resource Planning Act, the National Forest 
Management Act, the Forest Planning Management Act, Multiple-
Use-Sustained Yield Act, and the National Environmental Policy 
Act, are giving you language for each one of those acts. And 
every one of them talks about timber harvest and protecting our 
local communities. And I've provided the language, Congressman. 
We need to follow that, our prior congressman has suggested, 
and harvest our timber responsibly.
    With that, Congressman, I thank you for this time. Thank 
you.
    Mr. Pearce. Thank you.
    [The prepared statement of Dr. Fowler follows:]

 Statement of Dr. John M. Fowler, Coordinator: Range Improvement Task 
  Force, Distinguished Chair: Tom Linebery Policy Center, New Mexico 
                State University, Las Cruces, New Mexico

    Mr. Chairman, distinguished committee members, I greatly appreciate 
the opportunity to provide input to the hearing on ``Management and 
Access Challenges Across Southwestern Forests''. My comments will deal 
directly with the forests and rangelands in New Mexico.
    New Mexico has relies historically upon renewable natural resources 
as a source of food, fiber and shelter. To date, a substantial portion 
of the population and economy remain closely tied to its agrarian 
roots. Forested landscapes have served as social, economic and 
ecological epicenters. New Mexico forest represent an ``oasis'' in a 
semi-arid landscape that serve as habitat for wildlife, provide quality 
dependable sources of water and house a diversity of flora and fauna.
    New Mexico could be viewed as developing country that traditionally 
supplied raw natural resource products to the developed world. At a 
recent conference at the Dallas Federal Reserve Bank; there were eight 
criterion listed for the successful incentives to encourage investment 
and expand economics <SUP>1</SUP>.
---------------------------------------------------------------------------
    \1\ Dr. William Easterly, The Elusive Quest for Growth.
---------------------------------------------------------------------------
    1.  Private Property Rights
    2.  Ability to Generate & Retain Profit
    3.  Providing an Infrastructure to implement
    4.  Individual Rights
    5.  Low Regulatory Burden
    6.  Change Expectation (get to one person at a time)
    7.  Look for Marginal Increments
    8.  Initiate with the Grassroots
Where are the National Forests in their meeting the criteria for 
        growth?
    Increased regulation of the use of natural resources and associated 
by-products has placed additional pressure on New Mexicans seeking to 
make a living through the utilization of natural resources. Often, 
these regulations force resource managers into single-species or 
single-issue management to the detriment of the ecological and economic 
system as a whole. Whereas timber management and silvicultural 
treatments may be used to benefit a range of ecological characteristics 
(i.e., wildlife, watershed hydrology, endangered species), enforcement 
of single minded regulations precludes activities that can benefit a 
broader cross-section of ecological functions.
    For example, forage supply has been shrinking in forests throughout 
New Mexico over the last century. Exclusion of frequently occurring, 
low intensity fire, increasing densities of small-diameter trees, 
pinon-juniper encroachment, and a decreasing area of mountain meadows 
due to tree encroachment have all contributed to several undesirable 
conditions including: 1) increased likelihood of catastrophic, stand-
replacement forest fire and increased threat to infrastructure in the 
urban-wildland interface, 2) increased competition among wild and 
domestic ungulates for forage resources and habitat, 3) decreased water 
supply, disrupted historic hydrologic cycles, and associated reduction/
disruption in riparian habitat. These conditions, in turn, negatively 
impact economic opportunities for individuals seeking to use natural 
resources provided by the forests. Healthy, productive, and resilient 
forests are better able to effectively balance ecological function and 
economic productivity without disrupting sustainability. How resource 
managers choose to address these imbalances will make the difference 
between success and failure. Successfully addressing these challenges 
will require informed decisions based on multidisciplinary research and 
adaptive resource management strategies.
    Southwestern forests, particularly those dominated by ponderosa 
pine (Pinus ponderosa var. scopulorum Engel.), developed under the 
influence of frequent fire, which shaped vegetation composition, 
structure, and succession. Factors contributing to the decline of 
southwestern forests around the turn of the 20th century included 
logging practices that removed overstory trees allowing for prolific 
conifer regeneration, and heavy grazing by sheep and cattle, which 
removed the fine fuels necessary for fire spread. However, the 
overriding impetus within the last 80 years contributing to changes in 
forest sustainability has been the practice of aggressive fire 
suppression and exclusion. In addition, the recent paucity of 
silvicultural treatments of federally administered forest has further 
contributed to homogeneous stands characterized by increased fuels and 
stem densities, which in turn are more susceptible to insect and 
disease epidemics. As a result, high-intensity crown fires have 
replaced low-intensity fires in southwestern pine-grassland stands 
threatening not only those communities at the wildland-urban interface, 
but also the ecological integrity of vast areas throughout the west. 
Following such disturbances, major erosion and runoff events occur 
leading to substantial and long-term changes in hydrologic soil 
behavior, water quality and quantity, nutrient stores, microclimates 
above and below the soil surface, forest productivity, and riparian 
habitat. High-intensity crown fires also threaten and destroy timber 
resources, understory vegetation, wildlife habitat, and compromise 
management for multiple uses.
    Communities and their respective economies are virtually imploding 
within New Mexico and throughout the western United States. Not only is 
the economic viability of individual firms being threatened, but entire 
industries and associated industries are on the ``threshold'' of 
economic survivability. Threats to the primary resource industries are 
having a ripple effect and are now consuming entire communities. when 
evaluating the rural New Mexico economy in 1998, exclusive of 
Bernalillo, agriculture is ranked as the fourth largest sector with an 
output of 1.96 billion. This is over 5% of the total rural economy.
TIMBER HARVEST
    Forests in New Mexico have been providing much needed and renewable 
resource to local communities. Examination of the interdependence of 
raw timber products and conversion to value added forest products has 
historically to the economic viability of local communities and has 
been integral to their customs and culture. The silvicultural 
treatments have prevented extensive fuel buildup. The pattern of timber 
sales in New Mexico over the period of 1976 to 2003 displayed in figure 
#1. The precipitous decline from a peak in 1986 of 168 million board 
feet (MMBF) to a low 13 MMBF in 1996. This constitutes a 92% decrease 
in cut and sold. It is more appropriate to look at 10 year periods of 
forest products, which I propose are necessary to assure continuity of 
supply of products to encourage private sector investment. The average 
cut and sold figure for New Mexico from 1976 thru 1985 was 123.6 MMBF. 
The decade from 1986 thru 1995 produced 83.5 MMBF and the period from 
1996 thru 2003 produced 27.7 MMBF. Even when the cycle is smoothed with 
decade averages, the 78 percent decline is stunning; the decade 
averages reveal that nearly 100 MMBF a year are no longer being made 
available to the economic viability of communities nor silviculture 
practices being applied: the result is rapidly escalating fuel buildup 
in the national forests.
    The same pattern is evident on a forest by forest basis. Examining 
decade averages for the Gila and the Lincoln forest (see figure #2) 
shows the same type of decline but even a more pronounced decline the 
in Gila. Looking first at the Lincoln, the cut sales averages dropped 
from 10.8 MMBF to 3.2 MMBF or a 70 percent decline. The Gila, however, 
declined even further with a decrease from 34.5 to 3.0 over the 
decades, which constitutes a 91 percent drop. (Table #1)
[GRAPHIC] [TIFF OMITTED] T0928.006


    An additional concern is that when timber harvest is discontinued 
this material accumulates and adds to the fuel load. A rudimentary 
approach to determining the accumulation would be to use the 10 year 
average of harvest from 1976 thru 1985 and determine the harvest 
reduction , accumulate the harvest reduction will indicate the fuel 
buildup. This 1.2 Billion board feet accumulation is presented in 
figure 4 for the state of New Mexico.
    The recent closure of sawmills, Tricon Lumber at Cimarron, Rio 
Grande Forest Products at Espanola, Stone Forest Industries at Reserve 
and White Sands Forest at Alamogordo; White Sands Sawmill has reopened 
under Mescalero ownership at Alamogordo, highlights a loss of 
infrastructure even if the decision was made to reinitiate 
silvicultural harvest practices in 2003 it would be physically 
impossible to implement.
FIRE
    It logically follows that has fuel loads build up the potential for 
fire increases and particularly stand changing fire.
    Examining the same time periods for fire as were examined for 
harvest (Figure #5), it is apparent that the decade from 1976 through 
1985 was uneventful. Fire suppression policies were in place and 
obviously successful. The average acres burned per year for the 10 year 
period was 6,833 acres. A gap in the data exists in the acres burned 
from 1987 and 1988 on National Forest System lands, however, acres 
burned has obviously increased from the previous 10 year average to 
42,081. The period 1996 to present reveals that the burned acreage is 
also higher than the 1976-1985 period and exceeds the prior decade with 
42,698 burned per year. This trend will inevitably continue until 
management prescriptions reduce the fuel buildup.
GRAZING AUMs
    Livestock grazing has a rich history in New Mexico, this history 
and tradition has been embraced in the local customs and culture of 
communities and highlighted in many county ordinances and resolutions. 
(Otero County Resolution No. 02-19-02/90-37).
    The Southwestern Region of the USFS provided a summary of the R-3 
History of Grazing. The Forest stated ``Actions by the Southwestern 
Region have brought about a decline in grazing use in its efforts to 
balance use with the capability of the land''. The data revealed a peak 
of approximately 1.4 million in 1910 with a rapid decline to 400,000 
livestock by 1950 and a slower but steady decline in numbers till 1998 
where the livestock totaled approximately 200,000 head for the 
Southwestern region.
    Gila: The decline in livestock numbers for the region is further 
documented when examining an individual forest such as the Gila. The 
Gila peaked in the number of Animal Units Months (AUMs) at over 1 
million AUMs for the period 1918-1922. The 50 year period from the 
depression of 1934 through 1983 was characterized by relative stability 
with AUMs hovering slightly above 300,000 AUMS's. A careful examination 
of AUMS's from 1976 to 2001 reveals that the AUMS's of the Gila have 
since declined by another 52 percent from 334 thousand AUMS's in 1976 
to 159 thousand AUMS's in 2001. Reverting to the decade averages to 
smooth the annual fluctuations reveals that there were 315 thousand 
AUMS's for 1976 thru 1985. 257 thousand AUMS's for the period 1986 thru 
1995, and 172 thousand AUMS's for 1996 to 2002. It should be noted that 
the 2002 data is incomplete to date. These AUMS's convert to 3 head per 
section for a stocking rate basis. The financial impact to local 
communities and counties has been staggering.
DROUGHT
    Ranching in the semi-arid southwest requires an iron will and 
intestinal fortitude. Climate, forage and grazing conditions are more 
suited to promoting the reproduction and early growth of animals rather 
than fattening, therefore, most range livestock producers raise young 
stock for sales. Ranchers understand the adversities of nature and 
virtually every account of ranching stresses some sort of drought 
management or lack of it.
    Consulting the Palmer Drought Severity Index (Figure 6) for New 
Mexico for the period 1895 thru 2003 reveals that although drought is 
not predictable, it's a reality with a high degree of probability. 
Prolonged severe drought have a history in New Mexico, 1897 thru 1904 
was particularly severe and the relatively recent protracted drought 
from 1943 thru 1957 altered the grasslands and was conducive to brush 
invasion. The most recent drought period directly impacting the forests 
and rangelands started in late 1995 and has continued to present. In 
terms of index numbers the period doesn't stand out among the great 
droughts. The most recent years of 2001, 2002 up to November of 2003 
have been adverse with 2003 and 2003 surpassing the severe drought 
range of -3.00 to -3.99 and touching the extreme drought category of -
4.00. It must be recognized that drought and drought relief are spotty 
necessitating a site-specific determination.
    Just as evident as the drought period is the wet period of 1983 
through 1993. During this 11-year period of favorable moisture many 
wildlife species such as elk and antelope flourished and expanded into 
favorable forage areas. This expanded numbers of elk have been in 
direct competition with livestock for diminished forage and water.
    Santa Fe: The Santa Fe National Forest (SFNF) hosted significant 
controversy during the summer of 2002. Following a declaration of 
deteriorating range condition, and unacceptable levels of range use, 
U.S. Forest Service Region 3 officials called for complete removal of 
all domestic livestock from a large number of SFNF allotments. Citing 
inadequate range surveys, a lack of quantifiable data on range 
condition, and broad-brush grazing decisions by U.S. Forest Service 
Region 3 officials, permittees, industry representatives and community 
leaders requested the assistance of the Range Improvement Task Force 
(RITF) at New Mexico State University. Accordingly, the RITF assembled 
seven teams of range science technicians, agency personnel, and grazing 
permittees or their representatives to conduct quantitative range 
assessments on 25 allotments on the SFNF.
    Historic records of range monitoring activities on the SFNF are 
intermittent. Generally, monitoring efforts that were conducted during 
the 1950's and 1960's were quite thorough. These efforts taper off into 
the 1970's with minimal data collection occurring in recent decades. 
The RITF's analysis of the most recent range monitoring data calls into 
question some of the methodologies that are currently being used and 
interpretations that are being made. They fall short of the quantity 
and quality of data collected during earlier years. In fairness to the 
agency, personnel in recent years have less time to spend in the field 
collecting sound monitoring data and interacting with permittees as 
they allocate increasing amount of time to the National Environmental 
Policy Act (NEPA) and responding to negotiated settlements and 
lawsuits. As a result, long-term range condition and trend databases 
have suffered.
    The RITF in cooperation with faculty from the Animal and Range 
Science Department at NMSU assembled a set of methodologies (RAM) 
designed to rapidly assess range condition to assist in making 
management decision regarding stocking and suitability of the range to 
support grazing.
    The RAM methodology has been used to estimate forage availability 
in New Mexico during 2002 and 2003.
MANAGEMENT RECOMMENDATIONS:
    Monitoring: Long-term range condition and trend data are 
fundamentally necessary for grazing managers and agency personnel to 
make comprehensive assessments of resource conditions, livestock 
management strategies, and wildlife numbers. Federal agency habitat 
responsibilities, permittee livestock management objectives, and State 
Department of Game and Fish objectives may all be simultaneously 
addressed with solid monitoring data. Without these types of site-
specific data, officials and permittees cannot make informed decisions 
and carry out their responsibilities. Agency personnel and permittees 
should spend time together, ``on-the-ground'' conducting resource 
monitoring in order to open lines of communication and reestablish a 
working relationship. Having established this rapport, permittees and 
agency personnel can work together when adverse resource conditions 
exist and difficult decisions need to be made. The decision process 
needs to be as dynamic and evolving as changes in natural resource 
conditions. Early, incremental decisions need to be made, which can 
improve trust and cooperation. Proper collection and documentation of 
monitoring data can also solve many of the problems associated with 
federal agency personnel turnover and lack of accountability.
    Site specific vegetative monitoring is essential:
        a) Agency/permittee on-the-ground together
        b) Relocate ``Key areas'' to represent the allotment
        c) RAM methodology to assess forage availability
        d) Open lines of communication
        e) Build on historic Parker 3 Step data base
    Reduce the fuel load: Pre-commercial, commercial, thinning and fuel 
reduction treatment are means to reduce fuel load. Consider the concept 
of linking meadows with treatment to form a latitudinal and 
longitudinal set of barriers to bring wild fire to the ground for 
containment, life protection and flow of products.
    Research: Cooperatively develop research partnerships between 
University and Experiment Stations such as:
Dr. Red Baker, ``Riparian Area Response to Different Lessons and 
        Intensities of Cattle Grazing in the Gila National Forest, New 
        Mexico''. *Preliminary results indicate increasing use of woody 
        riparian vegetation with increased grazing intensity--
        particularity during dormant season.
Dr. Red Baker, Inventory and Classification of Wildfire Occurrence in 
        Treated Versus Untreated Forest Stands on Southwestern National 
        Forests. *Preliminary results are highly encouraging on 
        positive effects of silvicultural treatments on reducing fire 
        intensity.
Dr. Jon Boren, Foraging Relationships Between Domestic and Wild 
        Ungulates on Salvage cut Areas in Lincoln National Forest. a) 
        Based on pellet group data, elk used logged forested areas to 
        the same approximate extent as mountain meadow habitats during 
        the growing season. If the objective is to decrease the use of 
        sensitive meadows by elk, a solution may be as simple has 
        harvesting timber or other silvicultural treatments in the 
        uplands to increase grass production.
SUMMARY
    To: provide timber to communities & Nation
        1) Responsibly harvest & monitor, sound science
    To: enhance AUMS's for ungulates, wild & domestic
        1) Responsibly harvest & monitor, sound science
    To: protect citizens from ravages of wild fire
        1) Responsibly harvest & monitor, sound science
    To: protect endangered species from wildfire
        1) Responsibly harvest & monitor, sound science
    To: enhance Watersheds
        1) Responsibly harvest & monitor, sound science
    To: obey existing laws
        1) Responsibly harvest & monitor, sound science
     1897 Organic Act       -NFMA  1976       -FLPMA  1976
-1946 APA           -NEPA  1969       -MUSY  1960
-RPA 1974
    To: provide security of tenure
    1)  Responsibly Harvest
         10 year fire lattice
         w/ 10 year thinning
LAWS
Organic: Under the Organic Administration Act of 1897 (16 USCS 473 et 
        seq.) National Forests are not reserved for aesthetic, 
        environmental, recreational or wildlife preservation purposes, 
        but rather for only two purposes- to conserve water flows to 
        furnish a continuous supply of timber for the people.
MUSY: Multiple Use-Sustained Yield Act of 1960 (16 USCS 528 et seq.) 
        Broadened the purposes for which National Forest had previously 
        been administered so that forest are administered for outdoor 
        recreation, range, timber, watershed and wildlife and fish 
        purposes.
APA: Administrative Procedures Act of 1946; expressly provides the 
        authority for federal review of EIS's/ROD's, EA's/FONSI's and 
        CE's required by NEPA and CEQ regulations. Requires a standard 
        of SUBSTANTIVE REVIEW.
NEPA: National Environmental Policy Act of 1976, Federal agencies must 
        conduct a hard look defined as 1) ``engage a substantial 
        inquiry';'' 2) ``thorough, probing, in-depth review''. Federal 
        courts must make a hard-look review of the Federal Agency's 
        hard-look analysis and its subsequent decision. Decision makers 
        must make an Informed, Reasoned, decision.
FLPMA: Federal Land Policy & Management Act 1976, Land use plans: goals 
        & objectives and ``that MANAGEMENT be on the basis of multiple 
        use and sustained yield''. Sec 102. (a)(12): ``the public lands 
        be managed in a manner which recognizes the nation's need for 
        domestic sources of minerals, food, timber and fiber from the 
        public lands.''
RPA: Forest and Rangeland Renewable Resources Planning Act of 1974, 
        P.L. 93-378, 88 stat, 475, as amended; 16 USC 1601 (note), 
        1600-19) Sec 2. (3) to serve the national interest, the 
        renewable resources program must be based on a comprehensive 
        assessment of present and anticipated uses, demand for, and 
        supply of renewable resources from the nations public and 
        private forests and rangelands, through analysis of 
        environmental and economic impacts, coordinate of multiple uses 
        and sustained yield opportunities as provided for in MUSY of 
        1960, and public participation in the development of the 
        program.
NFMA: National Forest Management Act of 1976: Sec.6. (e) (1) provide 
        for multiple use and sustained yield of the products and 
        services obtained there from in accordance with Multiple-Use, 
        Sustained Yield Act of 1960 and in particular include 
        coordination of outdoor recreation, range, timber, watershed, 
        wildlife and fish, and wilderness:
    (2) determine forest management systems, harvesting levels, and 
procedures in light of all of the uses of MUSU sec. 6 (g) 3. (f) insure 
that clear cutting, seed tree, shelter wood cutting, and other cuts 
designed to regenerate an even-aged stand of timber will be used as a 
cutting method on NF system lands only where
    i, ii, iii, iv, v ``safeguards

    [GRAPHIC] [TIFF OMITTED] T0928.007
    
    [GRAPHIC] [TIFF OMITTED] T0928.008
    
    [GRAPHIC] [TIFF OMITTED] T0928.009
    
    [GRAPHIC] [TIFF OMITTED] T0928.010
    
    [GRAPHIC] [TIFF OMITTED] T0928.011
    
    [GRAPHIC] [TIFF OMITTED] T0928.012
    
                                 ______
                                 
    Mr. Pearce. Ms. Padilla.

STATEMENT OF THORA PADILLA, RESOURCE PROGRAM MANAGER, MESCALERO 
                          APACHE TRIBE

    Ms. Padilla. I come from the Mescalero Apache Reservation, 
which is located in South Central New Mexico. And I would like 
to say that I didn't realize it until just now that we harvest 
approximately 17 million board feet of timber a year on a 
sustained yield basis. And from what Dr. Fowler has said, 
that's more than half of the entire state's harvest per year on 
only half a million acres.
    I would like to say that the Mescalero Apache Tribe 
supports legislation to address wildfire and forest health 
concerns in southwestern forest, and particularly on Tribal 
lands. The Mescalero Apache Tribe owns and operates the last 
two remaining sawmills in New Mexico, which is Mescalero Forest 
Products and White Sands Forest Products.
    The Tribe has actively participated in and/or initiated 
collaborative projects with surrounding non-Indian communities 
for hazardous fuels reduction, wildland-urban interface, forest 
stand improvement and forest health protection. Specific to the 
Sacramento Mountains of south-central New Mexico, we also have 
the following concerns regarding implementation and actual 
policy relevant to both the National Fire Plan and Healthy 
Forests Act.
    First of all, realistic costs need to comprehensively treat 
forested acres should be adequately considered in approval and 
implementation of projects. Conversely, the cost to thin 
forests will be significantly less than the financial and 
social costs associated with catastrophic wildfire. This is 
ultimately the reason the National Fire Plan was promulgated.
    More funds are necessary to conduct outreach for community 
members, as well as facilitating communication and public 
relations between industry, both small and large scale, and the 
entities conducting small-diameter tree thinning. This will 
provide a means for reducing costs of treatment, allow for more 
slash to be removed from sites, and provide economic growth and 
incentives.
    Second, adequate allowances need to be made for 
accomplishment of treatments required multi-year phases and 
funding. For example, follow up prescribed burning may not be 
implemented until years subsequent to thinning treatments. 
Prescribed burning is often preferable to chipping or complete 
removal from the site, particularly when we're dealing with 
large acreages and in forest environments where restoration of 
the historic fire regime is essential to forest health.
    Funding should also allow for purchase of specialized 
equipment separate from the project area treatment proposals. 
Quite often, specialized equipment can allow for more 
comprehensive and successive treatments. This is applicable for 
communities with large areas requiring treatment and submission 
of multiple project proposals over longer periods of time.
    In our collaborative efforts with the adjacent Lincoln 
National Forest, the Mescalero Apache Tribe cannot fully 
support or expand sawmill operations and the economic benefits 
to the reservation and the surrounding communities without firm 
projections of commercial timber that will be available on an 
annual sustained yield basis. There needs to be the equivalent 
of an annual allowable cut. The lack of an annual allowable cut 
limits--the allowable cut limits not only Tribal economic 
development, but also other potential development by private 
entrepreneurs in surrounding communities.
    Furthermore, meeting desired future conditions for 
southwestern forests cannot be accomplished by thinning small-
diameter trees alone. Size caps must be lifted to more fully 
treat forests and realize true forest and watershed 
restoration. Commercial harvest can be conducted in a manner 
that provides for endangered species, cultural resource 
preservation, and ecological restoration goals such as the 
retention of large trees and/or old growth. It is not an ``all 
or nothing'' proposition. Support must be given to the National 
Forests System to prepare and properly implement commercial 
harvests.
    With the ability to prepare and implement commercial 
harvests, timber appraisals must also be realistic. Due to the 
large volumes of small-diameter trees in southwestern forests, 
appraisals of harvest areas are often overinflated. The low 
average sale diameters do not allow enterprises to survive 
financially. Small-diameter trees must be deducted from the 
appraisal calculations to make the sales at least moderately 
profitable.
    One of the major things I see as a problem is, the 
administrative policies should be more uniform and equitable 
across agency boundaries. And like Dr. Fowler said, they also 
need to have more collaboration between Federal agencies.
    Last and most importantly, Tribal sovereignty must be 
recognized and respected in the development and implementation 
of all Federal policies in Indian Country. This includes the 
National Environmental Policy Act, the National Historic 
Preservation Act, and the Endangered Species Act.
    Native American peoples have lived in this country without 
adversely affecting impacting ecosystem function and health 
since time immemorial. The drastic changes in vegetation and 
hydrologic systems we now see did not come about until the 
European settlement. This fact must be acknowledged and lessons 
learned from the native indigenous people of this great 
country.
    Thank you.
    [The prepared statement of Ms. Padilla follows:]

   Statement of Thora Padilla, Program Manager, Division of Resource 
            Management & Protection, Mescalero Apache Tribe

    The Mescalero Apache Tribe supports legislation to address wildfire 
and forest health concerns in southwestern forests, and particularly on 
Tribal lands. The Mescalero Apache Tribe owns and operates the last 2 
remaining sawmills in New Mexico, Mescalero Forest Products and White 
Sands Forest Products. The Tribe has actively participated in and/or 
initiated collaborative projects with surrounding non-Indian 
communities for hazardous fuels reduction, wildland-urban interface, 
forest stand improvement, and forest health protection. Specific to the 
Sacramento Mountains of south-central New Mexico, we have the following 
concerns regarding implementation and actual policy relevant to both 
the National Fire Plan and the Healthy Forests Act:
    1.  Realistic costs to comprehensively treat forested acres should 
be adequately considered in approval and implementation of projects. 
Conversely, the cost to thin forests will be significantly less than 
the financial and social costs associated with catastrophic wildfire. 
This is ultimately the reason the National Fire Plan was promulgated. 
More funds are necessary to conduct outreach with community members, as 
well as facilitating communication and public relations between 
industry (small and large scale) and the entities conducting small-
diameter tree thinning. This will provide a means for reducing costs of 
treatment, allow for more slash to be removed from sites, and provide 
economic growth/incentives.
    2.  Adequate allowances need to be made for accomplishment of 
treatments requiring multi-year phases and funding. For example, 
follow-up prescribed burning may not be implemented until years 
subsequent to thinning treatments. Prescribed burning is often 
preferable to chipping or complete removal from site, particularly when 
dealing with large acreages, and in forest environments where 
restoration of the historic fire regime is essential to forest health.
    3.  Funding should allow for purchase of specialized equipment 
separate from project area treatment proposals. Quite often, 
specialized equipment can allow for more comprehensive and successive 
treatments. This is applicable for communities with large areas 
requiring treatment and submission of multiple project proposals over 
longer periods of time.
    4.  In collaborative efforts with the adjacent Lincoln National 
Forest, the Mescalero Apache Tribe cannot fully support or expand 
sawmill operations and the economic benefits to reservation and 
surrounding communities without firm projections of commercial timber 
that will be available on an annual sustained yield basis. There needs 
to be the equivalent of an annual allowable cut (AAC). The lack of an 
AAC limits not only Tribal economic development, but also other 
potential development by private entrepreneurs in surrounding 
communities.
    5.  Furthermore, meeting desired future conditions for southwestern 
forests cannot be accomplished by thinning small diameter trees alone. 
Size caps must be lifted to more fully treat forests and realize true 
forest and watershed restoration. Commercial harvest can be conducted 
in a manner that provides for endangered species, cultural resource 
preservation, and ecological restoration goals, such as retention of 
large trees and/or old growth. It is not all ``all or nothing'' 
proposition. Support must be given to the National Forests System to 
prepare and properly implement commercial harvests.
    6.  With the ability to prepare and implement commercial harvests, 
timber appraisals must also be realistic. Due to the large volumes of 
small diameter trees in southwestern forests, appraisals of harvest 
areas often are inflated. The low average sale diameters do not allow 
enterprises to survive financially. Small diameter trees must be 
deducted from the appraisal calculations to make the sales at least 
moderately profitable.
    7.  Administrative policies should be more uniform and equitable 
across agency boundaries.
    8.  Lastly and most importantly, Tribal sovereignty must be 
recognized and respected in the development and implementation of all 
Federal policies in Indian Country. This includes the National 
Environmental Policy Act, the National Historic Preservation Act, and 
the Endangered Species Act. Native American peoples have lived in this 
country without adversely impacting ecosystem function and health since 
time immemorial. The drastic changes in vegetation and hydrologic 
systems we now see did not come about until European settlement. This 
fact must be acknowledged, and lessons learned from the native and 
indigenous peoples of this great country.
                                 ______
                                 
    Mr. Pearce. Ms. Barrow.

            STATEMENT OF SHERRY BARROW, PRESIDENT, 
                       SBS WOOD SHAVINGS

    Ms. Barrow. Thank you. My name is Sherry Barrow. I have SBS 
Wood Shavings, located in Glencoe, New Mexico, in Lincoln 
County, adjacent--
    Mr. Pearce. Excuse me. Can you scoot up just a little bit 
farther?
    Ms. Barrow. Is that better?
    My name is Sherry Barrow. I have SBS Wood Shavings in 
Glencoe and Ruidoso, New Mexico. The Cree and Scott Abel fires 
of 2000, the Trap and Skeet fire of 2001, the Kokopelli fire 
and Penasco fires of 2002 and a number of other western 
``burners'' have brought the reality of catastrophic wildfire 
to the forefront of our regional public awareness.
    We're located in South-central New Mexico adjacent to the 
Lincoln National Forest. The following is my effort to give you 
an overview of our business goals and objectives and our 
approach to date, and current constraints with regard to 
management and access to supplies, small-diameter timber in 
Southeastern New Mexico.
    Sherry Barrow Strategies, SBS, Wood Shavings, has produced 
an innovative shaving manufacturing facility utilizing round 
wood derived from forest and watershed restoration efforts in 
the geographic region encompassing the Lincoln National Forest 
in Southeastern New Mexico. Our facility is leased from Lincoln 
County. The processing plant was built within a 9-month period. 
Commercial production of SBS Wood Shavings began in January of 
2003.
    Currently, SBS regularly ships semi-truck loads of high 
quality bagged, compressed, animal bedding to wholesale/retail 
locations in five states. SBS has also increased the plant 
labor force by six employees and we anticipate adding two more 
employees in 2004. We have 10 contracted workers cutting small-
diameter trees in the forest and two truck drivers transporting 
to SBS Wood Shavings year-round.
    SBS has been working closely with Sierra Contracting, 
Incorporated, or SCI, that is our local composting operation, 
and over the past several months we have been working to 
address transportation constraints. That is part of the 
infrastructure that you referred to formerly. We've had to 
build that on our side of the mountain. When I refer to ``our 
side of the mountain'' I'm talking about the Smokey Bear Ranger 
District. We haven't received any material from the Sacramento 
Ranger District in Lincoln National Forest as yet.
    Now, the material is transported from treatment sites to 
SBS Wood Shavings' wood yard in Glencoe, New Mexico. SCI has 
been operating for 7 years and we have created a somewhat 
innovative transportation system together. We both have 
received funds, seed monies, in 2001 from the Four Corners 
Sustainable Forest Partnership and from Economic Action Program 
Rural Community Assistance. And we're both guaranteed that 
together we work to help solve this problem.
    We've been operating for--they've been operating for 7 
years and they recognized the strength gained from working 
collectively with other community partners to meet common 
goals. Once our product is made, SBS also contracts with 
trucking companies, primarily New Mexico based companies. We 
have a large list of trucking companies that are New Mexico 
based. We go through that list first before we move outside of 
New Mexico to transport the finished product to wholesale/
retail locations within a five-state area.
    At this time SBS is using an estimated 337,000 pounds, or 
75 cords, of green round wood per week. That would that adds up 
to 3900 cords, or 17,550,000 pounds of green wood per year, 
with a potential to double the usage in the next year, 2004.
    We estimate that acquisition of 3900 cords will require 
1300 accessible acres. That's an average. SBS has utilized 
small green diameter material from the following sources: 
Lincoln National Forest-Smokey Bear Ranger District, New Mexico 
State Land--Trust Land on Moon Mountain. Many private 
landowners--largely those projects were funded by WUI dollars 
through New Mexico Forestry Division, Fire--National Fire Plan 
funds where a private landowner who does thinning according to 
the treatment, as prescribed by the Forestry Division Timber 
Management Officer, he is reimbursed for 70 percent of the 
funds he has expended to treat the land.
    Those are priority-defined areas within the wild 
improvement interface, and the priority areas have been defined 
by a collaborative group called the Ruidoso Wild Land Urban 
Interface Group, of which Thora and the Mescalero Apache Tribe, 
BIA, and many other members, sit and define those areas that 
are most threatened by the potential of catastrophic wildfire.
    We also have received some--we haven't received it, we've 
gone to pick up material from municipal lands in our area. And 
that's the numbers that I have for you right now.
    With regard to renewable energy, we thin it and we meet the 
situation at SBS Wood Shavings. We actually co-generate thermal 
heat to dry our product with the wood waste that is created 
from our process. And we also have a wood chip gasifying 
generator where we can create electricity that lights our 
facility.
    At Sherry Barrow Strategies we're supportive of these 
technologies if appropriate economy of sale is observed. We 
choose to incorporate both thermal heat and electricity 
generated from wood at SBS Wood Shavings.
    As far as thermal, the innovative shaving process at SBS 
Wood Shavings includes a 12,000,000 Btu sawdust-fired burner 
utilizing the sawdust created in processing to co-generate 
thermal heat. Let's see. That thermal heat is then used to dry 
the wood shavings product before packaging. The burner/dryer 
system was funded, in part, small part, by a grant in 2001 from 
the Collaborative Forest Restoration Program.
    Regarding electricity: Sherry Barrow Strategies restoration 
wood processing facility in Glencoe was ranked first of six 
locations chosen nationwide to participate in a Small-Scale 
Modular Biomass Power System demonstration using gasification 
of wood chips, co-sponsored by the U.S. Department of Energy 
through the National Renewable Energy Lab in Littleton, 
Colorado, and the USDA Forest Service, Forest Products 
Laboratory in Madison, Wisconsin. It was rolled out to us in 
October of 2002.
    The small modular biomass unit is currently producing 
electricity in our plant. It is small; it's 20 kw, so it's a 
very small unit.
    Due to the threat of catastrophic wildfire in the urban 
interface, the USDA Forest Service and the Lincoln National 
Forest identified the need for thinning one-third of the 
200,000 hundred thousand acres in the Sacramento Ranger 
District and 70,000 acres in the Smokey Bear Ranger District.
    Forest Service figures show the Lincoln National Forest 
growing an average 30 to 40 million board feet per year. This 
goes into a lot of detail about loss, insects, and that sort of 
thing. But they estimated that 2500 to 3500 acres per year will 
be made available for pre-commercial thinning.
    Restoration wood from small-diameter treatments would be 
made available for wood utilization. Now that reference will be 
fully packaged in the account of the forest initiative, and we 
expect that there will be--we believe there will be dramatic 
modifications in those numbers upward because of the 
stewardship contracting authority.
    New Mexico State Forestry has identified 1500 acres; 
Ruidoso has some acreage, and at this time I want to talk about 
some constraints, if time permits.
    This work is not for the faint at heart. We are building a 
foundation for long-term sustainable forest management and no 
one entity can do it alone. Our panel may overhear--Dr. Fowler 
has talked about trust and the need for that. We have to have 
all stakeholders at the table. In the beginning our 
collaborative community groups--there were some guarded 
attempts to form relationships.
    Some fell apart and regrouped and others backed away from 
what they believed was destined to fail. We have to build 
tolerance, then establish a dialog, identify our common ground, 
and then work collectively toward those goals. We have been 
doing that in our area.
    It can be done. We're not just talking. We haven't accepted 
grant money and not done anything, we are producing together. 
It takes everybody, and we are interdependent at this time. We 
are still working together within our zone of agreement.
    My experience with the Forest Service, Bureau of Land 
Management, Bureau of Indian Affairs, and New Mexico State Land 
Trust and the New Mexico Forestry Division staff has been 
extremely positive. And we are making solid progress toward our 
goals. But we will not leave the table; we work together. We 
solve problems. It's a relationship and we have a long-term 
interdependent relationship. We recognize that where I am. I 
recognize that the landscape changes relationally across the 
West, just as our lands do. The dynamics are very different.
    With regard to access to small-diameter trees, I see 
several opportunities; better management practices, more 
effective contracting instruments, new low-impact cost 
effective forestry equipment to which they're referred, 
equipment capable of accessing areas previously deemed 
inaccessible in our region, and a heightened public awareness 
resulting in strong support for fuel reduction in the WUI lands 
and watersheds.
    In addition to traditional products, the use of biomass and 
other waste as a renewable energy is long overdue. There are 
plans for building everything from 5kw to 35 megawatt power 
plants, to wood chip retrofitted community boiler systems. We 
must address the need in rural communities for economic 
diversity and appropriate scale. As for biomass power plants, 
SBS believes that one-half to 1 megawatt plants, in some cases 
and in certain areas 5 megawatt plants, strategically located 
near the wood supply and an end-user seem much more reasonable 
than large scale through plant.
    While we believe in sustainable communities, we are 
concerned that the desire to reduce forest fuel loading could 
result in a push for a ``quick fix'' solution. I do not want to 
see small business diversity left out of the ``mix'' by the 
creation of an over-scaled biomass facility, nor do I want 
unnecessary tree cutting to feed a business under the guise of 
restoration. Huge power plants are expensive to build and 
expensive to maintain. Infrastructure to deliver power is 
expensive, can be invasive, and, finally, who will buy the 
power? And, will the power be purchased at a rate that will pay 
for the investment?
    When faced with the choice--and we're using both thermal 
and electric heat generated from wood at our facility--I see 
thermal heat generation as less risky to communities, right 
now, and less expensive to incorporate into existing 
infrastructure.
    Again, I urge caution and vigilant attention to the 
selection of appropriately scaled endeavors. Whatever solutions 
are realized, an environmentally--an environmentally sensitive, 
diverse economy driven by healthy forests is Sherry Barrow 
Strategies answer for sustainable rural communities.
    Thank you again for your diligence. I hope you find this 
information of interest. And I will be pleased to take any 
questions.
    Mr. Pearce. Thank you very much.
    [The prepared statement of Ms. Barrow follows:]

     Statement of Sherry Barrow, Owner, Sherry Barrow Strategies, 
                           SBS Wood Shavings

    The following is my effort to give you an overview of our business 
goals and objectives, our progress to date, and current constraints 
with regard to Management & Access to Supply of small diameter timber 
in Southeastern New Mexico.
    SBS business goals are to:
    1)  Produce wood shavings bedding (SBS Wood Shavings) using small-
diameter trees from forest and watershed restoration efforts, utilizing 
byproducts to co-generate thermal/electrical energy used in the 
process;
    2)  Identify developing and emerging markets for wood waste 
products;
    3)  Market, produce, and sell identified value-added products and 
byproducts to sustain regional economic development; and
    4)  Empower community partners in the establishment of sustainable 
rural economic development by providing access to successful wood waste 
utilization and value-added biomass models.

[GRAPHIC] [TIFF OMITTED] T0928.001


    Ruidoso Wild Land Urban Interface Group (RWUIG). RWUIG is a 
collaborative problem-solving body (LNF, Mescalero Apache Tribe, BIA, 
BLM, Lincoln County, NM State Land Office, Ruidoso Downs, NM State 
Forestry, Ruidoso, wood utilization businesses, community groups and 
other interested entities) empowered to address the health, safety, 
welfare and economic security of communities at risk of wild fire in 
the urban interface, while respecting the natural interdependence of 
our ecosystem.
Progress to date:
    Sherry Barrow Strategies (SBS)
    SBS Wood Shavings
    The processing plant was built within nine months and production of 
SBS Wood Shavings began in January of 2003.
    At this time, SBS is using an estimated 337,500 pounds (75 cords) 
of green round wood per week or 17,550,000 pounds (3900 cords) per 
year--with the potential to double usage in the next year (2004). SBS 
estimates that acquisition of 3900 cords will require 1300 accessible 
acres per year. SBS has utilized green, small-diameter material from 
the following sources: LNF-Smokey Bear Ranger District, N.M. State 
Trust Land-Moon Mtn., Private landowners--largely projects funded by 
the WUI dollars through NM-EMNRD Forestry Division, and Municipal 
Lands-Village of Ruidoso and the Village of Ruidoso Downs.
    Renewable Energy: Co-Generation of thermal heat and electricity: At 
Sherry Barrow Strategies we are supportive of these technologies, if 
appropriate economy of scale is observed. We choose to incorporate both 
thermal heat and electricity generated from wood at SBS Wood Shavings. 
First:
    Thermal: The innovative shaving process at SBS Wood Shavings 
includes a sawdust fired burner utilizing the sawdust created in 
processing to co-generate thermal heat. That thermal heat is then used 
to dry the wood shavings product before packaging. The burner/dryer 
system was funded, in part, by a grant (2001) from the Collaborative 
Forest Restoration Program; Now,
    Electricity: Sherry Barrow Strategies restoration wood processing 
facility in Glencoe (formerly the Glencoe Rural Events Center and Joe 
Skeen Arena) was ranked first of six locations chosen nationwide to 
participate in a Small-Scale Modular Biomass Power System demonstration 
project utilizing gasification of wood chips, co-sponsored by the U.S. 
Department of Energy (DOE) through the National Renewable Energy Lab 
(NREL) in Littleton, Connecticut, and the USDA Forest Service, Forest 
Products Laboratory (FPL), Madison, Wisconsin. The unit was rolled out 
in late 2002.
    The small, modular biomass unit processes wood chips from fuel 
reduction projects creating electricity and thermal heat for the SBS 
facility in Glencoe, New Mexico. If you have questions about the 
program or the reasons for our #1 ranking, you may contact Sue LeVan-
Green at the Forest Products Laboratory--Program Mgr., S&PF Technology 
Marketing Unit. Her contact information is: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="40332c2536212e0026336e2625246e3533">[email&#160;protected]</a> or you may 
phone her at (608) 231-9518.
    As for the economic impact of grants to forest-based industry, 
please see the January 2003 report prepared by the USDA Forest Service 
Inventory & Monitoring Institute for the New Mexico EMNRD titled: The 
Southwest Region's forest-based Community Economic Development Grant 
Program: Economic Effects in the Apache Sitgreaves and Lincoln Working 
Circles.

LOCAL SUPPLY/ACCESS TO SMALL DIAMETER WOOD
    USDA Forest Service-LNF has identified a need for thinning one-
third of the 200,000 acres in the Sacramento Ranger District and the 
70,000 acres in the Smokey Bear Ranger District. Forest Service figures 
show the Lincoln National Forest (LNF) growing an average of 30 to 40 
million board feet per year with a loss on average of 7 million board 
feet to insects. These figures do not include the potential for loss 
from fire and other catastrophic events. (Reference: Dennis Watson, 
Timber Management Officer, LNF.) In accordance with current funding 
plans, LNF estimates 2500 to 3500 acres per year will be made available 
for pre-commercial thinning. Restoration wood from small diameter 
treatments will be made available for wood utilization. (Reference: 
Brian Power, Aviation and Fire Officer--LNF.) In light of the Healthy 
Forests Initiative, SBS expects some modification of these plans may 
occur.
    New Mexico State Forestry--Capitan District has received National 
Fire Plan WUI funds for fuel reduction treatment (small diameter) on 
private lands. The Capitan District Forester has identified 
approximately 1500 acres for fuels reduction treatments in priority 
areas within the wild land urban interface, and the work is now under 
way.
    The Village of Ruidoso--The Village has implemented a low-intensity 
thinning project in the Grindstone Lake recreation area. In the summer 
of 2002, the Village of Ruidoso began a 438-acre restoration project 
adjacent to the 3,000 acre LNF--Smokey Bear Ranger District ``Eagle 
Creek'' project. The ``Eagle Creek'' project has received federal 
funding from Collaborative Forest Restoration Program.
    On the Village's 438-acre project, an estimated 60 yards per acre 
of woody biomass (under 5'' dbh) and approximately 3 cords per acre of 
round wood (5'' to 12'' dbh) were slated for removal over a two-year 
period. The Cree and Scott Abel fires of 2000, the Trap & Skeet Fire of 
2001, the Kokopelli, 5/2 fire and Penasco fires of 2002 and a number of 
Western fires have brought the potential for catastrophic wildfire to 
the forefront of regional public awareness.
    New Mexico State Trust Lands
    Bureau of Land Management
    Bureau of Indian Affairs
    Resources
    Forest Products Laboratory
    Forest Operations Laboratory (FOL) in Auburn Alabama
    Those of us working toward solutions in reducing the threat of 
catastrophic wildfire by building service capacity and rural economic 
development through wood utilization businesses need the expertise and 
resources provided by both Labs.
    Energy Minerals and Natural Resources Department-Forestry Division 
Four Corners Sustainable Forests Partnership (FCSFP): The Partnership 
quickly became our ``clearinghouse'' for growth and development 
resources and mentoring. Early on, Kim Kostelnik-FCSFP Program Manager, 
provided a simple flow-chart which helped us to understand the time 
frame for the paperwork, and shared resources like the Forest Products 
Lab and Forest Operations Lab, and other small diameter entrepreneurs 
as well. EMNRD-Forestry Division, which is a member of Four Corners 
Sustainable Forests Partnership, has provided countless hours of 
resource information, contacts, problem solving, federal funding, 
access to mentors and encouragement through the partnership. The Four 
Corners Sustainable Forests Partnership is ``sun-setting'' this year. 
We believe the State of New Mexico through EMNRD-Forestry Division 
needs the federal funding to continue, in some fashion, even if the 
program provides leadership and resources under a different umbrella.
    Collaborative Forest Restoration Program: The 2001 Technical 
Advisory Panel deliberation process was open to the public. Observing 
the deliberation process was a valuable educational experience. It was 
a rare opportunity to learn about diverse perspectives on forest 
restoration. The panelists have become resource conduits for our work. 
We now have a number of ``go-to'' resource people in different areas 
across the country. The SW Center for Biological Diversity's Todd 
Schulke (panel member) has become a valuable contact for our 
environmental concerns. Our involvement with CFRP convinced us that, 
even though we don't have any involvement with the treatment itself, we 
bear a responsibility for the treatment side of the small diameter 
trees we utilize.

CONSTRAINTS
    In order to facilitate sustainable rural economic development, 
forest health, and complete the ``stump to consumer'' cycle, community 
partners must have tools to build infrastructure and successful 
systems. A collaborative effort toward building service capacity, 
including technical assistance and training for environmentally 
sensitive equipment and appropriate small diameter handling systems is 
the next step toward long-term sustainability. The Lincoln National 
Forest has demonstrated a willingness to explore all available 
contracting options including Stewardship contracts in order to meet 
management objectives.
    Recent federal funding has planted the seeds for emerging small 
diameter wood businesses. If federal funding could be appropriated just 
until the infrastructure and systems are in place, SBS believes our 
community will establish sustainable forestry-based businesses suitable 
for replication in other western states.
    My experience with FS, BLM, BIA, New Mexico State Trust, and NM 
Forestry Division staff has been extremely positive and we are making 
solid progress toward our goals. In the LNF area, we also have the 
ever-present threat of wild fire. Our entire community acknowledges the 
danger, and we are working together toward forest and watershed 
restoration.
    Currently SBS is moving away from handling small diameter trees too 
many times with inappropriate equipment and systems. The results are 
encouraging. Still, transportation cost of the small diameter trees 
(5''-9''dbh) from the prescribed treatment site to a utilization site 
remains a regional constraint. We had hopes for some relief with the 
transportation $20 per green ton credit included in recent legislation. 
If available, it could double the range available to transport small 
diameter wood. SBS is a regional small diameter processing facility 
with an established, stable year-round outlet for green small diameter 
timber.
Access to Supply of Small Diameter Trees
    With regard to access to supply of small diameter trees, I see 
several promising options:
    Better Management Practices;
    Contracting;
    New Low-impact cost effective equipment; and
    Equipment capable of accessing areas previously deemed inaccessible 
in our area.
Opportunities for Wood Waste Utilization
    Biomass Energy is long overdue. There are plans for building 
everything from 5kw to 25megawatt power plants to chip-retrofitted 
community boiler systems.
    Caution is urged.
                                 ______
                                 
    Mr. Pearce. Ms. McCarthy.

  STATEMENT OF LAURA FALK McCARTHY, FOREST PROTECTION PROGRAM 
                     DIRECTOR, FOREST TRUST

    Ms. McCarthy. Thank you for the opportunity to testify. I 
was a Forest Service firefighter/forester and NEPA planner for 
five years. For seven years I have directed planners, regional 
conservation organization. The Healthy Forest Restoration Act 
has now been signed into law. It gives us a National Fuel 
Reduction policy, but it is not a restoration policy. My 
testimony is about six key management issues related to the 
implementation of Healthy Forest Restoration Act.
    First, managers who design and implement fuels reduction 
need to remain aware of the shallow foundation of research that 
is available to guide their treatments. The Forest Trust has 
reviewed the science behind fuels reduction treatments and 
found limited research support for the idea that they will 
reduce fire risk. We also found evidence that thinning reduces 
fuels.
    But the research does not tell us whether reducing tree 
density will change catastrophic fire behavior, which is the 
outcome we are seeking. Therefore, managers should use the 
healthy forest initiatives fuel reduction authorities to test 
specific combinations of thinning and prescribed fire 
treatments through research, experimentation and adaptive 
management. Then we will be able to determine which treatments 
are effective, as our implementation proceeds, and to identify 
and cease ineffective practices.
    Second, the Healthy Forest Restoration Act requires 
managers to measure their progress at reducing the national 
fire risk by reporting condition class before and after 
treatment. This measurement system is promising because it is 
science based, but also frought with peril. A locally accurate 
version of condition class called land fire is under 
development but was only partially funded in the 2004 budget.
    In the meantime land managers are being trained to take 
fuel measurements to report the condition class of acres they 
have treated in 2003. But there has not been sufficient funding 
for this activity and the managers are under pressure to use 
the system immediately. If managers cut corners they will 
generate unreliable measurements and the Land Management Agency 
will be a accused of evading accountability.
    Third. A regular program of prescribed burning and wildfire 
use, coupled with occasional thinning is needed to maintain 
fuel levels at normal levels. The Federal Land Management 
Agencies have not previously demonstrated that they have 
reliable systems for scheduling return visits to keep new fuels 
from accumulating.
    The Healthy Forest Act, Restoration Act, suggests, but does 
not require, that the agencies develop systems to track and 
schedule maintenance treatments for areas where fuels have been 
reduced. This staff is essential if we are to protect the 
public investment in fuels reduction and to contain fire 
suppression costs over the long run.
    Fourth. Southwestern forest management is complicated by 
the interaction of wildfire, drought and insects. 
Unfortunately, the science about bark beetles and wildfire is 
even less developed than research about the effects of 
thinning. The Healthy Forest Restoration Act authorizes 
categorical exclusions for 1,000-acre research project that 
will treat areas infested with insects or adjacent to 
infestation. The emphasis in this authority is research, yet so 
far it is an unfunded program and the mechanisms for 
cooperation between research scientists and managers has not 
yet been determined.
    The emphasis in this research must be used to test three 
hypotheses that are as of yet unproven. First, that treatment 
slows the threat of insects. Second, that treatments change the 
behavior of subsequent fires. And third, that economic value is 
preserved by removing wood before the infestation progresses.
    My fifth point is the grazing, firewood cutting and hunting 
are mainstays of many New Mexico family incomes. From this 
reliance on the land comes the desire to work in the woods and 
a desire for employment restoring forest health.
    The Healthy Forest Restoration Act includes incentives for 
forest industry to invest in value-added products made from 
wood removed in those treatments. But these incentives are not 
aimed at the local work force in New Mexico.
    The forest produces work in forest-based economic 
development for the last 15 years. We have identified a host of 
barriers to keep small businesses from succeeding. These 
barriers are wide-ranging and some do not fall under the Land 
Management Agency's jurisdiction, such as the high cost of 
workers' compensation insurance for New Mexico thinning 
companies.
    But other areas, such as the structure, size and timing of 
contracts, have a direct bearing on whether local contractors 
can offer competitive bids. Federal Land Management Agencies in 
the Pacific Northwest have made tremendous progress in their 
ability to create a restoration economy that creates local 
employment opportunities.
    These lessons should be applied in the Southwest so that 
local workers may benefit as fuels are used. By 2005 we will 
probably see significant new funds appropriated for fuels 
reduction. So we have 1 year to seek and implement solutions to 
the barriers that inhibit small businesses and local 
employment. A systematic effort to recognize barriers, build 
local business capacity and prepare for upcoming contracts will 
make New Mexico's workers part of the solution for restoring 
our regions' forests.
    And finally, I'm concerned that the Healthy Forest 
Restoration Act will create more gridlock, not less, because of 
the erosion of public rights for input. In New Mexico the 
communities have been negotiating with the Forest Service for 2 
years over fuel reduction in the community protection zone. The 
community already lost half of its forest to a fire in 1996. 
They care deeply about the rest. And the NEPA process has kept 
the dialog going. They still do not have a solution, and if 
dialog stops they will end up in court.
    In another New Mexico community, a land grant defendant who 
is out of thinning work because of a frivolous environmental 
appeal, told me that NEPA had made such a difference to his 
community's ability to influence agency decisions that he 
didn't support giving up the community voice just to silence a 
few appeals.
    So, I'll close by saying that I really hope that the dire 
predictions about the Healthy Forest Restoration Act that have 
come from a lot of environmental groups don't come true, but if 
they do, please provide us with a process to go back and face 
it.
    Mr. Pearce. Thank you.
    [The prepared statement of Ms. McCarthy follows:]

 Statement of Laura Falk McCarthy, Forest Protection Program Director, 
                        Forest Trust, New Mexico

    Thank you for the opportunity to testify today. I have twelve years 
experience working for the U.S. Forest Service as a firefighter and a 
NEPA planner. I am now the Forest Protection Program Director at the 
Forest Trust in New Mexico. The mission of the Forest Trust is to 
protect the integrity of forest ecosystems and improve the livelihoods 
of rural people. The Trust operates several programs that include a 
research center, technical assistance to forest-dependent communities, 
and consulting forestry on private lands. We have first-hand experience 
with the management challenges facing Southwestern forests.
    The Healthy Forests Restoration Act has been signed into law, and 
we will soon find out what impacts the law has on forests, wildfires, 
and forest-dependent communities. The Act gives us a national fuels 
reduction policy, but it does not provide a national restoration 
policy, that employs a full suite of restoration tools. In my testimony 
I will describe five key management issues. These are: (1) the use of 
research to inform forest management; (2) federal land manager 
accountability for hazardous fuel reduction treatments; (3) maintaining 
low fuel loads in forest areas that have been treated; (4) managing in 
the face of extended drought and insect infestations; and (5) better 
utilizing the local workforce to carry out fuel reduction treatments.

Forest Management Must Be Informed by Research
    Federal land management agencies are poised to make significant 
increases in their fuels reduction programs now that the Healthy 
Forests Restoration Act is law. Entering into this new phase of 
widespread forest treatments, managers need to remain cognizant of the 
fact the treatments are based on a relatively shallow foundation of 
research. The Forest Trust has examined more than 250 research papers 
about hazardous fuels reduction treatments--including prescribed fire, 
mechanical thinning, a combination of thinning and fire, and commercial 
logging. We undertook this literature review so that we could describe 
the scientific underpinnings of the hypothesis that fuel reduction 
treatments will modify fire behavior in overstocked forests. Our 
primary findings were:
    1.  The current research is, in general, inconclusive with respect 
to the effectiveness of mechanical thinning in changing wildfire 
behavior. This is because study methods and research results vary 
greatly. Only one quantitative empirical study was completed as of 
early 2003;
    2.  The effectiveness of prescribed burning in changing post-
treatment wildfire behavior is clearly demonstrated in many studies;
    3.  The limited number of studies that investigated the 
effectiveness of thinning and prescribed burning in combination 
produced equivocal results. More research is needed before firm 
conclusions can be reached; and
    4.  We found no published scientific research on the positive 
effects of commercial logging on post-treatment fire behavior.
    These and other findings from the literature review led us to 
conclude that a significant investment is needed in basic and applied 
research to provide a credible scientific basis for the design, 
implementation, and evaluation of alternative treatment methods. A 
survey we conducted of fuels reduction prescriptions used in 
southwestern forests revealed that most foresters focus on reducing 
tree density. However, the scientific literature indicates that tree 
density is only one of several factors affecting fire behavior. The 
distance from the ground to the base of the tree crown, and the amount 
and arrangement of surface vegetation and dead woody material, also 
play important roles. As more is learned about how these factors alter 
fire behavior, forest managers will need to adapt their treatments.
    Our survey also found many excellent prescriptions from projects in 
places like Flagstaff, Arizona, where the Ecological Restoration 
Institute is located. Yet, most public lands do not double as research 
forests, and most managers are not scientists and do not have 
experience applying research results to management. The simplicity and 
lack of variety in the prescriptions that managers use, coupled with 
the tenuous scientific support for tree density as a factor that 
significantly influences fire behavior, is therefore cause for concern.
    What this Means for Forest Management: The current situation is 
that we have inconclusive evidence that thinning alone will reduce fire 
risk, but a new law that will expedite fuels treatments. Under these 
circumstances, forest managers should use the new authority to test 
specific combinations of thinning and prescribed fire treatments 
through rigorous experimentation that develops site--and weather-
specific data. We need to require that managers integrate research, 
experimentation, and adaptive management into our national fuels 
reduction program. Only by doing so will we be able to determine which 
fuel treatments are effective and where they should be employed, and to 
identify, and cease, ineffective practices.

Accountability of Federal Land Management Agencies
    ``Fire regime condition class'' is a scientific classification 
system that is written into the Healthy Forests Restoration Act as the 
method for agencies to demonstrate changes in forest health as a result 
of fuels treatments. Fire regime condition class was developed by the 
Forest Service, Rocky Mountain Research Station, for the purpose of 
``providing national-level data on the current condition of fuel and 
vegetation,'' such as summaries of the total acres at risk of wildfire. 
The scientists who developed the national-scale data did not expect the 
system to be used to measure agency accountability. But the GAO, and 
many others, have continually criticized the federal land management 
agencies for their lack of accountability, and condition class has now 
been codified as the system for measuring changes in forest ecosystems.
    Most non-scientists do not understand what fire regime condition 
class is. Simply put, condition class is a relative ranking of the 
departure from normal fire cycles. A ranking of ``3'' means the unit 
under consideration has missed two or more natural cycles of fire, and 
implies that, in the absence of fire, fuels may have accumulated to 
dangerous levels.
    The Healthy Forests Restoration Act will have managers measure 
their progress at reducing the national fire risk by reporting 
condition class before and after treatment. This measurement system is 
promising, because it is science-based, but is also fraught with peril.
    The scientists who developed condition class created a national 
data set that is accurate at the scale of the nation, and inaccurate 
when examined at the scale of a state or land management unit. A more 
detailed and locally accurate version of condition class, called 
LandFire, is under development. But LandFire was only partially funded 
in the FY2004 budget. As a result, its development will be delayed and 
land managers won't be able to use LandFire for at least three or four 
years.
    In the meantime, land managers have to report the condition class 
of acres treated in 2003, both before and after. A team of agency 
scientists is rushing around the country training managers to measure 
condition class. Condition class assessment follows a scientific 
method, but the method is time-consuming and is not generally 
recognized by managers as valuable. The push to use science-based 
condition class measures is highlighting a fundamental clash of 
cultures between scientists, on the one hand, who are thorough and 
precise in their measurements, and managers, on the other hand, who are 
not receiving enough funding to perform the condition class assessment, 
but are required to get the classification done before applying their 
forest treatments.
    What this Means for Forest Management: Managers facing time and 
budget constraints will be tempted to cut corners on their condition 
class measurements. But the scientists who developed condition class 
have already learned that shortcuts produce unreliable measurements. As 
soon as enough measurements have been taken to generate reports of 
accountability, the bad numbers will be apparent. Yet, if erroneous 
condition class measurements appear, the land management agencies will 
once again be accused of evading accountability. Careful steps now to 
ensure the reliability of field-level condition class assessments, will 
help the nation by laying a foundation for future measurement of 
progress.

Maintaining Low Fuel Loads in Treated Forests
    Scientists estimate that 15 years after Southwestern ponderosa pine 
forests are thinned, new forest growth will bring the fuels right back 
to the pre-thinned level. The implications for management are that a 
regular program of prescribed burning and wildfire use, coupled with 
thinning in some instances, is needed to maintain fuel loads at normal 
levels. However, the federal land management agencies have not 
previously demonstrated that they have reliable systems for scheduling 
return visits to keep new fuels from accumulating.
    What this Means for Forest Management: The monitoring section of 
the Healthy Forests Restoration Act suggests, but does not require, 
that the agencies develop systems to track and schedule maintenance 
treatments for areas where fuels have been reduced. This step is 
essential if we are to get the most out of the public investment in 
fuels reduction and to contain fire suppression costs over the long 
run. If federal managers do not figure out how to track, schedule and 
fund these maintenance treatments, then forest conditions will decline 
again in another 50 years.

Management of Insect Infestations and Wildfire Risks
    Southwestern forest management is complicated by the interaction of 
wildfire, drought and insects. Some scientists believe we are entering 
an extended cycle of drought. Beetle populations have reached epidemic 
proportions, a normal occurrence during natural cycles of drought. The 
current beetle epidemic is exacerbated by past management--the same 
practices that increased the risk of catastrophic wildfire.
    As with thinning, managers need to use the best information 
available to them. Unfortunately, we know even less about beetle-
wildfire interactions than we do about the effects of thinning on fire 
behavior. The correlation between beetle-kill and increased fire risk 
is not well quantified in the scientific literature, and the results of 
recent studies are equivocal. For example, a 2003 study in the journal 
Ecology noted that little quantitative research has been conducted to 
test the hypothesis that insect-killed trees increases fire risk. The 
study looked at subalpine forests in Colorado and produced results that 
``do not support the long-standing notion that insect-caused mortality 
increases fire risk.'' The study found no increase in the number of 
wildfire ignitions, but did not look at increases in fire severity 
because of the difficulty of controlling experimental variables such as 
weather.
    Wildfire behavior in forests that have sustained insect-killed 
trees is also not well understood. For example, experienced foresters 
in the Southwest concur that the fire risk in insect-killed pinon pine 
trees decreases in 2-3 years, as soon as the needles have dropped, a 
phenomenon that is also true for Englemann spruce. In contrast, insect-
killed ponderosa pine trees become more flammable, because the insects 
stimulate pitch to concentrate in the tree boles and flammability 
remains high until the pitch decomposes. The differences in fire 
behavior of various tree species affected by insect mortality are not 
well quantified. Forest managers need this information to know when and 
how to develop treatment plans and to anticipate areas of higher fire 
risk after insect outbreaks.
    Field experience also tells us that thinning to reduce fuel loads 
could inadvertently spread bark beetles in areas with live trees. 
Thinning, to foresters, means the cutting of live trees to reduce 
forest density and to increase the resilience of the remaining forest. 
Thinning generates substantial slash, and the attraction of bark 
beetles to slash is well documented. The timing of thinning and the 
treatment of slash during a beetle epidemic are critical. As a result, 
most federal managers have added controls on the timing of slash 
disposal to their contracts and prohibiting thinning during the insect 
breeding season.
    What this Means for Forest Management: The Healthy Forests 
Restoration Act authorizes categorical exclusions for 1,000 acre 
research projects that will treat areas that are infested with insects 
or that are adjacent to infestations. The emphasis in this authority is 
research; yet it is, so far, an unfunded program and the mechanism for 
cooperation between research scientists and managers has not been 
determined. The emphasis in this research must be used to test three 
hypotheses that are, as yet, unproven: first, that the treatments 
slowed the spread of insects; second, that the treatments changed the 
behavior of subsequent fires; and third, that economic value was 
preserved by removing the wood before the infestation progressed 
further.

Forest Management Provides Economic Opportunities in Rural Communities
    New Mexico is a rural state where subsistence incomes that use 
products from the forest are common. Grazing, firewood cutting, and 
hunting are mainstays of many New Mexico family incomes. From this 
reliance on the land comes a desire to work in the woods, and a desire 
for direct involvement and employment restoring forest health.
    The Healthy Forests Restoration Act includes incentives for forest 
industry to invest in value-added products made from the by-products of 
fuels reduction treatments. But these incentives are not aimed at the 
local workforce in New Mexico. The Forest Trust has worked in forest-
based economic development for the last 15 years, and we have 
identified a host of barriers that keep small businesses from 
succeeding in the forestry sector. To address the needs of our local 
workforce, we need to break those barriers apart. We need forest 
managers to understand the needs and capacities of our workforce, and 
to become partners in enabling successful small businesses.
    The responsibilities of federal land management agencies are not 
clear. On the one hand, the Small Business Administration provides 
authorities and programs to benefit minority-owned businesses, and the 
National Fire Plan echoes these authorities with directions to use 
local workers wherever possible to accomplish fuels treatments. On the 
other hand, the Administration is promoting competitive outsourcing and 
the use of large, national contracts to reduce administrative costs. 
These conflicting mandates, and the lack of clarity in agency policy, 
hurts New Mexicans--who have more to gain from small business 
development, but face overwhelming obstacles.
    The barriers to small businesses that employ local workers are 
wide-ranging, and some do not fall under the jurisdiction of the land 
management agencies. For example, worker's compensation insurance rates 
in New Mexico for thinning are extremely high. Contractors pay more for 
worker's compensation insurance than they do for labor. Therefore, 
contractors from other states, where worker's compensation rates for 
thinning are lower, can easily underbid New Mexico businesses.
    Other barriers to employing local workers can be specifically 
addressed by the agencies. For example, the structure, size, and timing 
of contracts have a direct bearing on whether local contractors can 
offer competitive bids. Consider, for example, a project of 3,000 
acres. If the work is offered in one solicitation that requires the 
treatment to be completed in 3 months, then only large contractors with 
equipment and crews to treat 1,000 acres a month will bid. Even if 
local workers are hired, after three months they will be unemployed. 
Alternatively, the treatment period could be extended, allowing a local 
crew of 8 people to be fully employed for 18 months, or several 
smaller, short-duration contracts could be issued, allowing small 
contractors to bid.
    Federal land management agencies in the Pacific Northwest have made 
tremendous progress in their ability to offer restoration projects that 
create local employment opportunities. The controversies over the 
Northwest Forest Plan forced the agencies to examine their contracting 
authorities and to use them to put displaced loggers back to work in 
the woods. The lessons learned there can be applied to the Southwest so 
that local workers can benefit from the tremendous restoration effort 
that lies ahead.
    What this Means for Forest Management: It is probably too late for 
the FY2004 budget to include funding for fuels reduction that is much 
more than the funding received in FY2003, but by FY2005, we may see 
significant funding appropriated, as authorized by the Healthy Forests 
Restoration Act. Thus, the agencies and rural development enterprises 
will have one year to seek and implement solutions to the barriers that 
inhibit small businesses and local employment. A systematic effort to 
recognize barriers, build local business capacity, and prepare for 
upcoming contracts, will make New Mexico's workers part of the solution 
for restoring our region's forests.
                                 ______
                                 
    Mr. Pearce. I appreciate each one of you and the testimony 
that you have given.
    Dr. Fowler, as you talked about the moisture that we're 
finding now, and then looking back historically at the 
moisture, I recall testimony given to us four, five years ago 
in the state legislature which actually described the same 
things, that New Mexico historically, in 2000-year picture of 
moisture, has had droughts that extend two and 400 years in 
length. That's--we are living right now, our lives have been 
lived in a very wet, wet time historically, that we may not 
even know what drought may look like. I appreciate your 
reminder to that.
    I've got questions for each of you. We have a requirement 
to finish right on time so we will simply get as far as we can.
    I think, Ms. Padilla, you heard Ms. McCarthy testify that 
there was no, really no evidence of suggested that the thinning 
programs actually work. Yet, your forest, wasn't there a fire 
that was burning, a large fire burning right up to the edge of 
your forest, and when it got to the thinned area, didn't that 
fire drop to the ground out of the caps of the trees? Can you 
go into just a little bit of that observation that you all 
have?
    Ms. Padilla. We have seen that happen with several fires. 
Trap and Skeet was one that happened in 2000. 1996 we had the 
Chino wildfire. That one was burning through unthinned areas. 
We had people that had not wanted the housing area that was 
overrun with fire, had not wanted logging or thinning to be 
done adjacent to their homes. And that fire burned right 
through the crowns over the homes. And we were able to save 
those homes, we didn't lose any homes. It did drop down to the 
ground when it got into some of our logged and thinned areas.
    So the thing, the problem I see is that I think in some 
ways I do agree with Ms. McCarthy that we do need more 
monitoring. I think there are places where you have--we have 
seen that it is effective but nobody else knows about it but 
us, you know. And there is no funding, or I'm not very much 
available to monitor those sorts of things and provide hard 
data for people and prove it, you know, to show that the 
science does work, that there is some science behind it.
    Mr. Pearce. Thank you.
    Ms. McCarthy, you have heard the testimony from Dr. Fowler 
that said that we need to responsibly harvest. And then you 
also heard Ms. Padilla's testimony that harvesting should not 
just be the small diameters, that in her opinion, and the 
opinion of the Tribe, that harvesting would leave a certain, a 
drain to all trees besides being an indicator of age. What is 
your opinion in the groups that you represent here?
    Ms. McCarthy. My organization is an organization of 
foresters and so I would agree with both of them. We believe in 
harvesting trees of all sizes. My point about the research is 
not that there is no research but that there is very limited, 
surprisingly limited, published scientific literature on the 
topic. And through the Joint Fire Sciences Program, a lot of 
money is being invested in research. And, you know, five years 
from now we'll have a lot more scientific evidence, and that 
should be used by managers.
    So my point was that we have the Healthy Forest Restoration 
Act. We're going to get money into the National Forest and 
other public lands, we need to make sure that we are learning 
from the research as we go along and doing course corrections. 
Because the vision we have today is going to be altered by what 
we learn through science five years from now.
    Mr. Pearce. Dr. Fowler, you, again you've heard the 
testimony and the concerns of Ms. McCarthy that we do the 
thinning in here but maybe, in this new bill, but maybe haven't 
spent enough time and energy on the bill talking about 
restoration. Have you observed the bill closely enough to make 
a comment about that? Is that a concern that you find also?
    Dr. Fowler. Congressman, I would first like to address your 
first question about research.
    Mr. Pearce. OK.
    Dr. Fowler. First of all, there have monies been 
appropriated that haven't done anything down on the ground; we 
can use them.
    And second, we have two pieces of ongoing research that are 
very, very timely. One is done by a member of the Range Prudent 
Task Force, and it's entitled the ``Inventory and 
Classification of Wildfire Occurrence in Treated Versus 
Untreated Forest Stands on Southwestern National Forests.'' 
They've gone to all of these major forests and looked within 
them to see if there were areas that had been previously 
treated and how did the fire react in these very difficult and 
very hot fires. And the results are very encouraging that the 
positive effects of silvicultural treatments are there for 
reducing fire intensity.
    I think this is some landmark research that will make a lot 
of difference. This has been co-funded by the Rocky Mountain 
Forest organization in Flagstaff. This thing started 3 years 
ago.
    There's another real nice piece that the Task Force is 
working on, and that's where we've gone to salvage cuts in the 
Lincoln. And we've looked at the relationship between the elk, 
mule deer and cattle in the salvage cuts. Once again, this is 
an area of great promise, and that's that the--based on the 
health group data, that the elk use log-forested areas to the 
same approximate extent as mountain meadows. So here we are, 
having all of this attention concentrated on the mountain 
meadows, but it's really suggesting let's get in there and log. 
The elk will move there, we'll talk, once again, it's another 
suggestion, strong suggestion for responsible harvest. And I 
just--I'm very fortunate that that also is co-funded by the 
Rocky Mountain Forest Station. We are progressing in terms of 
restoration.
    I'm the eternal optimist. I really believe that we can take 
a different look at restoration and look at a 10-year period of 
restoration and use NEPA to help us get there. NEPA is a great 
tool if it is done correctly. We can go ahead and build a 
lattice around our National Forests, not just on the urban 
interface, but we're looking at a five-mile breaks all through 
our forests.
    The five-mile breaks under the 10-year period, the first 
three will be done for fire suppression benefits. That will 
supply the initial contracts that we need in our private 
sector, allow us to get an equal Congress of the rest under one 
umbrella, NEPA forest harvest that incites specific EAs for 
each individual area, and then build on the forest lattice that 
we have for fire protection, and allow our communities to be, 
once again, productive in an economic harmony. This is a great 
opportunity, Congressman, and I really appreciate you taking 
the time to give us a chance beat our chest and tell you we 
have some things on the ground, and we need more.
    Mr. Pearce. Thank you.
    Ms. Barrow, the--I want to back up and make an observation 
that too often we say that there's no money to do this or no 
many to do that, especially regarding fuel reduction and 
management of the forest. They will spend unlimited funds if it 
actually catches on fire, and they actually have spent 
unlimited funds. So my particular approach in this bill was, 
I'm not sure we can reach perfection of the bill but I think 
that we need to start cutting some trees before we burn every 
forest in New Mexico down.
    I grew up in Hobbs and about the only--with six kids, the 
only place we could go on vacation was Cloudcroft, and that was 
for the day. So since the early '50s I've seen that forest 
burn, either in the early '50s or late '40s there by Cloudcroft 
and it still doesn't have pine trees growing today. Fires can 
burn so hot that they do not come back in a generation.
    I personally have seen that. That's my concern, that some 
of the damage we're doing will be not reversible, not only in 
our lifetime, but our children's lifetime. So I voted to, to 
accomplish this, to pass this bill. And it may have 
imperfections. That's the reason we do these field hearings. 
And if we're not doing enough restoration, and if we're not 
doing enough, Ms. McCarthy, for maintenance into the future, 
those are the red flags that you bring up and you raise here; 
and so that's the exact function. Because, never do you get an 
exact bill. You go back into the future and begin to tailor it 
to be what we need.
    And so that's, again, my function here, first to let the 
agencies know what we had hoped to get.
    Second, to get these feedbacks so that we can hand-tailor 
it just a little bit better for all of us in the future. And 
there is no one single group that should dominate this whole 
issue.
    Now having said that, Ms. Barrow, you mentioned that there 
just haven't seemed to be much funds in the actual thinning and 
clearing processes that you are involved in are actually very 
small compared to the needs, that we're growing more board feet 
than we're actually harvesting out.
    And it is our intent to increase the funding significantly 
for the reduction of fuels. I need people on the ground here to 
let me know that that's going on or not going on, and that the 
money is being spent the way that it should be, the way that 
it's not. I would ask you formally, and any one of you on the 
panel, to respond to, not only my office, but to the Committee, 
because we do need to know if these policies are being carried 
out in ways that they're designed. And if they're designed 
improperly, then let us know that too.
    But I'm asking you and Dr. Fowler, you've got these charts 
that show dramatically the, the failure to cut any timber at 
all. And I would also ask you, formally, that if you will keep 
us posted as to how these numbers began to change. Frankly, we 
wonder as a Congress, when we appropriate funds for an agency 
to do certain things and they don't do them, then what do they 
use the people for and what do they use the funds for? And 
it's--that oversight responsibility is one that I find most 
people in Congress take very seriously, and I think this 
Committee does. But we just ask you to give us those feedbacks. 
And if you've got an observation that will be fine.
    Ms. Barrow. I recognize since we've started this business 
that our--I, honestly, I have to say that my understanding from 
other folks in industry that I've talked to from across the 
West, that our relationship with our National Forests and other 
land managers is, in many cases, dramatically different, more 
salient, more responsive and more open than many people 
experience.
    But I think it's important to note that we have been able 
to sit down together and identify an interdependent 
relationship that works to achieve the goals and objectives of 
the Land Management Agencies, as well as the private sector. 
We, my husband and I, in fact, created this business in 
response to the need that was stated in a strategic plan of the 
USDA Forest Service.
    So we, we personally took a trusting relationship from the 
get-go, and we have been able to--it's just like any 
relationship you have, you know, you have moments where you 
disagree but you don't divorce each other over it, you work 
through them.
    And, in fact, we are thinning, and I thought it was a 
relatively small amount that had been identified when we first 
began, but, in fact, we have been on the ground a lot and 
actually been able to see and show our community the stuff all 
the way to the consumer. And it is working. It's very small. As 
I said in my remarks, we started in January of 2003 selling 
products, so we will just complete our first year of sales in 
January of 2004. And the future looks bright.
    That said, it is--we must be vigilant with our land 
managers in identifying the ways to move material. Our business 
is driven by the treatment of the land. So, yes, it is 
happening where we are. We have a major constraint, workers' 
compensation. We have trade issues, which anyone in the wood 
industry in this nation, if you can deal with some of those 
Canadians, I'm there with you. I can get a room full of people 
to speak to you about how that impacts us in the wood industry.
    But the trust issue is something that we have been able to 
actually achieve, in my opinion, with regard to what we're 
trying to do. And we have to recognize that everyone has their 
constraints. So we're very, very hopeful that not only will we 
continue, but increase the access to material.
    Ms. Padilla and SBS, we have been to Mescalero, we've tried 
to figure out ways to utilize some of that small-diameter 
material that may or may not be available in the infrastructure 
that is completely missing, to load material and transport it. 
We had hoped very much, along with, I'm sure, many other folks, 
that some of these $20 for three-ton transportation credit that 
was in the energy bill would become available and, for us, it 
would have doubled our range in transport, and really made that 
last linkage to get material utilized that's either lying on 
the ground, and potentially is a bug infestation waiting, I 
mean it's just generation after generation. If we move it to 
our facility, we cook it at 1400 degrees, they don't survive.
    Mr. Pearce. Thank you.
    Ms. Padilla, you have really fascinating projects. I have 
become very familiar with the thinning projects in your area 
first. We had discussed them in principle in state legislature 
back in 1997 and '98. I had my first thinning bill in the state 
legislature in '99, and then again in 2000. But you all were 
really the ones that gave a good visual demonstration. Tell me 
how the thinning projects affect water and springs. What do you 
all find in your area?
    Ms. Padilla. We've seen the most drastic changes with 
surface water. I've had, in our meetings that we have with the 
Ruidoso Wildlife and they work through--I'm also on the Otero 
Soil and Water Conservation Board, I've had private ranchers 
off the reservation see more results than we actually see on 
the reservation. And that's an indicator to me of the more far-
reaching kind of results.
    But I have had ranchers to the northeast of the reservation 
tell me they have seen streams flow that haven't flowed for 
decades. We've seen some springs come back. What we've started 
lately, we have a hydrologist that we funded through U.S. EPA, 
and the EPA funding is more water quality oriented. But we've 
been able to contribute some funding and allow them to monitor 
wells, and we haven't been doing that long enough, only about 2 
years now, to really see changes. But we'd like to keep on 
monitoring that. Funding is a big issue.
    Even with the thinning that we do, and Sherry had 
mentioned, having not been able to take wood off of the 
reservation, part of the problem is we run a very marginal 
thinning program. The Bureau of Indian Affairs is the one we 
contract funding through National Fire Plan. We give $500 an 
acre to be thinning.
    That doesn't allow us to take material out of the woods. 
Usually we're junking it long and fair, is what we do, burning 
with piles and some broadcast burning. If we could have 
additional funding, you know, like you said, a lot of money, 
unlimited money is spent on putting out fires, but even a 
marginal increase in the thinning would really help to actually 
get material out of the wood so that people like Sherry could 
utilize it.
    Mr. Pearce. The initial target of our Healthy Forest bill 
was to begin to treat about 20 million acres. We've got about 
190 million acres nationwide, so it would be a very small 
amount. But you can think that a lot of the pressures in the 
forest fires and the cost of those originate in the western 
area states, and if--and a lot of the states, frankly, don't 
need the treatment programs, they've got sufficient water to 
sustain whatever population exists.
    So I suspect that the treatment areas will congregate in 
the western part of the U.S., and if we could depress the cost 
of the fires every year by stopping the number that actually 
break out and burn, then I think the available funding will 
become a larger and larger percent. We can scoop funds across 
from fire control to advanced planning and restoration.
    The--we're up against a time limit. We're working for the 
Subcommittee and they work on very formal procedures. We've 
been allotted 2 hours and, frankly, if it were my hearing I 
would like to continue this because I think everyone here can 
see that we really did, with a pendulum swung too far to the 
one side, we've allowed our forest to overgrow.
    The things that don't make sense, we would have fires that 
would kill the trees and then there would be impasses that 
would not allow us to harvest the burned trees until they have 
no value. And those things, whether we depended on, didn't need 
to swing back. But I think all of you have brought--everyone in 
the panels have made it clear that the pendulum doesn't need to 
swing all the other way.
    And I especially Ms. McCarthy's points that had the 
pendulum swinging, that we need to make small business a very 
key part of this. My background is small business. When you 
mentioned Worker's Comp, I am very familiar with the different 
Worker's Comp rates. I can only imagine that you don't quite 
get to the Worker's Comp rate that we experience in the oil 
field because it's almost dollar for dollar. And so it's a very 
expensive thing and I'm very familiar.
    But I think that we've gotten enough information today to 
supplement other hearings like this that are going on across 
the country. Again, my hope is that we bring the pendulum back 
toward the middle, that we don't let it swing so far that we 
begin to take advantage of our resources. I think no one 
anywhere on the Resources Committee has ever said that clear 
cutting was anything that we're after.
    What we're after is a sustainable resource that we give 
into the next generation and it's able to be there without 
burning. But I really do appreciate all of the panelists. It's 
been exceptional comments. It's been exceptional testimony.
    We will--if any of you would like to submit additional 
testimony, again, your written comments are going on full, but 
please feel free to e-mail your additional testimony from 
anyone in the audience to Forest Health at Mail dot House dot 
Gov.. And that is Forest Health with a dot between the Forest 
and the Health. And Forest is capitalized and Health is 
capitalized.
    So Forest dot Health at Mail dot House dot Gov, if would 
you like to put comments into the formal record for today. Also 
you can mail those to 1337 Longworth House Office Building, 
that's LHOB, Washington, D.C., 20515. The fax number, if you 
would like to fax me, is 202-225-0521. And we will keep the 
record open for this hearing for 10 days from today.
    The testimony, the full testimony from the hearing will be 
posted on our website following the hearing. That is http://
resourcescommittee.house.gov/archives/108/ffh/index.htm. You 
can come and see us if you want to. I think you can probably do 
a search and get it there.
    Again, we thank each member of the panelists who testified 
before us. We think that for New Mexico, for, for both the 
future, because the National Forest is such an integral part of 
our livestock, our culture, but also that will be an integral 
part of our industry and our job base, that we'll continue 
these discussions, we'll continue to try to fine tune the 
legislation that we've passed this year.
    It definitely changes the mix. We did not--we did not look 
at at a severe problem and go away without changing it. Now, 
then, it's our task to make sure that those changes are 
effective and that they're not too extreme one way or another. 
So if you will watch as we develop legislation next year, 
usually get a chance to review that legislation, please feel 
free to make those comments to us as you see that and continue 
to have a citizen input into the Federal government, because 
this is what makes it work properly.
    If there is no further business before the Subcommittee I 
again thank our witnesses, each panel.
    The Subcommittee now stands adjourned.
    [Whereupon, the Subcommittee was adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
